<html>
<title> - EXAMINING THE NATIONAL RESPONSE TO THE WORSENING CORONAVIRUS PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
 EXAMINING THE NATIONAL RESPONSE TO THE WORSENING CORONAVIRUS PANDEMIC

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2020

                               __________

                           Serial No. 116-73

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
43-190 PDF               WASHINGTON : 2021                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     5

                               Witnesses

Honorable Jay Robert ``J.B.'' Pritzker, Governor, State of 
  Illinois:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Jason L. Shelton, Mayor, City of Tupelo, State of 
  Mississippi:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Dr. Umair A. Shah, Executive Director and Local Health Authority 
  of Harris County Public Health, Texas:
  Oral Statement.................................................    22
  Prepared Statement.............................................    25
Colonel Brian Hastings (Ret.), Director, Alabama Emergency 
  Management Agency:
  Oral Statement.................................................    33
  Prepared Statement.............................................    36

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Data...........................................................    76
  Article, July 7, 2020..........................................    77
  Article, July 4, 2020..........................................    79
  Article, May 17, 2020..........................................    81
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Statement of the Robert Wood Johnson Foundation................    73


 EXAMINING THE NATIONAL RESPONSE TO THE WORSENING CORONAVIRUS PANDEMIC

                              ----------                              


                        Wednesday, July 8, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:02 p.m., via 
Webex, Hon. Bennie G. Thompson (Chairman of the committee) 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Richmond, Payne, Rice, Correa, Torres Small, Rose, Underwood, 
Slotkin, Cleaver, Green of Texas, Clarke, Titus, Watson 
Coleman, Barragan, Demings, Rogers, Katko, Higgins, Lesko, 
Joyce, Crenshaw, Guest, Bishop, and Van Drew.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
examining the National response to the worsening of the 
coronavirus pandemic.
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Today the Committee on Homeland Security is meeting to 
examine our National response to the worsening coronavirus 
pandemic. This hearing comes at a critical moment. The number 
of coronavirus cases is surging, topping 50,000 per day for the 
first time on July 1, and setting alarming records for new 
cases over the past week.
    Dr. Anthony Fauci recently warned that U.S. cases could 
double to 100,000 per day, if current outbreaks in the South 
and West are not contained, putting the entire country at risk.
    As infections threaten to spiral out of control, President 
Trump has tried to downplay the impact of COVID-19, calling 99 
percent of cases totally harmless, even as more than 130,000 
Americans have died and many more have become seriously ill. 
Just this week, he falsely claimed the U.S. coronavirus death 
rate is the lowest in the world when, in fact, it is among the 
highest. Unfortunately, the President's comments come as no 
surprise.
    His administration's response to the coronavirus has been 
an abject failure by any reasonable measure. He ignored early 
intelligence on the virus, continues to disregard the opinions 
of doctors and scientists, including those in his own 
administration, and perpetuates misinformation about COVID-19 
rather than allowing the experts to speak directly to the 
American people about the disease.
    Just yesterday, Congress received notification that the 
President has begun the process of withdrawing the United 
States from the World Health Organization in the midst of a 
pandemic, endangering global health against our own interests. 
The President has shirked his administration's responsibility 
to prepare and respond to the pandemic and his own obligation 
to the Nation in a time of crisis, shifting the burden to State 
and local governments and the people--and the American people. 
The effect of American lives lost and damage to our economy 
have been devastating.
    The United States currently has 20 percent of the world's 
coronavirus cases, despite having only 4 percent of the world's 
population. As the countries are bringing their outbreaks under 
control, U.S. cases are headed in the opposite direction. 
Meanwhile, President Trump continues to deny the severity of 
the problem and is instead focused on his own reelection 
campaign.
    Many State and local governments, public health officials, 
hospitals, and medical workers are doing the best they can 
under the circumstances, but we need real leadership at the 
Federal level if our country is to overcome the COVID-19 
pandemic.
    Today we will hear from those who have taken action where 
the administration has failed to do so: A Governor, a mayor, a 
public health official, and an emergency manager. They are in 
many ways on the front line of this worsening pandemic, 
obtaining PPEs and testing supplies, requiring masks and social 
distancing, and sounding the alarm about the devastating 
effects of this disease on minority and economically-
disadvantaged communities.
    I hope to hear that testimony about what needs to be done 
to reverse the current trend of cases to protect our health and 
our economy. The American people are counting on us.
    I thank the witnesses and my colleagues for participating 
today.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              July 8, 2020
    This hearing comes at a critical moment. The number of U.S. 
coronavirus cases is surging, topping 50,000 per day for the first time 
on July 1 and setting alarming records for new cases over the past 
week. Dr. Anthony Fauci recently warned that U.S. cases could double to 
100,000 per day if current outbreaks in the South and West are not 
contained, putting the entire country at risk.
    As infections threaten to spiral out of control, President Trump 
has tried to downplay the impact of COVID-19, calling 99 percent of 
cases ``totally harmless'' even as more than 130,000 Americans have 
died and many more have become seriously ill. Just this week he falsely 
claimed the U.S. coronavirus death rate is the lowest in the world, 
when in fact it is among the highest.
    Unfortunately, the President's comments come as no surprise. His 
administration's response to the coronavirus has been an abject failure 
by any reasonable measure. He ignored early intelligence on the virus, 
continues to disregard the opinions of doctors and scientists including 
those in his own administration, and perpetuates misinformation about 
COVID-19 rather than allowing the experts to speak directly to the 
American public about the disease.
    Just yesterday, Congress received notification that the President 
has begun the process of withdrawing the U.S. from the World Health 
Organization in the midst of a pandemic, endangering global health 
against our own interest.
    The President has shirked his administration's responsibility to 
prepare and respond to the pandemic and his own obligation to lead the 
Nation in a time of crisis, shifting the burden to State and local 
governments and the American people. The effects on American lives lost 
and damage to our economy have been devastating.
    The United States currently has 20 percent of the world's 
coronavirus cases despite having only 4 percent of the world's 
population. As other countries are bringing their outbreaks under 
control, U.S. cases are headed in the opposite direction. Meanwhile, 
President Trump continues to deny the severity of the problem and is 
instead focused on his own re-election campaign.
    Many State and local governments, public health officials, 
hospitals, and medical workers are doing the best they can under the 
circumstances. But we need real leadership at the Federal level if our 
country is to overcome the COVID-19 pandemic.
    Today, we will hear from those who are taking action where the 
administration has failed to do so--a Governor, a mayor, a public 
health official, and an emergency manager. They are in many ways on the 
front lines of this worsening pandemic--obtaining PPE and testing 
supplies, requiring masks and social distancing, and sounding the alarm 
about the devastating effects of this disease on minority and 
economically-disadvantaged communities.
    I hope to hear their testimony about what needs to be done to 
reverse the current trend of cases to protect our health and our 
economy. The American people are counting on us.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman. I appreciate you 
granting my request to allow Members to use the hearing room 
today. As you know, I strongly disagree with the unilateral 
decision to shut down the House of Representatives. We should 
be conducting our important oversight and legislative business 
here in Washington. We are much more productive when Members 
are here in person doing our work together. We have always 
proven we can do it safely. I hope we will return to regular 
work as soon as possible.
    As I said before, our hearts go out to those who have lost 
their loved ones to COVID-19 and those who are currently 
undergoing treatment. COVID-19 is an unprecedented global 
pandemic that requires unprecedented response.
    Unfortunately, we lost time early in the response when 
China hid the disease from the world. For weeks, the Chinese 
Communist Party refused entry of outside medical experts. The 
Chinese suppressed journalists reporting. Worst of all, China 
deliberately withheld evidence of the virus, the virus' 
structure, and deadly spread. During this, the Chinese hoarded 
life-saving medical supplies and encouraged foreign travel, 
seeding the virus across the globe.
    I want to commend Ranking Member McCaul's work on the 
Foreign Affairs Committee to extensively document this deadly 
cover-up in a recent report.
    It is clear that China has pulled out all the stops to 
manipulate everyone, from media outlets to the World Health 
Organization. The WHO maintained for months that China had 
promptly self-reported COVID-19. They did not. After months of 
lying, the WHO has come clean. The WHO now says it found out 
about COVID from media reports and whistleblowers from within 
China.
    The Chinese Communist Party, once again, has been caught 
with blood on its hand.
    Facing an extraordinary public health crisis, China's 
deadly cover-up, the Trump administration has responded with a 
whole-of-Government response. To date, the administration has 
prohibited the entry of travelers from global hotspots; invoked 
the Defense Production Act to increase supplies of critically-
needed medical equipment, such as ventilators; coordinated the 
delivery of 176 million respirators, 682 million surgical 
masks, and 17 billion gloves; sent over $125 billion to the 
States to support medical response to COVID-19; distributed 
over $500 billion in PPP loans to small businesses; helped 
facilitate the testing of over 36 million tests. In fact, we 
are now capable of conducting over 700,000 tests per day. That 
is good news.
    The bad news is the number of positive tests are rising in 
many States. That is why it is important for all Americans to 
continue to heed the advice of our Federal Government, State, 
and local public health officials.
    I am pleased to see a couple of public health emergency 
response officials on the panel today. Colonel Hastings 
currently serves as the director of Alabama's Emergency 
Management Agency. He has a very distinguished career, 30-year 
career in the Air Force. For the last 3 years, he has done a 
tremendous job leading the EMA's response to several natural 
disasters and now the COVID-19.
    Colonel, thank you for joining us today.
    I appreciate all the witnesses for appearing. I look 
forward to hearing you all, hearing how you are using emergency 
funding and support resources provided by Congress and the 
administration to respond to this crisis. I am also interested 
in knowing what more Congress can do effectively to help you 
respond.
    Our country has faced outbreaks of serious disease in the 
past. In each case, we have marshalled our collective resources 
and ingenuity to overcome the crisis. I am confident that will 
be the case with COVID-19.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                              July 8, 2020
    Thank you, Mr. Chairman.
    I appreciate you granting my request to allow Members to use the 
hearing room today.
    As you know, I strongly disagree with the Speaker's unilateral 
decision to shut down the House of Representatives. We should be 
conducting our important oversight and legislative business here in 
Washington.
    We are much more productive when Members are here, in person, doing 
our work together. We've already proven we can do it safely. I hope we 
will return to regular order as soon as possible.
    As I said before, our hearts go out to those who have lost their 
loved ones to COVID-19 and those who are currently undergoing 
treatment. COVID-19 is an unprecedented global pandemic that requires 
an unprecedented response.
    Unfortunately, we lost precious time early in the response when 
China hid the disease from the world. For weeks the Chinese Communist 
Party refused entry to outside medical experts. The Chinese suppressed 
journalists from reporting. Worst of all, China deliberately withheld 
evidence of the virus' structure and deadly spread.
    During this, the Chinese hoarded life-saving medical supplies and 
encouraged foreign travel, seeding the virus across the globe. I want 
to commend Ranking Member McCaul's work on the Foreign Affairs 
Committee to extensively document this deadly cover-up in a recent 
report.
    It's clear that China has pulled out all the stops to manipulate 
everyone from media outlets to the World Health Organization. The WHO 
maintained for months that China had promptly self-reported COVID-19.
    They did not.
    And after months of lying the WHO has come clean. The WHO now says 
it found out about COVID from media reports and whistleblowers from 
China. The Chinese Communist Party once again has been caught with 
blood on its hands.
    Facing an extraordinary public health crisis and China's deadly 
cover-up, the Trump administration has responded with a whole-of-
Government response.
    To date, the administration has----
  <bullet> Prohibited the entry of travelers from global hot spots;
  <bullet> Invoked the Defense Production Act to increase supplies of 
        critically-needed medical equipment, such as ventilators;
  <bullet> Coordinated the delivery of over 167 million respirators, 
        682 million surgical masks, and 17 billion gloves;
  <bullet> Sent over $125 billion to the States to support the medical 
        response to COVID-19;
  <bullet> Distributed over $500 billion in PPP loans to small 
        business; and
  <bullet> Helped facilitate the testing of over 36 million tests.
    In fact, we are now capable of conducting over 700,000 tests per 
day.
    That's the good news. The bad news is that the number of positive 
tests are rising in many areas. That's why it's so important for all 
Americans to continue to heed the advice of our Federal, State, and 
local public health officials.
    I am pleased to see a couple of public health and emergency 
response officials on the panel today.
    Colonel Hastings currently serves as the director of Alabama's 
Emergency Management Agency. He had a very distinguished 30-year career 
in the Air Force. For the last 3 years, he has done a tremendous job 
leading EMA's response to several natural disasters and now the COVID-
19 pandemic. Colonel, thank you for joining us today. I appreciate all 
the witnesses for appearing.
    I look forward to hearing how you all are using the emergency 
funding and resources provided by Congress and the administration to 
respond to this crisis.
    I am also interested in knowing what more Congress can do to help 
you effectively respond. Our country has faced outbreaks of serious 
disease in the past. In each case, we've marshalled our collective 
resources and ingenuity to overcome the crisis.
    I'm confident that will be the case with COVID-19.
    Thank you, Mr. Chairman. I yield back.

    Chairman Thompson. [Inaudible]
    Mr. Rogers. Can you all hear the Chairman? I can't either.
    Chairman Thompson. Can you hear me now?
    Mr. Rogers. Yes, yes.
    Chairman Thompson. All right. Other Members of the 
committee are reminded that under the committee rules, opening 
statements may be submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                              July 8, 2020
    Chairman Thompson and Ranking Member Rogers, thank you for holding 
today's hearing on ``Confronting the Coronavirus: The Federal 
Response.''
    I thank today's witnesses and look forward to their testimony:
  <bullet> Jay Robert ``J.B.'' Pritzker, Governor of Illinois
  <bullet> Jason Shelton, Mayor, City of Tupelo, Mississippi
  <bullet> Umair A. Shah, MD, MPH, Executive Director and Local Health 
        Authority, Harris County (TX) Public Health
  <bullet> Col. Brian Hastings, USAF (ret.), Director, Alabama 
        Emergency Management Agency.
    This hearing will allow Members to question State and local leaders 
about the impact of the novel coronavirus (COVID-19) and the failures 
of the Trump administration's response to the pandemic in their 
communities.
    Members will also have an opportunity to discuss how to improve 
pandemic response and better support communities across the country 
currently seeing sharp increases in COVID-19 cases.
    We owe a special debt to First Responders who will be the lifeline 
for many who will need medical care to overcome this coronavirus.
    I introduced the ``FIRST COVID-19 Care Delivery Act'' to provide a 
path to citizenship for doctors and nurses working in the United States 
under the J or H visa designations or may be in the country under TPS 
or DACA status.
    My focus from the earliest news reports in early January on the 
novel Coronavirus's rapid spread in China was what needed to be done to 
minimize infections in the United States and find a cure.
    I knew COVID-19 was not something to be taken lightly and that time 
was not on our side to mount an effective defense based on my years of 
service under several administrations.
    There was a body of Federal work on the topic of a global flu-like 
pandemic and what the United States needed to do to protect its people, 
but I had concerns that the current administration would not fully 
appreciate the gravity of the situation or be positioned to take the 
right steps and push into action the key offices and programs needed.
         History of U.S. Planning to Combat a Flu-Like Pandemic
    Starting in 2005, the Bush administration released the ``National 
Strategy for Pandemic Influenza,'' which called for greater 
coordination of domestic production and stockpiling of medical supplies 
in anticipation of a potential influenza outbreak.
    Additionally, the Strategy included the following warning:

``A pandemic, or world-wide outbreak of a new influenza virus, could 
dwarf this impact by overwhelming our health and medical capabilities, 
potentially resulting in hundreds of thousands of deaths, millions of 
hospitalizations, and hundreds of billions of dollars in direct and 
indirect costs.''

    In 2016, the Obama administration developed a strategic playbook on 
pandemic preparedness.
    The 69-page Pandemic guide, entitled, ``Playbook for Early Response 
to High-Consequence Emerging Infectious Disease Threats and Biological 
Incidents,'' includes, ``hundreds of tactics and key policy decisions 
laid out by the National Security Council what should be done to fight 
pandemics.''
    Also in 2016, the Obama administration established the National 
Security Council Directorate for Global Health Security and Biodefense, 
also known as the White House's Pandemic Response Office, with the 
mission of doing ``everything possible within the vast powers and 
resources of the U.S. Government to prepare for the next disease 
outbreak and prevent it from becoming an epidemic or pandemic.''
    The Trump administration disbanded the office in 2018.
    In January 2017, the U.S. Department of Defense finalized a report 
on pandemic influenza and infectious disease response.
    The report warned:

``A catastrophic biological incident could threaten the Nation's human, 
animal, plant, environmental, and economic health, as well as America's 
national security. Such an event would demand a rapid and effective 
response in order to minimize loss of life and other adverse 
consequences associated with the incident and to thwart ongoing threats 
and follow-on attacks in the case of suspected criminal activity or 
terrorism. The potential for a large biological incident to impact the 
United States is real.''

    Months before the spread of COVID-19, ``the Trump administration 
eliminated a key American public health position in Beijing intended to 
help detect disease outbreaks in China . . . [an] American disease 
expert, a medical epidemiologist embedded in China's disease control 
agency, left her post in July [2019].'' The expert, Dr. Linda Quick, 
worked for the U.S. Centers for Disease Control and Prevention (CDC), 
and according to one report, ``was in an ideal position to be the eyes 
and ears on the ground for the United States and other countries on the 
coronavirus outbreak, and might have alerted them to the growing threat 
weeks earlier.''
    A September 2019 report, published by the White House's Council of 
Economic Advisers, ``warned a pandemic disease could kill a half 
million Americans and devastate the economy.''
    In November 2019, according to multiple public reports, ``U.S. 
intelligence officials were warning that a contagion was sweeping 
through China's Wuhan region, changing the patterns of life and 
business and posing a threat to the population.''
    The American people needed the Federal Government at its best to 
protect them from a previously unknown, deadly, and highly infectious 
respiratory threat as it developed into a global pandemic.
    On February 10, 2020, I held the first press conference on the 
issue of the novel coronavirus at Houston Intercontinental Airport.
    I was joined by public health officials, local unions, and 
advocates to raise awareness regarding the virus and the implications 
it might have for travel to the United States from China and to combat 
early signs of discrimination targeting Asian businesses in the United 
States.
    On February 24, 2020, I held a second press conference on the 
International Health Regulations Emergency Committee of the World 
Health Organization declaration of a ``public health emergency from the 
outbreak of the Coronavirus.''
    At that time, I sent a letter to the President of the United States 
requesting the immediate suspension of any health-related cuts that 
impact efforts to contain and treat the coronavirus, including the $3.3 
billion in cuts to the National Institutes of Health (NIH) and the 
discretionary budget cuts for the Centers for Disease Control and 
Prevention (CDC) of nearly 19 percent at $678 million, severely 
threatening the CDC's ability to respond to this and other epidemics in 
the future.
    Additionally, I requested the President to suspend cuts in both the 
Medicare and Medicaid programs.
    On February 26, 2020, I sent a letter to the Chair and Ranking 
Member of the Committee on Homeland Security seeking a meeting with 
Acting Secretary of Homeland Security Chad Wolf to gain insight into 
the Preparedness of the Agency to address a possible pandemic.
    On February 28, 2020, I spoke on the floor of the House and 
announced plans to form a Congressional Coronavirus Task Force.
    On Monday, March 9, 2020, we sent the Dear Colleague invitation to 
other Members of the House, which was signed by me and the 2 co-chairs: 
Congressmen Brian Fitzpatrick, and Dr. Raul Ruiz, as an invitation to 
other Members to join the Congressional Coronavirus Task Force.
    As you recall Chairman Thompson, on March 11, 2020, the World 
Health Organization declared that COVID-19 was a pandemic, which had by 
that date reached at least 114 countries, sickening over 100,000 
people, and killing more than 4,000.
    On January 29, 2020, the administration established a Federal 
Coronavirus Task Force and began to close international travel, 
eventually closing border crossings almost entirely.
    After holding Task Force Briefings daily and first taking the lead 
on the U.S. response, the administration then began shifting the 
responsibility to Governors who have been left to shoulder the burden 
of figuring out how to chart a path through a global pandemic.
    The Task Force has resumed public activity and working with State 
Governors to meet local and State needs.
    The Nation has not left the first wave and we are predicted to have 
a second more deadly wave in the fall.
    The number of infections is on the rise and Governors and local 
governments are the last line of defense for a COVID-19-exhausted 
Nation.
    On July 6, the CDC reported 2,932,596 cases of COVID-19 in the 
United States, and 130,133 deaths.
                               july 2020
    On July 7, 2020, the World Health Organization (WHO) reported 
11,500,302 confirmed cases of COVID-19 globally.
    On July 7, 2020, the Texas Department of State Health Services 
(DSHS) reported 200,557 cases of COVID-19 in the State of Texas, which 
included an estimated 94,120 active cases, 103,782 individuals who have 
recovered from the virus and 2,655 confirmed COVID-19-related 
fatalities.
    On July 7, 2020, DSHS also reported that Texas had its deadliest 
day from the coronavirus with 75 deaths and 10,400 new infections 
State-wide, according to a data analysis and reporting by Hearst 
Newspapers.
    Across Texas, a total of 2,431,861 COVID-19 tests have been 
completed, of which 2,163,729 were viral tests and 207,980 were 
antibody tests.
    On June 26, Harris County Judge Lina Hidalgo raised the Current 
Level of Risk for Harris County from Level 2 to Level 1 or Code Red.
    Level 1 signifies a severe and uncontrolled level of COVID-19 in 
Harris County, meaning outbreaks are present and worsening and that 
testing and contact tracing capacity is strained or exceeded.
    As of July 7, 2020, Houston and Harris County Combined: cases 
39,311, and deaths 407; Harris County: cases 13,915, deaths 163; and 
Houston: cases 25,396, deaths 244.
    At this level, residents must take action to minimize contacts with 
others wherever possible and avoid leaving home except for the most 
essential needs like going to the grocery store for food and medicine.
                            governor abbott
    The Governor of Texas is taking action to pause or roll-back 
measures intended to open the economy given the dire rise in COVID-19 
infections in his State.
    On July 2, Governor Abbott issued an Executive Order requiring all 
Texans to wear a face covering over the nose and mouth in public spaces 
in counties with 20 or more positive COVID-19 cases, with few 
exceptions.
    On June 3, 2020, the Governor issued an executive order stopping 
local jurisdictions like Harris County and the city of Houston from 
taking steps to mandate that all persons in public spaces must wear 
face coverings or masks to reduce the spread of COVID-19.
    On June 17, 2020, Governor Abbott issued a new executive order that 
placed responsibility for all customers and employees wearing of face 
mask or coverings on the business owner and in effect rescinded the 
June 3 order.
    The Governor also issued a proclamation giving mayors and county 
judges the ability to impose restrictions on some outdoor gatherings of 
over 10 people, and making it mandatory that, with certain exceptions, 
people cannot be in groups larger than 10 and must maintain 6 feet of 
social distancing from others.
    On July 2, Governor Abbott announced that the Texas Health and 
Human Services Commission (HHSC) will provide approximately $182 
million in emergency Supplemental Nutrition Assistance Program (SNAP) 
food benefits for the month of July.
    On July 2, Governor Abbott and the Texas Health and Human Services 
Commission (HHSC) announced that $2.67 billion in Federal funding has 
been approved to support Texas hospitals that provide care for people 
receiving Medicaid.
    The glaring omission is the State of Texas refused to expand 
Medicaid under the Affordable Care Act, which means millions of Texans 
in need of health care due to COVID-19 may delay in seeking urgent 
medical care unless steps are taken to inform them of their status 
given the conditions created by the Pandemic.
                               june 2020
    On June 30, Governor Abbott and the Texas Health and Human Services 
Commission (HHSC) announced $9 million in Federal funding for nursing 
facilities to implement infection control.
    On June 30, Governor Abbott issued a proclamation suspending 
elective surgeries at hospitals in Cameron, Hidalgo, Nueces, and Webb 
counties to help ensure hospital bed availability for COVID-19 patients 
in these communities.
    This proclamation amends the Governor's previous Executive Order to 
include these 4 counties in addition to Bexar, Dallas, Harris, and 
Travis counties.
    We are witnessing the State of Texas and community on what might be 
the brink of its worst nightmare: Hospitals overrun with extremely ill 
patients--not enough beds, doctors, nurses, equipment, or medicine.
    It is my concern that Harris County and the city of Houston may be 
on a glide path into what New York City experienced when the virus 
spiked killing over 27,000 New Yorkers.
    In March, estimates had COVID-19's infectiousness ratio as 2.3, 
much higher than the flu, which is 1.5.
    From the earliest arrival of the virus that causes COVID-19 we have 
been struggling with the idea of asymptomatic and symptomatic persons 
and the messaging around the two has not been clear.
                          testing for covid-19
    Testing across the Nation and in my State of Texas has greatly 
improved, but it is still short of where we need to be in order to 
reopen safely.
    I am troubled by plans to end the Federally-managed community-based 
sites in the Harris County and the city of Houston without concrete 
assurances that the sites will be maintained and fully staffed.
    It is also troubling that contracts for testing and contact tracing 
were left without consideration of cultural competence, diversity, and 
inclusion to assure that the planning and execution of these essential 
components for checking the spread of COVID-19 would be effective in 
all communities and areas of the State.
    According to the CDC 39,011,749 (over 39 million) tests have been 
given resulting in 3,604,689 positive cases of COVID-19 being 
identified, which is 9 percent of the total number of people tested.
    The State of Texas has 29 million residents and only 2.4 million 
test have been done.
    There should and must be more robust and expansive community-based 
testing.
    Our Nation can win this battle against COVID-19 because we have 
knowledgeable and trained virologists, public health experts, and 
physicians who are available to help people get the information they 
need and provide care should they need it.
    To win we must have the leadership, appropriate levels of funding, 
and the guidance of State, Tribal, territorial, and local public health 
officials.
    I look forward to witness testimony on this important homeland 
security threat.
    Thank you.

    Chairman Thompson. I will yield to the Ranking Member for 
the purposes of a colloquy.
    Mr. Rogers. Thank you, Mr. Chairman. Could you please 
explain our agreement on the committee procedures during these 
remote proceedings?
    Chairman Thompson. Thank you, Ranking Member. Let me begin 
by saying that standing House and committee rules and practice 
will continue to apply during this remote proceeding. Members 
will be expected to continue to adhere to the rules of the 
committee and the House. During the COVID period, as designated 
by the Speaker, the committee will operate in accordance with 
House Resolution 965 and the subsequent guidance from the Rules 
Committee in a manner that respects the right of all Members to 
participate.
    The technology we are utilizing today requires us to make 
some small modifications to ensure that the Members can fully 
participate in these proceedings.
    Mr. Rogers. Thank you, Mr. Chairman. Could you elaborate on 
how Members may expect to be recognized during the remote 
proceeding?
    Chairman Thompson. Thank you. First, to simplify the order 
of questioning, I will recognize Members for their 5 minutes 
questioning based on a strict seniority basis as determined by 
our committee roster, a departure from previous procedure. 
Members must be visible to the Chair in order to be considered 
as present for purposes of establishing a quorum or for voting. 
Members should make every effort to remain visible on screen 
throughout the proceedings. If a Member experiences issues with 
their video stream, they may proceed with solely audio to 
ensure connection, provided they have been identified 
previously.
    At the beginning of this hearing, Members are muted. 
Members may unmute themselves in order to be recognized for 
purposes of their 5 minutes of questioning of the witnesses. At 
the conclusion of speaking, Members will be expected to then 
mute themselves to prevent excess background noise. If a Member 
does not mute themselves after speaking, the clerk has been 
directed to mute Members to avoid inadvertent background noise.
    Should a Member wish to be recognized to make a motion, 
they must unmute themselves and seek recognition at the 
appropriate time.
    Mr. Rogers. Thank you, Mr. Chairman. What could a Member 
expect should they encounter technical issues during this 
remote event?
    Chairman Thompson. In the event a Member encounters 
technical issues that prevent them from being recognized for 
their questioning, I will move to the next available Member of 
the same party, and I will recognize that Member at the next 
appropriate time slot, provided they have returned to the 
proceeding. Should a Member's time be interrupted by a 
technical issue, I will recognize that Member at the next 
appropriate spot for the remainder of their time once their 
issue has been resolved.
    If I should encounter technical issues myself, the Vice 
Chair of the committee, if available, or the next most senior 
Member of the Majority shall assume the duties of the Chair 
until I am able to return to the proceeding.
    Mr. Rogers. Thank you, Mr. Chairman. What should Members 
expect regarding decorum during the remote event?
    Chairman Thompson. Thank you again. Members are reminded 
that they are only allowed to attend one virtual event at a 
time. Should they need to attend another committee proceeding, 
please fully exit the hearing before entering another 
proceeding.
    Finally, all Members are reminded that they are expected to 
observe standing rules of committee decorum for appropriate 
attire and should have a professional and apolitical background 
when they are participating in any remote event.
    Mr. Rogers. Thank you, Mr. Chairman. What should Members 
expect if a witness loses connectivity?
    Chairman Thompson. In the event a witness loses 
connectivity during testimony or questioning, I will preserve 
that time as staff address the technical issue. I may need to 
recess the proceeding to provide time for the witness to 
reconnect.
    Mr. Rogers. Thank you, Mr. Chairman. Finally, what should 
Members expect if a vote is called during a remote event?
    Chairman Thompson. H. Res. 965 requires Members to be 
visibly present to have their vote recorded during a remote 
event. Members who join the proceeding after a vote is called 
and who are not called upon for their vote should seek 
recognition from the Chair to ensure their vote is recorded. 
Should a Member lose connectivity during a roll call vote, I 
will hold the vote open for a period of time to address the 
technical issue and provide Members with an opportunity to have 
their vote recorded.
    Mr. Rogers. Thank you, Mr. Chairman.
    I yield back.
    Chairman Thompson. With that, I ask unanimous consent to 
waive committee rule VIII(A)(2) during committee remote 
proceedings under the covered period designated by the Speaker 
under House Resolution 965.
    Without objection, so ordered.
    I welcome our panel of witnesses.
    I yield to the Vice Chair of the committee, Ms. Underwood 
of Illinois, to introduce our first witness.
    Ms. Underwood. Thank you, Mr. Chairman.
    Our first witness is the Honorable J.B. Pritzker, the 
Governor of the great State of Illinois. Before becoming 
Governor, Mr. Pritzker was a National leader in early childhood 
education for over 20 years and earned his law degree from 
Northwestern University. We are so glad to have him on the 
panel today to discuss his experience leading a State of nearly 
13 million people through this challenging time, including one 
of the largest cities in the country, as well as extensive 
suburban and rural areas with very different needs.
    Back in March, we heard testimony from Dr. Ngozi Ezike, the 
director of Illinois Department of Public Health, and I am 
looking forward to getting an update today from Governor 
Pritzker.
    Welcome, Governor.
    I yield back.
    Chairman Thompson. Thank you very much.
    Our second witness is The Honorable Jason Shelton, the 
mayor of Tupelo, Mississippi.
    For those who are on here who might not know, Elvis Presley 
was born in Tupelo, Mississippi.
    After practicing law in Tupelo for more than a decade, Mr. 
Shelton was first elected mayor in 2013. Under his leadership, 
the city of Tupelo received a 2015 All-American City Award.
    Welcome, Mr. Mayor.
    Since we have two members of the panel who are from 
Houston, Texas, I yield first to the gentlewoman from Houston, 
Ms. Jackson Lee, to introduce our third witness, and after 
that, I will yield to the gentleman from Houston, Texas, also 
to finish that introduction.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. To the 
committee Members and the Ranking Member, to all of the 
witnesses, thank you for your presence at this very important 
hearing.
    Dr. Shah, my pleasure.
    My good friend, Dr. Umair Shah, is the executive director 
and local health authority of Harris County Public Health since 
2013. Under Dr. Shah's leadership, Harris County Public Health 
is a Nationally-recognized, $100 million agency of 700 public 
health professionals serving the Nation's third-largest county 
with 4.5 million. He has been a strong, important, and 
interesting but provocative messenger on the importance of the 
health challenges throughout the Nation and really around the 
world.
    We worked together on the issues dealing with the Zika 
virus, environmental health threats, creosote contamination, 
and he has been a strong voice in the needs of the county as it 
relates to the COVID-19 pandemic.
    Today in Houston, the most important titles a person can 
have is doctor or nurse, and he is that as he deals with COVID-
19 patients. He has been involved with the care of patients as 
relates to the Harris County health. He previously worked as an 
emergency department physician at Houston's VA Medical Center 
and as chief medical officer of Galveston County Health 
District. He earned his M.D. from the University of Toledo 
Health Science Center.
    We are very delighted to have Dr. Umair Shah, who is a 
voice of leadership but also guidance during Houston's very, 
very difficult time fighting COVID-19.
    Thank you, Mr. Chairman. Delighted to be able to have the 
privilege of introducing Dr. Shah.
    Chairman Thompson. Thank you very much.
    Now I yield to the gentleman from Houston, Texas, to 
complete the introduction.
    Mr. Green of Texas. [Inaudible]
    Chairman Thompson. Unmute yourself. Will the gentleman from 
Houston unmute himself?
    Mr. Green of Texas. The gentleman believes he has done so, 
Mr. Chairman. Thank you for the reminder. Greatly appreciate 
it. Thank you to the staff for the outstanding job they have 
done with this transmission, saving Al Green. I think we have 
done an exceptionally fine job.
    Mr. Chairman, one of the hallmarks of Dr. Shah's luminously 
illustrious career is that he gets involved. He responds. He 
responded to Tropical Storm Allison, Hurricanes Katrina 
[inaudible] and Haiti. He responded to Ebola and Zika. He has 
served as the medical branch co-director, and he did so at a 
time when in my district we had some 27,000 persons to move 
from Louisiana, my home State, to Houston, Texas, into my 
Congressional district. He was there for the evacuees when they 
were housed over at the Astrodome.
    I am honored to have him as a dear friend, and we are 
pleased to know that he serves our constituents not only in the 
Ninth Congressional District, but across the length and breadth 
of the State of Texas and indirectly across the country.
    Thank you for being here, Mr. Shah--Dr. Shah, if you will--
and thank you for your involvement.
    Chairman Thompson. Our final witness, as acknowledged by 
the Ranking Member, is Colonel Brian Hastings, the director of 
Alabama Emergency Management Agency since August 2017. Colonel 
Hastings previously served in the United States Air Force over 
30 years. During his military service, Colonel Hastings earned 
2 Legion of Merit medals, the Bronze Star, and 3 Meritorious 
Service Medals.
    Welcome to the panel, Colonel.
    Mr. Hastings. Thank you.
    Chairman Thompson. Without objection, the witnesses' full 
statements will be inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Governor Pritzker.

   STATEMENT OF THE HONORABLE JAY ROBERT ``J.B.'' PRITZKER, 
                  GOVERNOR, STATE OF ILLINOIS

    Governor Pritzker. Thank you very much, Mr. Chairman.
    Chairman Thompson, Ranking Member Rogers, and Members of 
the committee, thank you for the invitation to testify about 
our National response to the on-going COVID-19 pandemic.
    Illinois is the sixth-most populous State with the fifth-
largest economy. We have some of the world's best hospitals, 
like Northwestern Memorial and Rush, and we have renowned 
researchers, modelers, and public health experts at world-class 
institutions, like the University of Illinois and the 
University of Chicago.
    When it became clear that COVID-19 was not a phenomenon 
limited to Asia or to Europe, we fully expected the Federal 
Government, home of the Centers for Disease Control and the 
U.S. Department of Health and Human Services, would arm the 
States with information and equipment and testing capability 
and personnel. After all, the Federal Government had the 
experience fighting H1N1, SARS, and Ebola. A global pandemic 
requires a National response, but that is not what happened.
    First, though, I want to talk about what did happen. We 
took action here early with Illinois' hospital leaders, 
epidemiologists, modelers, public health officials, and 
emergency management leaders quickly helping to put plans 
together. We were among the first States to close nursing homes 
to visitors and do wellness checks on the staff. In 
consultation with local officials, I shut down St. Patrick's 
Day celebrations and then closed bars and restaurants, and then 
schools. We were the second State in the Nation to issue a 
stay-at-home order.
    The Federal Government wasn't leading. We were.
    Illinois is home to the country's third-largest 
metropolitan area and to major international transit and 
tourism sectors. We had all the potential to become a major 
early hotspot like New York, and like Florida and Texas have 
now become. Early March projections showed that without 
intervention, our health care system would be overrun, leading 
to tens of thousands more deaths. Our curve peaked 
approximately 6 weeks later.
    Today, our COVID-related deaths per day are down 85 percent 
from a high 8 weeks ago. Even as our testing continues to grow 
to over 30,000 tests per day now, our COVID cases are down 71 
percent from a high 9 weeks ago. The number of COVID-positive 
hospitalizations, including in the ICU, has dropped by over 70 
percent since early May. Our case positivity rate was over 23 
percent at one point, and it is now at around 2.5 percent.
    That isn't to say that the cascade of decisions that got 
Illinois to this point were easy. In fact, every one of them 
has been a choice between bad and worse, muddled further by the 
White House's broken promises on testing supplies and PPE 
deliveries.
    I spoke with many of my fellow Governors, Democrats and 
Republicans. They had the same problems. Because the Defense 
Production Act was not broadly invoked early enough, we were in 
a bidding war for life-saving supplies against each other and 
against our international allies. We were paying $5 for masks 
that should have cost 85 cents. There were States calling other 
States to try and figure out if some international businessman 
offering a warehouse of 2 million N95 masks was a scammer. Many 
were.
    In the midst of a global pandemic, States were forced to 
play some sort of sick Hunger Games game show to save the lives 
of our people. Let me be clear. This is not a reality TV show. 
These are real things that are happening in the United States 
of America in the year 2020.
    If there is one job Government has, it is to respond to a 
life-threatening emergency. But when the same emergency is 
crashing down on every State at once, that is a National 
emergency, and it requires a National response.
    When medical professionals across the Nation are crying out 
for supplies, it is the Federal Government's job to make sure 
that a nurse being properly equipped in Peoria, Illinois, 
doesn't come at the cost of a doctor being ready for work in 
San Antonio, Texas.
    There was no National plan to acquire PPE or testing 
supplies, and as a result, people died.
    I am so grateful to the incredible, experienced public 
servants inside of FEMA, the CDC, HHS, VA, and the Army Corps 
who worked so hard along the way to give us their expertise and 
assistance. We will need more of that before we will have 
vanquished COVID-19.
    I want to offer my thoughts on what the Federal Government 
can still do to step up and help us get through this pandemic.
    First, we need to see a coordinated National strategy for 
containment. That means more testing and more contact tracing, 
and it may even mean National restrictions that will be 
followed in every State.
    Second, every State has suffered revenue loss because of 
COVID-19, and without help, there will be massive layoffs of 
public servants, teachers, and firefighters. A bipartisan 
coalition of Governors thanks the House of Representatives for 
taking swift action on State and local support in the HEROES 
Act.
    Third, the Federal administration also needs to provide 
clarity on insurance coverage for COVID-19 testing. Testing is 
not a one-off tactic. We need regular testing across our 
population, and that means people need to know that their 
insurance will cover their testing every time.
    Fourth, we need to continue COVID response funding for the 
National Guard through next year in the face of a possible, 
maybe even likely, second wave.
    Finally--and this might be the most important thing that we 
can do to save lives--we need a National masking mandate. We 
instituted ours in Illinois on May 1, one of the first in the 
Nation, and it aligns with our most significant downward shifts 
in our infection rate.
    It is not too late for the Federal Government to make an 
impact. In fact, it is more important than ever.
    So I want to thank all of you, and I look forward to your 
questions later on in this hearing.
    [The prepared statement of Governor Pritzker follows:]
                Prepared Statement of Hon. J.B. Pritzker
                              July 8, 2020
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee--thank you for the invitation to testify about our National 
response to the on-going COVID-19 pandemic.
    Illinois is the sixth-most populous State with the fifth-largest 
economy. We have some of the world's best hospitals like Northwestern 
Memorial and Rush, and we have renowned researchers, modelers, and 
public health experts at world-class institutions like the University 
of Illinois and the University of Chicago.
    When it became clear that COVID-19 was not a phenomenon limited to 
Asia or Europe, we fully expected the Federal Government, home of the 
Centers for Disease Control and U.S. Department of Health and Human 
Services, would arm the States with information, equipment, testing 
capability, and personnel. After all, the Federal Government had the 
experience fighting H1N1, SARS, and Ebola. A global pandemic requires a 
National response. But that's not what happened.
    First, though, I want to talk about what did happen. We took action 
early, with Illinois' hospital leaders, epidemiologists, modelers, 
public health officials and emergency management leaders quickly 
helping to put plans together. We were among the first States to close 
nursing homes to visitors and do wellness checks on the staff. In 
consultation with local officials, I shut down St. Patrick's Day 
celebrations, and then closed bars and restaurants, and then schools. 
And we were the second State in the Nation to issue a stay-at-home 
order.
    The Federal Government wasn't leading. We were.
    Illinois is home to the country's third-largest metropolitan area 
and to major international transit and tourism sectors--we had all the 
potential to become a major early hotspot like New York, and like 
Florida and Texas have now become. Early March projections showed that 
without intervention, our health care system would be overrun, leading 
to tens of thousands more deaths.
    Our curve peaked approximately 6 weeks later. Today, our COVID-
related deaths per day are down 85 percent from a high 8 weeks ago. 
Even as our testing continues to grow to over 30,000 tests per day now, 
our COVID cases are down 71 percent from a high 9 weeks ago. And the 
number of COVID-positive hospitalizations, including in the ICU, has 
dropped by over 70 percent since early May. Our case positivity rate 
was over 23 percent, and it's now at 2.5 percent.
    That isn't to say that the cascade of decisions that got Illinois 
to this point were easy--in fact, every one of them has been a choice 
between bad and worse, muddled further by the White House's broken 
promises on testing supplies and PPE deliveries. I spoke with many of 
my fellow Governors, Democrats and Republicans--they had the same 
problems. Because the Defense Production Act was not broadly invoked, 
we were in a bidding war for life-saving supplies against each other 
and against international allies. We were paying $5 for masks that 
should cost 85 cents. There were States calling other States to try and 
figure out if some international businessman offering a warehouse of 2 
million N95 masks was a scammer. Many were.
    In the midst of a global pandemic, States were forced to play some 
sort of sick Hunger Games game show to save the lives of our people. 
Let me be clear. This is not a reality TV show. These are real things 
that are happening in the United States of America in the year 2020.
    If there's one job Government has, it's to respond to a life-
threatening emergency--but when the same emergency is crashing down on 
every State at once, that's a National emergency, and it requires a 
National response. When medical professionals across the Nation are 
crying out for supplies, it's the Federal Government's job to make sure 
that a nurse being properly equipped in Peoria doesn't come at the cost 
of a doctor being ready for work in San Antonio.
    There was no National plan to acquire PPE or testing supplies--and 
as a result, people died.
    I am so grateful to the incredible, experienced public servants 
inside FEMA, the CDC, HHS, VA, and the Army Corps who worked so hard 
along the way to give us their expertise and assistance--we will need 
more before we have vanquished COVID-19.
    I want to offer my thoughts on what the Federal Government can 
still do to step up and help us get through this pandemic.
    First, we need to see a coordinated National strategy for 
containment--that means more testing and more contact tracing, and it 
may even mean National restrictions that will be followed in every 
State.
    Second, every State has suffered revenue loss because of COVID-19, 
and without help there will be massive layoffs of public servants, 
teachers, and firefighters. A bipartisan coalition of Governors thanks 
the House for taking swift action on State and local support in the 
HEROES Act.
    Third, the Federal administration also needs to provide clarity on 
insurance coverage for COVID-19 testing. Testing is not a one-off 
tactic: We need regular testing across our populations, and that means 
people need to know their insurance will cover their testing every 
time.
    Fourth, we need to continue COVID response funding for the National 
Guard through next year in the face of a possible, maybe likely, second 
wave.
    Finally, and this might be the most important thing we can do to 
save lives: We need a National masking mandate. We instituted ours in 
Illinois on May 1, one of the first in the Nation, and it aligns with 
our most significant downward shifts in our infection rate.
    It's not too late for the Federal Government to make an impact--in 
fact, it's more important than ever. Thank you and I look forward to 
your questions.

    Chairman Thompson. Thank you, Governor. We look forward to 
your responses to the questions.
    I now recognize Mayor Shelton to summarize his statement 
for 5 minutes.

STATEMENT OF JASON L. SHELTON, MAYOR, CITY OF TUPELO, STATE OF 
                          MISSISSIPPI

    Mr. Shelton. Thank you, Chairman Thompson, Ranking Member 
Rogers, and distinguished Members of the Committee on Homeland 
Security. Thank you for the honor and opportunity to be here 
with you today to discuss the on-going devastating impact of 
COVID-19 on our great Nation, and more specifically for me, to 
discuss the impact on our local governments.
    I did hear the Chairman mention that you can't have 
political things in the background. I think I have complied 
with that, but I also do have a not-so-subtle reminder that I 
am from Tupelo behind me, and I hope that that is OK.
    The adverse impact of the public health crisis and 
corresponding economic crisis caused by COVID-19 has had a 
direct negative impact on the ability of local governments all 
across our Nation to provide the basic services that every 
single American depends on in carrying out their normal day-to-
day activities, such as getting to work, providing for their 
family, and having safety and security in their community.
    As the Members of this committee are aware, nearly 3 
million Americans have already been diagnosed with COVID-19, 
and the number of deaths of Americans is in excess of 130,000 
individuals.
    While some loss of life from the pandemic is likely 
unavoidable, in my opinion, many of these deaths could have 
been prevented by a quicker and more uniform response from our 
Nation's Commander-in-Chief and his administration. Rational, 
stable, and consistent leadership, based upon medical and 
scientific data, is desperately needed from our Nation's 
highest office during this very real pandemic. Unfortunately, 
that is missing at this moment.
    In the last 6 months, we have seen leaders of nations all 
over the globe respond to this deadly pandemic with rational, 
science-based decision making and genuine concern for their 
citizens and their economies. We have seen leaders from all 
over the world step up and rise to the occasion. It is past 
time to see that leadership here in the greatest country on 
Earth.
    As was mentioned in the Chairman's opening statements, our 
Nation has 4 percent of the world's population but over 20 
percent of the world's COVID cases. Similarly, we have over 20 
percent of the world's deaths right here in the United States.
    My purpose here to speak today is about the hardships 
facing the local governments which are on the front line 
responding to our Nation's health and economic crisis. Mayors, 
county officials, parish officials, and others are on the front 
lines and doing all that they can do to enact local policies 
that are based on science and the recommendations of our 
Nation's top agencies and experts. Their efforts, however, are 
being hamstrung by the lack of rational, stable, and science-
based leadership in the White House.
    Due to the continued political climate surrounding COVID-
19, our cities continue to have difficulty in getting 
individuals and businesses to comply with the safety measures 
to prevent COVID-19-related sickness and death in our city. 
This will prolong both the health and economic crisis in our 
community.
    The city of Tupelo has been very proactive. We initiated 
our emergency response February 24 of this year. Since that 
time, I have issued 17 different executive orders, all ratified 
by our bipartisan city council, to combat COVID-19. COVID-19 
does not recognize city limits or even a county or State 
border. That is why National mandatory policies are needed if 
we are going to truly combat the health care and economic 
crisis facing our Nation.
    I want to take this opportunity as mayor of the city of 
Tupelo, as a member of the small towns council of the National 
League of Cities to thank the Members of this committee and 
this collective body for passing the CARES Act legislation. 
This is a great thing for our country. I also want to thank the 
Members who have supported the HEROES Act and the SMART Act, 
those legislations--pieces of legislation to get need--get 
resources to local governments that are desperately needed.
    That is the gist of my testimony today, to advocate that 
direct Federal funding be delivered to local governments so 
that we can offset the loss of revenue.
    The National League of Cities anticipates about a $360 
billion loss of revenue for local governments over the next 3 
years. We need funding to be able to provide the very basics 
that every American depends on to get to work every day; 
garbage, trash collection, litter, you know, fixing potholes, 
fixing a red light that is not working, fire protection, public 
safety, EMTs, the things that every American depends on each 
and every day. Those things, those functions of government 
happen here at the local level.
    The loss of revenue due to the economic crisis of COVID-19 
is going to severely diminish our ability to provide those 
basic services, and that is why direct funding from the Federal 
Government to local governments is desperately needed.
    Former Speaker Tip O'Neill famously said that ``all 
politics is local.'' While the solutions will likely be debated 
in Washington and our State capitols, they will be implemented 
where literally the rubber meets the road, right here in our 
local governments.
    Thank you again for allowing me, Chairman Thompson, Ranking 
Member Rogers, Members of this committee, thank you for 
allowing me the opportunity to be here to advocate for local 
governments. I appreciate the opportunity to speak to you, and 
look forward to answering any questions that you may have for 
me.
    Thank you.
    [The prepared statement of Mr. Shelton follows:]
                 Prepared Statement of Jason L. Shelton
                              July 8, 2020
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the Committee on Homeland Security, I would like to begin by 
thanking you for the opportunity to be with you today remotely to 
discuss the on-going devastating impact of COVID-19 to our great 
Nation, and, more specifically, to our local governments. The adverse 
impact of the public health crisis and the corresponding economic 
crisis caused by COVID-19 has had a direct negative impact on the 
ability of local governments all across our Nation to provide the basic 
Government services that every American depends on in carrying out 
their normal day-to-day activities such as getting to work, providing 
for their family, and having safety and security in their own 
community.
    As you are aware, nearly 3 million Americans have already been 
diagnosed with COVID-19 and the number of deaths from COVID-19 is in 
excess of 130,000. While some loss of life due to the deadly global 
pandemic is likely unavoidable, in my opinion many of these deaths 
could have been prevented by a quicker and more uniform response by our 
Nation's Commander-in-Chief and his administration. Rational, stable, 
and consistent leadership, based upon medical and scientific data, is 
desperately needed from our Nation's highest office during this very 
real viral pandemic. Unfortunately, that is missing at the moment.
    In the last 6 months, we have seen leaders of nations all over the 
globe respond to this deadly pandemic with rational science-based 
decision making and genuine concern for their citizens and their 
economies. We have seen leaders from all over the world step up and 
rise to the occasion. It is past time to see that type of leadership 
here in the greatest country on earth.
    We must, as a Nation, listen to our scientists and our health care 
providers in responding to a medical crisis. If other nations have the 
ability to flatten the curve and reduce the number of deaths, then we 
also have that ability in the United States of America. Our Nation has 
4.25 percent of the world's population, but over 20 percent of the 
world's COVID-19 cases. Our Nation has 4.25 percent of the world's 
population, but over 20 percent of the world's COVID-19 deaths. That is 
a failure of leadership. This failure, in addition to the exacerbated 
public health crisis, has caused a tremendous amount of harm to our 
Nation's economy. The medical crisis and the economic crisis are 
interrelated and one cannot be fixed without fixing the other, and 
these two simultaneous crises are directly contributing to the 
hardships being faced by American families, American businesses, and 
local governments all across our Nation.
    My purpose here today is to speak to the hardships facing local 
governments which are on the front line of responding to our Nation's 
health and economic crises. Mayors, municipal board members, county and 
parish leaders, and countless other local officials are doing all that 
they can to flatten the curve in their communities. Local officials are 
making local policies based upon the recommendations of Dr. Anthony 
Fauci and the National Institute of Allergy and Infectious Disease, the 
Surgeon General, the Center for Disease Control, State agencies, and 
their local medical communities. Their efforts, however, are being 
hamstrung by the lack of rational, stable, and science-based leadership 
from the White House.
    In Tupelo, for example, by executive order, we recently instituted 
a mandate to wear masks or face coverings at indoor businesses. The 
request for our city to mandate this policy was made by the North 
Mississippi Medical Center, our Nation's largest rural hospital, which 
is based in Tupelo, Mississippi, and the Tupelo Economic Recovery Task 
Force--a bi-partisan group of approximately 40 business and community 
leaders in our city. While it appears that the majority of our citizens 
support and are in voluntary compliance with the executive order, a 
sizable number of people in our area are adamantly opposed to masks or 
face coverings for a number of reasons, none of which are science-
based. The opposition is largely based upon conspiracy theories and 
what appears to be unofficial right-wing political propaganda. Many 
people appear to be of the belief that COVID-19 is simply a hoax 
designed to hurt the President politically. The President has an 
obligation as the leader of our Nation in both words and deeds to 
dispel these rumors and encourage our citizens to take every precaution 
to prevent the spread of COVID-19.
    Because of these unchecked conspiracy theories and rumors, local 
leaders have an increasingly difficult time enacting common-sense 
measures to protect both the health of their citizens and their local 
economies. That compounds the needs of local governments which I am 
here to speak of today.
    I have attached hereto as ``Exhibit A'' to my opening statement a 
narrative of the efforts of Tupelo, Mississippi to combat COVID-19, 
help our citizens, and re-boot our local economy.
    A summary of those efforts are as follows: We instituted our 
emergency protocol on February 24, 2020 and formed our administrative 
team to respond to COVID-19 at that time; between February 24, 2020 and 
April 30, 2020 I executed 17 separate Executive Orders to do my best to 
combat the deadly virus and each of these orders were ratified and 
adopted by our City Council.
    Among the measures enacted by executive order and adopted by our 
City Council was a mandate for our citizens and businesses to follow 
``The President's Coronavirus Guidelines for America.'' The Tupelo 
Economic Recovery Task Force also proposed and our city adopted the 
``Tupelo Economic Recovery Guidelines'' which were formulated based 
upon the President's ``Reopening of America'' guidelines.
    Both the President's Coronavirus Guidelines and the President's 
Reopening of America Guidelines were well-written and helpful in 
combating COVID-19 and would likely have had a tremendously positive 
impact had they been mandated nationally. Unfortunately, the President 
issued no such mandates and was highly critical of Governors and other 
leaders who actually mandated the very guidelines issued by the White 
House in their respective State or community. While the written 
documents called for a slow and measured approach based upon science 
and data, the public mandate from the President and many Governors was 
contrary to what was contained in those written documents. This has 
greatly hampered the ability of local leaders to respond due to the 
President's large and passionate following. This has had a direct 
adverse impact on the economy and financial ability of local 
governments all across the Nation to provide basic city services.
    Due to the continued political climate surrounding COVID-19 our 
city continues to have difficulty in getting individuals and businesses 
to comply with safety measures to prevent COVID-19-related sickness and 
death in our city. This will prolong both the health and economic 
crises in our community.
    Until we can slow the sickness and death in our community and 
across the Nation, it is impossible to truly stop the adverse economic 
impact to our local governments. That is why direct financial 
assistance to local governments for revenue loss is desperately needed.
    On behalf of the citizens of Tupelo, Mississippi and as a member of 
the National League of Cities Small Towns Council, I would like to 
thank the Members of this committee and the Congress for acting swiftly 
to respond to the economic and medical crises caused by the deadly 
global viral pandemic of COVID-19. I applaud this body's swift bi-
partisan effort to pass the various CARES ACT bills which provided 
much-needed relief to individuals, hospitals, businesses, and State 
governments across the country. In today's highly-politized climate it 
is increasingly rare to see the leaders of both parties come together 
so quickly to pass such historic legislation. The legislation helped 
virtually every level of our society.
    The purpose of me being here today, however, requires that I speak 
candidly regarding to this issue to the honorable Members of this 
committee as to what I believe to be a significant oversight in the 
historic legislation.
    Local governments under the acts were eligible for reimbursement 
for actual unbudgeted expenses incurred as a result of COVID-19. For 
many cities and local governments, however, the actual expenses 
incurred paled in comparison to the most significant harm incurred by 
local governments--the loss of revenue from the economic crisis caused 
by COVID-19. While the CARES ACT bills did many great things, the 
legislation unfortunately did not provide any means for local 
governments to recover lost revenue and went further to directly 
prohibit CARES ACT funds from being used to replace lost revenue by 
local governments due to COVID-19. I have attached a summary of the 
adverse financial impact to the city of Tupelo, Mississippi as 
``Exhibit B'' to this statement.
    By way of example, the State of Mississippi received over $1.2 
billion of CARES ACT funds and not a single dollar of those funds could 
be allocated to a local government to directly help the local 
governments of our State recover from the substantial loss of revenue 
due to COVID-19. Like in other States, municipal governments in 
Mississippi receive a substantial portion of their revenue from local 
sales tax. Tupelo, Mississippi receives approximately 50 percent of our 
annual budget revenue from sales tax collections. Due to the economic 
shut-downs and societal shift to even more on-line shopping, that 
revenue, as indicated in Exhibit B, was greatly reduced for our city. 
The same is likely true for every local government in the country that 
depends on local sales tax revenue as a source of funding for their 
annual budget.
    As Americans, we rightfully are often passionate about the larger 
issues that get debated in Washington, DC and in our respective State 
capitols, but it is at the local level where the rubber literally meets 
the road in American society.
    The revenue loss in our city and in cities like us all across the 
Nation may mean that streets do not get paved or repaired, that litter 
pick-up and debris removal does not occur, that first responders and 
other public safety workers are laid off or furloughed due to the 
economic hardships faced by local governments, and that the opening of 
new businesses are delayed because of backlogs in the permitting 
offices or for a lack of building inspectors in the city. Virtually 
every business in America has to interact with a local government and 
the city services need to be available and timely available to keep our 
local and our National economy moving forward.
    While the Federal and State governments have a large-scale impact 
on our Nation as a whole, the ability of every worker in America to 
actually get to work on time by way of a decent road or local 
transportation system depends on a capable and functioning local 
government. Every mom-and-pop business in our Nation has to depend on a 
local municipal or county (parish) government to make sure that the 
infrastructure is sound and that the community is safe to operate their 
business.
    Fire fighters, first responders, police officers, code enforcement 
workers, sanitary water and waste removal, garbage and debris pickup, 
youth sports and adult recreation leagues, local parks, public works 
departments, and a host of other functions that have a very real and 
daily impact on the lives of every American are performed by the local 
municipal or county government where that person and their family 
lives. Those are the services being threatened by the loss of revenue 
to local governments due to the economic crisis caused by the health 
care crisis resulting from the global COVID-19 pandemic.
    Former Speaker Tip O'Neill famously said that ``all politics is 
local'' and it is certainly true at this moment that while our Nation's 
response to COVID-19 may be debated in Washington, DC and in our 
respective State capitols, it is being felt the hardest in our local 
communities all across our great Nation.
    As this honorable committee and this collective body continues to 
debate and deliberate upon our Nation's response to COVID-19, on behalf 
of all mayors and local officials and governments across our Nation, I 
would respectfully request that you consider direct payments for local 
governments to city and county (parish) governments for lost revenue. 
Unlike our Federal Government and even our State governments, our 
cities and counties (parishes), particularly in our small rural 
communities, do not have the ability to absorb significant revenue 
losses and also continue to provide the high level of services that our 
citizens and businesses expect and deserve.
    Thank you again Chairman Thompson, Ranking Member Rogers, and 
distinguished Members of this honorable committee for allowing me the 
honor and privilege of being here today under this unique remote format 
to speak on behalf of our Nation's local governments.
            ATTACHMENT A.--City of Tupelo COVID-19 Response
    Closely watching the COVID-19 pandemic unfold, the city of Tupelo 
responded early to be prepared with what was feared to be the largest 
public health crisis for the United States and our city since the 
Influenza Pandemic of 1917. On February 24, 2020, Mayor Jason Shelton 
issued an executive order which appointed Tupelo Fire Chief Thomas 
Walker to serve and administer the response to the Coronavirus threat 
for the city of Tupelo. At that time, an internal COVID-19 Response 
Team was formed. In the days following and with careful monitoring of 
the statistics in Mississippi and Lee County, many difficult decisions 
were made to prevent the spread of the virus. In total, there were 17 
city of Tupelo executive orders through April 30, 2020 which addressed 
the evolving nature of the pandemic. Each executive order outlined 
restrictions based on COVID-19 local and State statistical data from 
Mississippi State Department of Health, CDC, Johns Hopkins University, 
and daily communication with health officials of North Mississippi 
Medical Center. Due to the rampant spreading of the virus, the city of 
Tupelo acted without waiting for the State of Mississippi's response, 
and issued a shelter-in-place executive order on March 21, 2020. Once 
the Governor's executive order was issued days later, the city ratified 
its orders to comply. Various issues were addressed in executive 
orders, including the discontinuing of water and light cutoffs as well 
as evictions during the pandemic.
    Government is essential and city services must continue to be 
provided. Balancing the city government workforce to provide these 
services balanced with their health was crucial. After Mayor Shelton 
issued a declaration that Tupelo was in a State of Emergency, Tupelo 
City Hall and all departments were scaled back as much as possible. 
Those who could telework did so, and those jobs which required 
physically being on-site were accomplished with smaller groups. Tupelo 
City Hall remained open every day. Signage was placed on City Hall 
doors and other department doors with CDC guidelines regarding health 
symptoms, whether those entering had traveled, and other specifics. 
Appointments were encouraged to the public for all city of Tupelo 
business rather than in-person. Safety guidelines were put into place 
for all departments, and city workers were provided masks and hand 
sanitizer. Weekly department head meetings were conducted by 
teleconference with Zoom. In addition, Zoom teleconferencing was used 
for all Tupelo City Council meetings which were televised on Comcast 
and Facebook Live. As another way to stay connected to the community, 
the city of Tupelo produced a video ``We Will Be Back'' created to 
inspire and give hope during this difficult time. The video premiered 
on Facebook on April 24 and had almost 50,000 views.
    Communication during the pandemic was and continues to be 
imperative. Because it affected literally all aspects of our community, 
there were many questions from our citizens. The first priority was 
establishing an effective form of communication. The city of Tupelo 
COVID-19 Team established an email where all questions and concerns 
could be sent. Inquiries were answered swiftly by the team. This was 
not only efficient, but also provided transparency and built trust with 
our citizens. In keeping with the importance of communication, Mayor 
Shelton was Facebook Live each day to update viewers with developments. 
All social media was utilized to the fullest as well as the city of 
Tupelo website, which had a complete section dedicated to COVID-19. 
This section was easily visible and accessible on the home page, and 
contained all Tupelo executive orders, State of Mississippi executive 
orders, and a Q & A list. Communication with other entities was key in 
staying informed. Administration participated in briefs from the White 
House, Governor's office, and had frequent calls with Community 
Development Foundation, Lee County Council of Governments, North 
Mississippi Medical Center, various industry and business leaders, and 
Tupelo Public School District. Staying in touch with all entities 
provided valuable information to respond to the changing needs in the 
community.
    The huge economic impact was felt as most businesses and 
restaurants closed. Options were explored to help them overcome the 
challenges. Special accommodations were made to allow businesses to use 
public parking spaces for curbside and take out service. Accommodations 
were also made to allow for banners and signage without permits for 
businesses. Also helpful was the extension of the downtown Tupelo 
leisure and entertainment district to include the entire city limits of 
Tupelo, which allowed restaurants to sell takeout alcohol with food 
sales.
    With businesses facing unprecedented challenges, Mayor Shelton 
formed the Tupelo Economic Recovery Task Force, a cross-section of 
business and community leaders who themselves were dealing with the 
negative impacts of COVID-19, to advise him in creating meaningful 
strategies for restarting the local economy and for pursuing State and 
Federal assistance in supporting those efforts. The task force went to 
work immediately to communicate with leaders at all levels of 
government, working to ensure that the city of Tupelo comes out of this 
crisis as successfully and safely as possible. The Tupelo Economic 
Recovery Task Force has reviewed and approved plans laid out by Mayor 
Shelton and his administration to safely reopen Tupelo's economy while 
mitigating risk and protecting the most vulnerable. These plans, called 
the ``Tupelo Economic Recovery Guidelines'' are formulated from 
President Trump's ``Reopening of America'' as a foundational document 
with input from the citizen-driven task force. The guidelines will 
continue to comply with State and Federal orders.
    The city of Tupelo has endured 2 devasting tornadoes in this 
century, the first in 1936 which cost hundreds of lives and massive 
infrastructure damage. In 2014 another tornado struck Tupelo, forcing 
the city to again rebuild businesses and homes. Geographically, Tupelo 
is located in ``Tornado Alley'', so being prepared is second nature to 
the city. With the forecasting of modern meteorology, the city prepares 
accordingly. On Sunday, April 12, tornadic weather was predicted for 
Tupelo. With the COVID-19 pandemic, every precaution had to be made in 
regard to public health. It was decided that all Tupelo storm shelters 
would be open. City employees manned each shelter, and hand sanitizer 
and face masks were given to everyone upon entering. There were cities 
which did not open their shelters due to the pandemic. But with 
Tupelo's unfortunate history of tornadoes, administration sided with 
the welfare of its citizens to provide shelter to keep families safe.
    Although the physical illness of COVID-19 has been first and 
foremost in everyone's thoughts, the pandemic has also affected people 
both emotionally and mentally. From health concerns to financial 
burdens, everyone is dealing with some anxiety. Mayor Shelton 
recognized that a fun diversion would help to take minds off the 
pandemic for a while. He organized the ``Mayors Music Series'', which 
lasted 30 days. Each day at 5:30 p.m., viewers could watch Facebook 
Live for a free concert. Music was provided by local artists of various 
genres, and even included the lively entertainment of Elvis Tribute 
Artists from around the globe. The ``Mayors Music Series'' was a huge 
success, and actually had 2 goals. The first was to provide something 
fun to watch, especially to those sheltering at home. Second, it 
provided income to musical artists who had no work during the pandemic. 
Each artist was paid $500 each for their 30-minute show.
    The collaboration of the city of Tupelo's outreach committee with 
many community partners served a number of needs in the community in 
response to the COVID-19 pandemic:
  <bullet> The Tupelo-Lee Hunger Coalition provided thousands of 
        lunches for students who receive free or reduced lunches. The 
        packing of food boxes continues today, as many families depend 
        on these weekly meals.
  <bullet> Tupelo City Schools also provided grab-and-go services and 
        meal delivery to homes with food insecurities. Mayor Shelton 
        signed a ``School Lunch Hero Day'' proclamation recognizing the 
        ``men and women who prepare and serve school meals'' to help 
        nurture local children with their daily interaction and 
        support.
  <bullet> Project Search Students was organized to find job placement 
        for Tupelo High School graduates with special needs. The 
        students started their training with a rotation of job 
        positions at North Mississippi Medical Center. Students are 
        transported to and from their jobs by Tupelo Transit.
  <bullet> The Mayor's Homeless Task Force and MUTEH continued their 
        work during the pandemic. Welfare checks continued, homeless 
        encampments were cleaned up, and housing was arranged through 
        various organizations.
  <bullet> Queen's Reward Meadery switched from making mead brandy to 
        producing hand sanitizer. The city of Tupelo partnered with the 
        local company for a drive-through free hand sanitizer giveaway 
        on April 17 and April 24 at Tupelo City Hall. Each car received 
        2 bottles of the hand sanitizer.
  <bullet> Toyota Mississippi and Mid-South Food Bank set up a mobile 
        food pantry at the city of Tupelo's BancorpSouth Arena on April 
        20. Thirty thousand pounds of food was given away, with 500 
        slots available. This incredible donation served as many as 
        6,000 people.
  <bullet> Money left in the city of Tupelo Tornado Fund (2014) 
        established at the CREATE Foundation was used to assist needy 
        families with basic necessities including diapers, formula, and 
        toiletries.
  <bullet> Downtown Tupelo Main Street Association provided masks and 
        gloves for all merchants. They also provided on-line business 
        seminars, virtual shopping platforms, created a website 
        dedicated to relevant information for downtown restaurants and 
        merchants, and other creative ways to support the Main Street 
        Community during the economic challenges of the pandemic.
  <bullet> MEMA conducted a drive-thru COVID-19 testing facility at the 
        city of Tupelo's BancorpSouth Arena.
  <bullet> Steve Tabor and 8 Days of Hope, along with American Family 
        Radio delivered 20,000 meals for needy Tupelo families.
  <bullet> Blue Delta Jean Company switched from making their custom 
        blue jeans to making face masks for the community.
  <bullet> United Way of Northeast Mississippi established a fund at 
        the CREATE Foundation to assist families with needs and 
        financial hardship of the COVID-19 pandemic.
  <bullet> Saints Brew provided a grab and go take out breakfast for 
        the homeless.
  <bullet> Tupelo-Lee Humane Society offered drive-thru for those who 
        volunteered for short-term foster care for dogs and cats.
    The COVID-19 pandemic has been a challenging time for the city of 
Tupelo, as well as all municipalities. Using the information received 
from medical professionals, the city's administration and Tupelo City 
Council acted swiftly and thoughtfully to make decisions with public 
safety the priority. Reaching beyond the city's scope of services and 
collaborating with community partners, the city of Tupelo assisted 
thousands of its citizens affected in various ways by the pandemic.
ATTACHMENT B.--COVID-19-Related Financial Impact on Tupelo, Mississippi
  <bullet> BancorpSouth Arena is closed due to COVID-19, which is 
        anticipated to cost tax payers almost 1 million due to the loss 
        of revenue; part-time employees have been eliminated.
  <bullet> Tupelo Convention and Visitors Bureau revenues were trending 
        up prior to COVID-19. Tupelo anticipates a drop of 20 percent 
        of the tourism tax revenue compared to last year's collections 
        without considering the growth we experienced prior to COVID-
        19. The projected loss amount as of June 30 is $830,000. This 
        could change for better or worse as we approach the July 15.
  <bullet> Tupelo Parks & Recreation loss of revenue has cost the city 
        approximately $200,000. Indirect revenue from Parks & 
        Recreation events is much higher.
  <bullet> Tupelo Municipal Court revenue has dropped $100,000.
  <bullet> Tupelo Aquatic Center indirect revenue has dropped as 
        facility was closed (economic loss due to canceled events).
  <bullet> The General Fund has been slashed with a cut of more than 
        $500,000 to City Departments.
  <bullet> The city has incurred $250,000 in overtime pay pursuant to 
        the city of Tupelo's Emergency Policy.
  <bullet> PPE and protective measures cost the city over $35,000.
  <bullet> The city of Tupelo sales tax dropped $557,000 for March and 
        April combined. The true loss is $630,000 since our pre-COVID-
        19 numbers were up 2 percent. Collections for the remaining 
        fiscal year are unknown at this point. Prior to COVID-19, 
        Tupelo had experienced 6 consecutive years of record-breaking 
        economic growth.
  <bullet> The city of Tupelo's Capital Plan decreased $1,000,000 for 
        the revitalization efforts due to budget cuts.
  <bullet> Total budget cuts of 2.5 million for the city of Tupelo.
  <bullet> The true impact of COVID-19 remains to be seen. The provided 
        numbers reflect the financial impact that can be determined at 
        this point.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Dr. Shah to summarize his statement for 5 
minutes.

STATEMENT OF UMAIR A. SHAH, EXECUTIVE DIRECTOR AND LOCAL HEALTH 
        AUTHORITY OF HARRIS COUNTY PUBLIC HEALTH, TEXAS

    Dr. Shah. Thank you, Chairman Thompson, Ranking Member 
Rogers, and Members of the committee and subcommittee. Members 
of the Texas delegation, Representatives Sheila Jackson Lee, Al 
Green, Dan Crenshaw, and Michael McCaul, I want to thank all of 
you in particular.
    My name is Dr. Umair Shah. I am the executive director and 
local health authority for Harris County Public Health. I am 
past president of NACCHO, that represents the nearly 3,000 
local health departments across the country.
    Harris County is the third most populous county in the 
United States with 4.7 million people, including the city of 
Houston as one of the most diverse and fastest-growing 
metropolitan areas. The population in our community is larger 
than 25 States.
    We are no stranger, unfortunately, to emergencies such as 
storms, hurricanes, fires, and infectious disease responses. 
From a public health standpoint, there truly is never a dull 
moment in our community.
    Unfortunately, the present COVID-19 pandemic has had an 
unprecedented impact on our community and our Nation well 
beyond health, and has undoubtedly tested the resolve of the 
American people.
    Harris County Public Health has responded to H1N1 for 18 
months back in 2009, 2010, but tomorrow marks only the 6-month 
mark for COVID-19. It is truly a marathon not a sprint.
    Today I am here to make 3 main points. One, we as a Nation 
still have the opportunity to fight this pandemic but only by 
working together. No. 2, all eyes are on Harris County in Texas 
right now, and despite being successful previously, the 
situation has now changed. No. 3, public health is key, and we 
must support and invest in it.
    Let me start by saying that the local response to COVID-19 
led by Harris County Judge Lina Hidalgo has been strong, 
decisive, and proactive, and has worked closely with other area 
officials, including Houston Mayor Sylvester Turner.
    Case in point, Harris County released its Four T's approach 
for addressing COVID-19--test, trace, treat, and teamwork--from 
March to May. This approach saw the Houston Harris County 
community working together successfully to flatten the curve.
    More recently, the story has changed. Our community has 
seen an increase in cases, the percentage of tests that are 
coming back positive and hospitalizations, including in our 
county's safety net hospital system. Our threat level for 
COVID-19 has been raised to red, its highest level. We now have 
over 39,000 cases and 400 deaths in Harris County.
    The changing picture in Harris County demonstrates what I 
have called the layering effect of reopening in Texas on top of 
events and holidays, such as Mother's Day, Memorial Day, 
protests and marches, further layering exposure and risk to our 
community.
    Inconsistent messaging at the Federal, State, and local 
levels have led to further confusion and complacency at the 
individual community level. Case in point, CDC has not been 
consistently visible as the Nation's voice of public health.
    In Texas, while many local officials, elected and health 
authorities alike, stated clearly that our State was reopening 
too quickly, the process of reopening continued. Powers of 
authority previously available at the local level were removed. 
Fortunately, the State has now begun to dial back reopening. 
Reopening responsibly means that decisions should be driven 
primarily by health and medical, while balancing other 
interests.
    Public health often gets the short end of the stick. It has 
been chronically underinvested in. I call this the 
#InvisibilityCrisis.
    While I have come to this committee before to share similar 
points, enough is enough. We need to take this seriously if we 
are ever to correct the course in time to protect our 
communities. Yet when we need it the most, public health is 
still largely invisible, underappreciated, and underfunded.
    The COVID-19 public health work force has been working well 
beyond 40 hours a week, available 24/7, months on end. The 
public health front line is committed, but it is facing burnout 
and stretched to its limit. In the span of 4 months, our 
department has doubled its own work force. Our epidemiology 
team has gone from 25 to 500. This massive scaling for COVID-19 
has proven necessary, but without reliable and secure funding 
outside reactionary and supplemental funds, it is simply not 
sustainable.
    Daily, our leadership juggles needs between the central 
public health services and the COVID-19 response, and we are 
not alone across the country. This is where the Federal 
Government comes in, the primary financing mechanism to expand 
capacities through CDC's ELC grant. For example, our department 
is ineligible for direct funding, yet the same mechanism has 
been used for the COVID-19 response.
    The pandemic must be fought together. It is felt like every 
health department has been left on its own trying to create new 
systems response in real time. While Federal support is 
appreciated, Federal testing sites were planning to cease 
operations at the very time we were seeing increasing need. 
Similar issues are likely to play out again when vaccinations 
become available, meaning proactive planning for vaccine 
distribution is needed soon.
    Although scaling of testing has increased, results take too 
long to reach health departments, especially at government-
supported sites. The data exchange is moving slower than the 
disease. With this delay, public health measures become less 
effective. This is especially true for those most vulnerable, 
such as disproportionately-impacted communities and those in 
congregate settings. We are equally concerned with the health 
inequities seen in Hispanic and African American communities in 
this response.
    If the Federal Government expects there to be robust 
systems of surveillance, better data informatics capacity is 
needed at the local level. This includes CDC's support for 
innovative study of disease patterns in Harris County, 
utilizing state-of-the-art technologies, and genetic 
sequencing.
    As a workaround, our department has had to develop new data 
systems, public-facing data dashboards, and on-line screening 
tools for testing on its own. Those local efforts are necessary 
to get the job done, but they are reactive as National efforts 
to modernize such systems have failed.
    Let me close by saying the pandemic is an unprecedented 
time for our country. We are being tested like never before. 
Smart, strategic, scalable, and sustainable investments are 
needed now. All eyes are on Texas and Harris County. We should 
be able to look to the Federal Government for leadership and 
support.
    On behalf of Harris County Public Health and our public 
health colleagues across the Nation, the offensive line of the 
football team, I appreciate again the opportunity to testify 
today. Along with our local leadership, we join you in working 
together in fighting COVID-19 to protect our National security, 
our economic vitality, and the very health of our people.
    Thank you.
    [The prepared statement of Dr. Shah follows:]
                  Prepared Statement of Umair A. Shah
                              July 8, 2020
    My name is Dr. Umair A. Shah, and I am the executive director for 
Harris County Public Health (HCPH) and the Local Health Authority for 
Harris County, Texas. I am a past president and former board member of 
the National Association of County and City Health Officials (NACCHO). 
NACCHO is the voice of the nearly 3,000 local health departments (LHDs) 
across the country. I am also a past president and current board member 
of the Texas Association of City and County Health Officials (TACCHO) 
which represents approximately 45 LHDs across Texas.
    Today, I particularly want to acknowledge Michael ``Mac'' McClendon 
and Jennifer Kiger, 2 Nationally-recognized leaders in emergency 
planning and response, who serve as our Department's deputy incident 
commanders for COVID-19. They oversee an incredibly strong response 
team who have all dedicated countless time and effort in protecting the 
Harris County community.
                          never a dull moment
    Harris County is the third most populous county in the United 
States with 4.7 million people, including the city of Houston, and is 
one of the most culturally diverse and fastest-growing metropolitan 
areas in the United States. We are home to the world's largest medical 
complex, the Texas Medical Center (TMC), one of the Nation's busiest 
ports, the Port of Houston, and 2 of the Nation's busiest international 
airports.
    Harris County is no stranger to significant events, disasters, and 
large-scale emergencies. These range from natural to infectious disease 
in nature: Tropical Storm Alison (2001); Hurricane Katrina sheltering 
(2005); Hurricane Ike (2008); Hurricane Harvey (2017); Tropical Storm 
Imelda (2019); nH1N1 influenza pandemic response (2008); West Nile 
virus (WNv) response (2012); Ebola readiness & ``response'' activities 
(2014-2015); human rabies death and canine rabies, respectively (2008 
and 2015); Zika virus (2016-2017); measles ``resurgence'' (2019); and 3 
large-scale chemical fires (2019). From a public health response 
standpoint, there truly is never a dull moment in Harris County.
    Unfortunately, 2020 adds more to this list, with COVID-19 being the 
summation of all of these emergencies both due to length of response 
and more importantly its impact. As our department sent out its first 
official health alert to regional health care partners on January 9, 
tomorrow marks fully 6 months into the HCPH COVID-19 response and we 
are nowhere near the end. It is truly a marathon and not a sprint when 
it comes to our response activities and the toll it has taken on our 
community.
    The first cases of COVID-19 in Harris County were tied to an Egypt 
cruise tour in late February and a number of milestone events and 
phases have occurred since that time. Our department has been 
responding continuously since then; yet we are reminded that during 
nH1N1, HCPH was activated for 18 months and that was a mild pandemic in 
comparison. Although we are months into the pandemic, responding to the 
immediate and long-term impacts of COVID-19 will take years. The 
pandemic will likely ebb and flow, and does not have the distinct start 
and end of an emergency such as a hurricane. Preparedness, response, 
and recovery phases will blur and need to be addressed in tandem.
                           covid-19 response
    As you know, local health departments are the chief health 
strategists for their communities. In January, HCPH in coordination 
with the Houston Health Authority, Dr. David Persse, began hosting 
coordination meetings and planning with partners well before the first 
case of COVID-19 ever reached Harris County. We discussed then that it 
was not a matter of ``if'' but rather ``when'' COVID-19 would impact 
our community directly.
    These partnerships have continued dynamically throughout the 
response. Important twice-weekly calls are held with regional local 
health authorities as well as separately with the health care community 
through TMC. Key and timely communications and response efforts 
directed by Harris County Judge Lina Hidalgo have been coordinated 
through the Harris County Office of Emergency Management & Homeland 
Security and with other county partners. These have been crucial to 
real-time coordination and the elimination of barriers to response. 
Earlier in March, HCPH partnered with Judge Hidalgo to release the 
foundational ``Four T's'' approach for addressing COVID-19 (Test, 
Trace, Treat, and Teamwork). More recently, the COVID-19 Threat Level 
System was unveiled in June to help the community understand the 
continued importance of COVID-19 prevention efforts for Harris County.
    In addition to coordination with a multitude of partners, LHDs such 
as HCPH play primary roles in disease surveillance and providing 
guidance to the community that are unique from most of its partners. 
Preventing spread without available medical countermeasures has been a 
real issue in the COVID-19 response since there are no vaccines or 
pharmaceuticals by and large that can address the myriad of issues that 
COVID-19 presents. This means focus by LHDs on tried and true public 
health measures such as communications coupled with specific activities 
such as contact tracing, congregate setting assessments and testing, 
and community testing are keys to a successful response. These further 
the main goal of interrupting disease transmission and put a stop to 
the pandemic.
     harris county, texas . . . an increasing hotspot for covid-19
    Harris County, led by County Judge Lina Hidalgo, and Houston, led 
by Mayor Sylvester Turner, were rightfully proactive in recognizing the 
pandemic's threat and proactively engaging the community. On March 11, 
the Houston Rodeo, a pillar event for the community (it generated $300 
million for the local economy in 2019), was canceled as soon as there 
was evidence of the first case of community transmission in the Harris 
County area. Shortly after, Harris County was one of the first in Texas 
to issue a ``Stay Home, Work Safe'' Order to protect Harris County 
residents.
    While not easy, fortunately, the Harris County community listened, 
and our community was successful in flattening the curve. In fact, 
Harris County's case and death rate trailed far behind other major 
communities such as LA, Chicago, and New York City through the earlier 
stages of the response.
    However, to the detriment of public health, those orders quickly 
became political and the State took away all local authority to issue 
any orders more restrictive than its own, including the requiring of 
masks. Of note, the State's stance on masks, just last week, has now 
changed which is a welcome step but time will tell if it is too late in 
the response to have the necessary effect. Regardless of whatever level 
of government it involves, decisions driving the response to the COVID-
19 pandemic should be driven by public health and medical experts 
without the fear of retribution or political interference.
    The spike in Harris County today demonstrates what I have called 
the ``layering effect'' of reopening. Starting May 1, 2020, Texas began 
reopening its businesses such as dine-in restaurants, retail, salons, 
gyms, bars, and more. The layering effect occurred with these reopening 
alongside holidays and milestone events such as Mother's Day, Memorial 
Day, protests and marches, Father's Day, etc. that then ``layered'' 
exposure and risk to the community. The effects were even more 
pronounced as inconsistent messaging at the Federal, State, and local 
level meant that there was simply confusion and complacency at the 
individual community member level. While local officials--elected 
officials and health authorities alike--stated clearly that Texas was 
reopening too quickly, the process of reopening continued and slowly 
one began noting an increase in numbers of persons testing positive for 
COVID-19 alongside hospitalizations in Harris County and in other parts 
of Texas.
    Much of the success during the prior phases of response has been 
wiped out as these numbers have begun to climb. As of July 6, Harris 
County has over 36,000 cases and 400 deaths with a steady increase of 
late, necessitating the community's threat level being moved to its 
highest level (red). Harris County now has the highest cumulative case 
count in Texas, surpassing Dallas County. While Texas has now taken 
steps to ``dial back'' reopening and require the wearing of masks, the 
damage may already have been done as our local health care system is 
very busy now and implementing necessary surge plans. It is not just 
the cumulative numbers that are concerning but the fact that previously 
1 in 8 tests in the community were coming back positive for COVID-19. 
In the last few weeks, this positivity rate has now increased to 1 in 4 
tests being positive, or about 25 percent of tests being conducted in 
Harris County.
    The impacts of COVID-19 are beyond just case counts unfortunately. 
HCPH evaluated the health of Harris County in a milestone report Harris 
Cares: A 2020 Vision for Health in Harris County released in late 2019 
(prior to the COVID-19 pandemic) and found major health disparities. 
More recently, the Harris County Commissioners Court Analyst's Office 
released a report, Disproportionate Impact of COVID-19 on Low-Income 
and Minority Households, stating that ``the fallout of the COVID-19 
outbreak is exacerbating existing financial, health, food, and economic 
challenges of low-income persons and communities of color.'' The impact 
to the economy, the community's physical and mental health, and effects 
of delayed care (e.g., addressing heart disease or diabetes, children's 
immunizations, etc.) are on-going and will be felt well after the 
pandemic stabilizes. Several recommendations from Harris Cares, 
especially its focus on health equity and community voice, data sharing 
capacity before emergencies, local governance, and sustainable 
financing would have greatly enhanced HCPH's response to COVID-19.
                          #invisibilitycrisis
    I spoke previously in Congress about the fact that public health is 
often times invisible when it does its work. This so-called 
``Invisibility Crisis'' (or #InvisibilityCrisis) means that we have a 
real problem in our Nation when it comes to recognizing the importance 
of the often behind-the-scenes work that public health is engaged in 
each day. However, the invisibility crisis that has kept public health 
an under-recognized workforce has put Local Health Departments (LHDs) 
like HCPH undervalued and under-invested in over the decades. This is 
the recipe for disaster when one is faced with a public health crisis 
like COVID-19 where public health is expected to be front and center 
leading the response.
    The public often recognizes the vital role of other first 
responders, such as EMS, Fire, or Police, but the substantial role of 
public health and the public health workforce before, during, and after 
a crisis often goes unacknowledged.
                         we've been here before
    As Judge Hidalgo raised the threat assessment level to red, I 
stated ``enough is enough'' to our community in addressing the 
seriousness of the situation here in Harris County. To this committee, 
today I stand before you to say also ``enough is enough''--we have let 
the COVID-19 pandemic get out of hand in this Nation and must do 
everything we can to correct the course before more people get infected 
and more people die.
    We need to take my recommendations given to the 2017 House Budget 
Committee seriously:
  <bullet> Public health is underfunded and undervalued, yet is 
        absolutely critical to protecting our communities even when its 
        work is largely invisible.
  <bullet> Public health is like the ``offensive line'' of a football 
        team--rarely recognized for the success of the football team 
        but absolutely critical, nonetheless.
  <bullet> Public health and its capacity must be invested in a 
        sustainable and proactive way.
    This #InvisibilityCrisis has unfortunately led to funding cuts for 
public health and even more so, public health emergency preparedness at 
every level of government over time. Despite the significant impact on 
the community's overall health and well-being, public health is largely 
invisible, under-appreciated, and as a result underfunded.
    These issues are further exacerbated when public health agencies 
are confused for health care. Yet even now it has been forgotten that 
COVID-19 is a public health crisis with secondary impacts in health 
care. Taking the offensive line metaphor further, the health care 
system is perceived as the all-important ``quarterback'' and thus 
receives the attention (and the funding) which makes our communities 
less safe. It is important to note rising COVID-19 hospitalizations and 
deaths are an indicator of failure to contain the pandemic through 
prevention measures that should have happened at the community level. 
Coming together to support the community while respecting the crucial 
role that both public health and health care play in fighting the virus 
is imperative to keeping communities and the Nation safe.
    In 2019, I testified before this committee that strong public 
health agencies at all levels of government are important because (just 
as in medicine) there is a science and an ``art'' to public health 
decision making. All levels of government, Federal, State, local, must 
coordinate better with each other (and globally) in response activities 
and planning for the next phases of the COVID-19 pandemic.
         smart, strategic, scalable, and sustainable solutions
    The best way forward is a path that allows all of us to work 
smarter not harder. Solutions should be strategic and scalable actions 
to ensure the COVID-19 response is meeting the needs of the community.
    Solutions jump-started now must be sustainable beyond COVID-19 to 
fix long-standing issues that have plagued public health and ensure we 
are prepared for future threats. HCPH supports recommendations offered 
by NACCHO, the Council of State and Territorial Epidemiologists (CSTE), 
as well as recommendations offered to the Senate Health, Education, 
Labor, & Pensions Committee on June 23, 2020, regarding ``COVID-19: 
Lessons Learned to Prepare for the Next Pandemic.'' Further, HCPH 
offers the following additional recommendations:
Public Health Workforce Crisis
    1.1 LHDs needs sustainable and consistent financing to secure the 
workforce and scale our response appropriately. LHDs depend on mixed 
sources of funding that are either declining or unreliable.
    1.2 LHDs need investment in workforce development to ensure 
adequate recruiting, retention, and succession planning is available 
throughout the response both for continuity of essential public health 
services and dynamic COVID-19 response.
Inadequate Public Health Financing
    2.1 Congress should require CDC to report on how much Federal 
funding, especially for COVID-19 such as Epidemiology Laboratory 
Capacity (ELC) funding, actually reaches LHDs via State health 
departments. Congress should explore per capita funding formulas direct 
to local health departments. Although existing ELC mechanisms may be 
the fastest way to distribute to many local health departments today, 
it is not equitable and leaves many populations (such as in the non-
Houston portion of Harris County) untouched.
    2.2 Congress should increase funding for Public Health Emergency 
Preparedness and review funding directed to LHDs as part of other 
health care finance reform initiatives such as through Medicaid reform 
as a sustainable mechanism for local health departments. Supplemental 
and reactionary appropriations are necessary now, but do not allow for 
planned scaling of response or preparation for future crises such as 
pandemics.
    2.3 Congress and States (in partnership with local authorities) 
should coordinate to explore the services provided by LHDs and 
clarification of jurisdictional lines by the Nation's web of LHDs and 
authorities to inform public health system reform.
Federal Communications and Coordination
    3.1 CDC should be made front and center as a leader in the current 
pandemic and communicate clear honest, and consistent guidance with the 
public on prevention messaging. Inconsistent policies and/or messaging 
at the Federal, State, or local level creates undue confusion and 
complacency at the individual community member level.
    3.2 Scaling of testing (including through Federal sources such as 
Federal Emergency Management Agency [FEMA]) should also include 
coordination with LHDs and public health to expedite case investigation 
and contact tracing. Testing support should be available when demand 
and positivity rates have increased.
    3.3 Proactive planning is needed now with Federal, State, and local 
governments on vaccine distribution plans and communications. This is 
especially important as many LHDs will continue to handle other 
important response responsibilities at the time that vaccines become 
available further exacerbating the issue. Operational roles and 
responsibilities should be delineated before a vaccine is developed.
Disparate Disease Surveillance
    4.1 Health and Human Services (HHS) and CDC should support 
standardizing data platforms across State and Federal level for intake 
of lab data before sharing back to locals. While there is funding to 
support States in modernizing platforms, locals are not funded to 
develop or maintain surveillance and reporting systems as they have 
been forced to do for COVID-19.
    4.2 If Congress expects efficient surveillance, the Federal 
Government needs to encourage States to bolster local surveillance 
capabilities for contact tracing and case investigation that are 
interoperable across jurisdictions.
    4.3 CDC and other Federal partners should coordinate through 
coalitions such NACCHO, Council of State and Territorial 
Epidemiologists (CSTE), etc. to provide technical assistance to local 
health departments on policy and planning, data, epidemiology, and 
other LHD needs. In fact, HCPH has had to reach out directly to many 
local health departments across the county to share best practices and 
feedback due to a lack of such sharing mechanisms in comparison to 
previous emergencies.
    4.4 Congress should invest in modern and responsive data systems, 
such as the National notifiable disease surveillance system (NNDSS), 
electronic case reporting (eCR), syndromic surveillance, electronical 
vital records systems, and laboratory information systems. Technology 
alone is not the solution, and data informatics workforce also needs 
support at the local level.
          local health department pain points during covid-19
                     public health workforce crisis
Local Health Department Perspective
    Findings from NACCHO indicate State health departments and LHDs 
have lost nearly a quarter of their workforce since 2008, shedding over 
50,000 jobs across the country. The deficiency is compounded by the age 
of the public health workforce--nearly 55 percent of public health 
professionals are over the age of 45 and almost a quarter of health 
department staff are eligible for retirement. Between those who plan to 
retire and those who plan to pursue opportunities in the private sector 
(often due to low wages), nearly half of the local/State health 
department workforce might leave over the next several years. Further 
worsening matters, several public health leaders across the country 
have been threatened, fired, or pushed out of their job role leaving it 
necessary to find qualified persons available to take over during a 
pandemic.
    Epidemiologists are the disease investigators and backbone of the 
COVID-19 response. In order to support epidemiologists in investigating 
cases and offering control measures, the workforce must also include 
communications staff to push prevention messaging, data analysts to 
explore trends and visualize outbreaks and case data, logistics and 
clinical support for testing and operations, social services and 
wraparound support for assisting with quarantine and isolation, 
administrative and business support for massive scaling, policy 
analysts, and more. Unfortunately, staff in public health across the 
Nation--the invisible workforce--are mission-driven but unduly 
stretched. The LHD workforce is diverse, facing burnout, and stretched 
to its limit.
HCPH COVID-19 Response
    By March 2020, the workload and strain on the HCPH staff to respond 
to COVID-19 was so great, one of the first internal wellness 
initiatives was to bring puppies and kittens from the HCPH Veterinary 
Public Health Division to help our epidemiology staff destress. We 
began instituting regular mental health sessions, which we have since 
expanded. Eventually, it was not about mental health breaks, it was 
having more work than the current workforce had the capacity to handle. 
In the span of just 3-4 months (March-June), we have doubled the size 
of HCPH.
    Before COVID-19, HCPH was staffed with a workforce of approximately 
650. Today, we have doubled to almost 1,300 employees and contractors. 
The HCPH COVID-19 response has grown from 30 staff members under the 
Incident Command System (ICS) to just under 900 while the HCPH 
epidemiology group grew from about 25 to 500 staff with 300 contact 
tracers alone on-boarded by May 22. COVID-19 has proved this scaling is 
necessary, but without reliable and secure funding outside of 
reactionary and supplemental funds, LHDs are not prepared for the next 
pandemic or long-term planning.
    Rapid scaling of HCPH has placed immense strain on our system, and 
it has required an intense focus on quality control and continuous re-
alignment of skill sets. The response has pulled staff from across the 
health department leaving many critical roles for continuity of 
operations vacant. Dentists were needed to collect specimens at testing 
sites. Food safety staff continue to provide data and administrative 
support for our epidemiologists. Mosquito control staff coordinate 
teams for mobile operations and contact tracing. Every week, our 
command staff review workforce needs for public health essential 
services and the COVID-19 response in order to shuffle staff, 
accommodate conflicting needs, and ``right size'' the response. 
Continuity of operations for non-COVID-19 public health services is 
near impossible for a response that has no clear end in sight.
                   inadequate public health financing
A Local Health Department Perspective
    LHDs work hard each day to meet the needs of the community and 
often operate on a tight budget. To this immense work and tight budget, 
public health added the COVID-19 response. Infrastructure investments 
must be made now to further strengthen, enhance, and scale up the 
ability of public health agencies and others to meet demands for future 
COVID-19 vaccinations and for mitigating the long-term health impact of 
COVID-19.
    Health care finance reform has been the topic of discussion for 
decades. Sweeping health care financing reform, although necessary, 
does not translate to sustainable public and population health 
capacity. Public health prevention infrastructure has never been funded 
robustly enough to limit health care costs.
    However, over the last decade public health has faced steep 
declines and threats to financing. Public Health Emergency Preparedness 
funding streams have steadily declined since initial allocation after 
9/11. In Texas, instead of expanding Medicaid, the State submitted an 
1115 Waiver that is set to expire in 2022. The direct participation of 
LHDs accounted for 15 percent of the total DSRIP pool, or about $1.7 
billion in Texas. 1115's were an unprecedented and novel pipeline to 
LHDs for Medicaid dollars. No other mechanisms exist for LHDs in Texas 
to secure Medicaid funding, despite being a critical component of the 
safety net.
    Public health financing reform is inhibited by the lack of 
formalization and designation of LHDs in State and Federal regulation. 
Not all LHDs are created the same and offer vastly different services 
locality to locality. Without a massive effort to inventory provided 
services, better understanding of jurisdictional lines and amount of 
population served, and coded designations across State and Federal 
Governments for LHDs it is difficult to jumpstart system reform and 
revise funding formulas.
    The primary financing mechanism for State and local governments to 
expand their epidemiological capacity is through CDC's Epidemiology and 
Laboratory Capacity (ELC) Cooperative Agreements. These dollars are 
directed toward 50 States and 6 major cities. However, allocation from 
States down to local governments has fluctuated and many LHDs are 
unsure if the funding provided will be able to last throughout the 
pandemic.
    The ELC funding formula for cooperative agreements to the true 
``boots on the ground'' LHDs is flawed and outdated. After distribution 
to States, locals often do not receive a significant portion of these 
dollars to expand their surveillance capacity even though they are 
expected by their residents to provide surveillance, maintain 
personalized dashboards, and conduct case investigations themselves. 
This disparity for LHDs is compounded as CDC continues to use this 
funding formula for supplementary funding throughout COVID-19 response, 
continuing to leave many LHDs expected to perform out of the direct 
funding loop. Accountability and oversight to States and CDC are needed 
to ensure the Congressional intent of allocating funding to LHDs is 
fulfilled.
HCPH COVID-19 Response
    To scale the COVID-19 response and sync with closing of businesses, 
several essential public health services have been impacted such as 
restaurant inspections, mosquito abatement, clinic-based services, 
Grant funded projects have been slowed, sometimes to a complete halt, 
with requests for extensions being made across the board. For COVID-19 
response, HCPH has had to divert limited resources from elsewhere in 
order to scale some of the most important tools available to fight 
COVID-19. HCPH's financial and grant portfolios are at risk alongside 
many other LHDs across Texas and the Nation.
    For fiscal year 2020-2021, HCPH had an operating budget of $121 
million, comprised of 53 percent grant funding, 32 percent local 
funding, and 15 percent special revenue funding. Making matters worse, 
HCPH has spent approximately $25 million for COVID-19 over the course 
of 6 months and has only received $4.4 million through discretionary 
and supplementary Federal support to date (as pass-through dollars from 
the State). The majority of costs for COVID-19 response will likely 
have to leverage county disaster funds. These local disaster funds are 
not a sustainable solution for public health response and planning. 
When activating grant funded staff and resources for COVID-19 response, 
LHDs face the threat of not being able to charge back grants for staff 
time though the individual remains an LHD staff member. Had there been 
more robust infrastructure and regular funding for public health before 
COVID-19, LHDs would have been better poised to respond in more cost-
effective and timely manner.
    CARES Act funding was passed to support counties and cities alike, 
but without direct designation for LHDs, allocation is likely to be 
limited for public health since funding constraints mean there is 
competition for these precious dollars across local governmental 
systems. However, one promising step related to the CARES Act funding 
formulas is that it has clear guidelines on shared city and county 
allocations based on population size. This is not the case for example 
with ELC funding. For ELC and other Federal funding intended for local 
health departments, funding formulas should be reviewed to ensure LHDs 
such as HCPH receive their appropriate share (whether based on per 
capita or another reasonable basis) in a manner similar to the CARES 
Act funding for local governments as a whole.
                federal communications and coordination
Local Health Department Perspective
    From the outset of the COVID-19 crisis and continuing today, the 
public has received mixed and contradictory messages on the severity of 
the outbreak, the differing roles of Federal, State, and local 
government, the availability of tests, potential treatments, the 
appropriateness of masks, and time lines and approaches for shutting 
down non-essential businesses and reopening. CDC has not been publicly 
visible as the Nation's apolitical voice of public health. LHDs are 
less effective to respond to early outbreaks when Federal, State, and 
local health messaging and communications are not in sync.
    HHS agencies (especially ASPR and CDC) have not coordinated with 
States and LHDs on how best to access strategic National stockpiles at 
the Federal, State, and local level. As a result, unnecessary confusion 
has existed on Federal, State, and hospital-level responsibilities in 
procuring PPE and testing supplies. Due to shortages, hoarding, 
increased market prices, and competition between locals, States, and 
even hospitals the supply chain was unduly compromised.
    Inconsistent or unavailable guidance from the Food and Drug 
Administration (FDA) on Emergency Use Authorizations (EUA), especially 
for the reliability and availability of emerging testing technology, 
has pushed LHDs to have to internally track unreliable vendors for 
testing kits. This has been problematic throughout the response because 
vendors have reached out directly to local health departments and local 
elected officials.
    Proactive planning is needed now with the Federal Government on 
coordination for mass vaccinations.--The Federal Government should seek 
input from local governments on how to best operationalize a COVID-19 
mass vaccination. As was done during 2009 H1N1 response, Federal and 
State governments should work with private partners to distribute the 
vaccine while having a set priority criteria to ensure the vaccine is 
available to those at most need first. Local public health departments 
cannot be expected to run the mass vaccination operation while also 
continuing other key response activities. Delineated roles and 
responsibilities should be in place before a vaccine is developed so 
wide-spread distribution plans among private and public partners is 
clearly laid out.
HCPH COVID-19 Response
    Since March, HCPH has been supported by 2 FEMA fixed-site testing 
locations in Harris County (2 additional FEMA sites are within the city 
of Houston jurisdiction). These sites were set to cease Federal support 
by June 30--at the very time that Harris County was seeing increasing 
demand for testing, increase in cases, and increase in positivity rates 
for tests performed. To maintain Federal support for testing, HCPH 
requested that FEMA remain for 2 months. After much advocacy at the 
local, State, and Federal level, FEMA fortunately agreed to continue 
its testing support for longer. However, it is still scheduled to cease 
this support by July 14 even while testing remains more important than 
ever.
    In addition to the Federal testing support, in order to meet 
additional testing demand throughout Harris County, HCPH has partnered 
with private labs to provide testing at home, in mobile locations noted 
as ``testing deserts'' (utilizing county-owned mobile units), and 
through testing strike teams for congregate settings. In fact, HCPH has 
spent $16 million (of its total $25 million expenditure) on testing 
efforts in Harris County. Overall, to date, HCPH has tested 100,000 
residents.
    While things have become more coordinated now, earlier in the 
pandemic, lack of coordination resulted in disjointed contracting and 
securing of supplies and resources, many of which were largely 
unavailable because they were also held by the Federal Government. 
Local partnerships were needed to create local supply chains for PPE 
and testing supplies. Without consistent or reliable testing options, 
HCPH had to secure its own stockpile and build systems for local supply 
chains and donations. When faced with shortages in viral transport 
media that threatened operations, HCPH had to consider even 
retrofitting its mosquito control lab to have capacity to produce 5,000 
vials per week. At times, it felt every LHD was left on its own trying 
to create a system for response in real-time due to these limitations 
at hand.
    Scaling of Government-supported testing sites has not resulted in 
expedited contact tracing or scaled prevention because results are not 
readily available to LHDs. In Harris County, FEMA community-based 
testing centers instructed people being tested to contact their local 
health department for their results when HCPH was not part of the 
system and had no way to access the test results. Because Federal 
testing sites utilized labs outside of the State, results were delayed 
weeks before the LHD was ever able to access the result. This resulted 
in wide-spread frustration with LHDs such as ours and the residents we 
serve. Scaling of congregate and mobile testing through the State of 
Texas done without full public health engagement has resulted in 
similar issues for Texas.
    In fact, HCPH has faced strong pushback from congregate settings to 
investigate and test within facilities, in part due to overlapping 
State and Federal jurisdictions of facilities. The Federal Government 
should partner with States publicly to empower local health departments 
to assess and test congregate facilities such as nursing homes, 
assisted living, homeless shelters, detention centers, etc. due to the 
concern about increased risk in these settings.
                     disparate disease surveillance
Local Health Department Perspective
    Efforts to modernize public health surveillance and data systems 
have been made over the years, but the categorical, disease-specific 
approach to funding and implementing improvements has resulted in 
uneven progress.
    The Nation's public health infrastructure is so fragmented and 
antiquated that health care providers who already have the data 
collected and stored in electronic health records cannot rapidly share 
these health data because LHDs cannot receive them electronically. The 
data is moving slower than the disease. LHDs are responsible for 
investigating cases and notifying potential contacts to break chains of 
transmission, but that job becomes impossible when data shared to LHDs 
is inconsistent, missing key information, or delayed. This issue area 
is not new and has plagued public health response regularly.
            Data Gaps for Timely Investigations
    1. Labs have consistently reported incomplete results to State 
health departments (which are in turn later shared to LHDs) through 
multiple data pipelines, including facsimile (i.e., fax). LHDs must 
perform background checks for basic contact information of known cases 
when data is incomplete. Although HHS released guidance on data fields 
that must be reported to States starting August 1, it is far too late 
and limited mechanisms exist for enforcement.
    2. Across the Nation, there are unclear jurisdictional lines of 
LHDs and authorities. As mentioned above, without formal designations 
and definitions of LHDs, States and the Federal Government often send 
results outside of the LHD jurisdiction hoping that LHDs will work 
together to share across the system. However, there is limited 
interoperability, if any, to share efficiently case and contact 
information across LHDs and no way to ensure cases are not falling 
through cracks.
    3. Disparate disease-specific surveillance systems exist for many 
LHDs. Data collection requirements from the State and CDC during the 
case investigation and monitoring of cases have consistently been 
modified throughout the response. No system has proven robust enough to 
meet local needs for reporting data requested in multiple formats, 
including fillable PDFs and spreadsheets. Additionally, surveillance 
systems lack the ability to measure key performance indicators which 
are often needed to justify funding. Locally-created solutions to track 
disease and performance of contact tracing have required real-time 
development alongside an on-going pandemic.
    4. LHD epidemiologists must manually call infection control 
practitioners to track the status of hospitalized patients because 
consistent access to electronic health records is not consistently 
available to LHDs. Hospitals are required to send data directly to 
Federal and State governments, but no interoperability exists for LHDs 
to access and analyze health care data directly for surveillance, 
decision making, or planning.
    5. Technology solutions for disease surveillance are not feasible 
without stronger investment into dedicated informatics workforce 
support at the local level as well as hardware availability.
            Disease Modeling and Planning for Local Officials
    Additionally, LHDs are expected to provide disease trend analysis 
and modeling projections to inform local decision making on non-
pharmaceutical interventions and planning. Although many Federal 
modeling and projections are available at the State level, no 
sufficient options exist for LHDs to maintain situational awareness. 
Local models and dashboards from academic partners and others have been 
ad-hoc and inconsistently maintained. Without accessible health care 
data, aggregate data must be manually scraped from reporting health 
care coalitions to inform health care utilization projections. LHDs 
need disease modeling support, especially when the population of some 
LHD jurisdictions is comparable to the size of small States (of note, 
Harris County itself has a population larger than 25 States).
    Data analysis support is also needed to determine local outbreak 
trends and prevalence for granular, place-based decision making that 
can inform local operations such as congregate setting outbreaks or 
super-spreading events. Index case and social network analysis is 
impossible without shared contact trace and case information across 
jurisdictions. If Federal Governments expect efficient disease 
surveillance, they need to encourage States to bolster local 
surveillance capabilities. Knowing simply that a county or State has 
increasing disease rates does not inform proactive prevention measures, 
testing, or outbreak containment for LHDs. CDC should assist LHDs to 
track genetic trends and seroprevalence.
            HCPH COVID-19 Response
    HCPH, for example, was forced to invest in ad-hoc and internally-
housed disease surveillance symptoms to catch up with the reporting 
needs at the local, State, and Federal levels. While this may have been 
true across other LHDs, HCPH created its own data reporting platform as 
``off the shelf'' systems were simply not robust enough to capture the 
data elements and needs of the local context.
    Because lab results are often delayed when sent by the State 
through multiple platforms, HCPH has had to secure direct partnerships 
with labs to share data, in addition to their already-required State 
reporting. To ease communications with infection control physicians, 
HCPH has been able to request direct access to one hospital's Epic 
electronic medical record system. These ``one off'' solutions are not 
practical system-wide for data exchange and are an indicator of failed 
public health and health care interoperability for LHDs to access 
needed data for case investigations and data analysis.
    HCPH was one of the first LHDs in Texas to develop a public-facing 
dashboard using its own internally created surveillance platform that 
it then incorporated public health data from its Houston Health 
Department partner. When reporting cases out to the public, changing 
guidance on CDC's probable case definitions led to delay and confusion 
on how to classify cases using newer testing technologies and unknown 
labs. This unclear guidance has resulted in complicated historical data 
integrity and has limited any possibility of efficient data sharing 
across jurisdictions. Additionally, third-party contact tracing apps 
and surveillance solutions have continued to reach out to LHDs. HCPH 
has spent much time in reaching out and following up on contact tracing 
app solicitations without consistency from the State (or Federal) 
government. Potential solutions from the public or private sector for 
technology must be regional or State-wide to account for the mobility 
of residents, especially in a community such as Harris County.
                               conclusion
    On behalf of Harris County Public Health, and the nearly 3,000 
local health departments across the country and those in Texas, I 
appreciate again the opportunity to testify today. This behind-the-
scenes dedicated public health workforce, under continues to work 
around the clock to protect our communities even as it is stretched to 
its limits. Our work would be impossible without the leadership and 
support of Judge Hidalgo and county leadership.
    The pandemic is an unprecedented time for our country and our 
Nation's public health preparedness is being tested like it never has 
before. Smart, strategic, scalable, and sustainable investments are 
needed now to prevent continually subjecting public health to trial by 
fire.
    We join you in working toward strengthening a public health system 
that protects our economic vitality, National security, and the very 
health of our people. Thank you for your support in building safe, 
healthy, and protected communities across this great Nation of ours.

    Chairman Thompson. Thank you very much, Doctor.
    I now recognize Colonel Hastings to summarize his statement 
for 5 minutes.

 STATEMENT OF COLONEL BRIAN HASTINGS (RET.), DIRECTOR, ALABAMA 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Hastings. Good afternoon, Chairman Thompson, Ranking 
Member Rogers, and Members of the committee. On behalf of 
Alabama Governor Kay Ivey, thank you for inviting the Alabama 
Emergency Management Agency to participate in today's hearing.
    I am here before you as the director of the Alabama 
Emergency Management Agency, and we are the State's lead agency 
for the coordination of Alabama's all-hazards mitigation, 
preparedness, response, and recovery activities. Thank you for 
the opportunity to share with you Alabama's perspectives and 
our experience in preparing for and responding to COVID-19.
    Over the last 4 months, Alabama has transitioned from a 
stay-at-home order issued on 20 March to a safer-at-home order 
issued on 30 April. The latest order from Governor Ivey has 
recently been amended and extended through 31 July.
    When this pandemic began, Alabama was fortunate that ADPH, 
our Department of Public Health, had on hand an existing 
stockpile of PPE left over from the H1N1 response over a decade 
ago. This stockpile of PPE was mostly expired but was able to 
be distributed early in our response to COVID-19 with the help 
of a waiver granted by the U.S. Food and Drug Administration.
    The initial push of ADPH's existing PPE stockpile, combined 
with the slow rise in COVID-19 cases and the release of Federal 
Strategic National Stockpile, helped reduce the initial shock 
of the global PPE supply-and-demand crisis. Today, the health 
care supply chain is still struggling to provide medical-grade 
respirators, some disinfectants, and other specific personal 
protective equipment. This supply-and-demand mismatch continues 
to plague Alabama, just as in many other States, as we continue 
to provide PPE to the health care system, while simultaneously 
working to replenish our State stockpile in preparation for the 
fall surge of COVID-19.
    As a State EMA director, I appreciated the more active role 
FEMA played as the U.S. coronavirus response evolved. Even 
though the dual reporting change of HHS and FEMA were sometimes 
cumbersome, it was better than not receiving critical 
coronavirus response information, and the relationship provided 
much-needed visibility into the U.S. public health response at 
a National level that we lacked, to some extent, during the 
early days of the Federal Government's response.
    The combination and collocation of FEMA and HHS leadership 
was mirrored in Alabama's own Unified Command set up on 30 
March. We found that this helped our communication information 
flow across and within our State agencies. This combined 
construct and the close coordination it enables between 
emergency management and public health officials should be 
purposefully encouraged in Federally-supported preparedness 
programs. This would reduce duplication and streamline 
coordination of preparedness outcomes driven by the separate 
HHS and DHS/FEMA emergency preparedness funding programs, of 
which FEMA's Emergency Management Performance Grants and HSS' 
Public Health Emergency Preparedness programs are 2 prominent 
examples.
    As the United States develops future strategies and 
policies for pandemics, all-hazards emergency management 
activities and threats to National security, I offer a few 
items for consideration to our Federal partners.
    Assess public health vulnerabilities to National security 
based on comprehensive supply chain analysis to include the 
location of raw materials, availability of production 
resources, transportation vulnerabilities, and location of 
manufacturing.
    No. 2, with regard to the CARES Act and the crucial 
financial support it provides to State and local government, 
there are lingering questions about eligibility that at this 
time are causing some level of confusion at the State and local 
levels. For example, it is unclear whether CARES funding may be 
lawfully used to accommodate the extraordinary expenses of 
emergency management agencies like AEMA that have been incurred 
in responding to COVID-19, even though the vast majority of our 
personnel expenses have been dedicated to that end, to date. 
Increased clarity on the intended and allowable uses of CARES 
funding would enable State and local officials to make better 
decisions about the most effective and responsible uses of this 
essential emergency funding mechanism as we work to maintain 
Government operations during this crisis.
    Requirements that are too restrictive or specific in our 
emergency preparedness funding programs, whether in authorizing 
legislation or implementing guidance passed down from Federal 
agencies, often create very distinct functional cylinders of 
excellence and siloed functional expertise in a way that is 
inwardly focused, instead of enabling cooperation and sharing 
of resources in a fully integrated National emergency 
management and preparedness enterprise. Our focus should be on 
fostering an outward sharing of resources and information that 
is incentivized by Federal grants aimed toward developing 
capabilities with commonality, interconnectedness, and 
partnerships instead of driving duplication, competition, or 
stovepipes. This is especially pertinent in terms of overlap 
between sometimes competing objectives of the FEMA and HHS 
emergency preparedness funding programs.
    Last, in accordance with FEMA's framework of Federally-
supported, State-managed, and locally-executed disaster 
activities, please give consideration to the role that 
subdivisions of Government and private partners should play in 
stockpiling resources for future pandemics or building local 
capability. If the Federal Government focuses too much only on 
Federal responsibilities, the United States may miss an 
opportunity to create a whole-of-Government and whole-of-
society approach to preparing for future pandemics and complex 
disasters. We all play a role in emergency preparedness, so the 
Strategic National Stockpile should be a multi-tiered National 
system comprised of integrated whole-of-Government, whole-of-
business, and whole-of-society partnerships to strengthen the 
resiliency of the United States at all levels: State, local, 
Tribal, territorial, and Federal.
    In conclusion, I am proud to say that Alabama remains 
committed to fighting the coronavirus, reducing loss of life, 
and minimizing the suffering of our citizens. As our Nation 
continues to respond to this public health crisis, we ask that 
you remain attentive to the evolving needs of each State, in 
particular, Alabama, and mobilize the information, resources, 
and funding capabilities of the Federal Government that are 
needed to protect our Nation's public health and safety.
    Again, thank you for this opportunity to testify. Thank you 
for your support of the CARES Act and to our Federal partners 
who have partnered with us in the response, and I welcome your 
questions.
    Thank you.
    [The prepared statement of Mr. Hastings follows:]
                  Prepared Statement of Brian Hastings
                              July 8, 2020
    Good afternoon Chairman Thompson, Ranking Member Rogers, and 
Members of the committee. On behalf of Alabama Governor Kay Ivey, thank 
you for inviting the Alabama Emergency Management Agency (AEMA) to 
participate in today's hearing.
    I am here before you as the director of the Alabama Emergency 
Management Agency, and we are the State's lead agency for the 
coordination of Alabama's all-hazards mitigation, preparedness, 
response, and recovery activities. My goal today is to share with you 
Alabama's perspectives and our experiences preparing for and responding 
to the novel coronavirus public health crisis. More so, I will share 
with you our experience working with our State partners and our Federal 
partners at the U.S. Public Health Service, U.S. Department of Health 
and Human Services (HHS), the Centers for Disease Control and 
Prevention (CDC), the Small Business Administration (SBA) and the 
Federal Emergency Management Agency (FEMA). I am hopeful that by 
sharing with you how Alabama has responded to the novel coronavirus 
public heath National emergency, you will be able to strengthen and 
enhance the coordination between critical Federal agencies and all 
States, including Alabama. I will first give a little background on our 
operations tempo this year and then give an update on Alabama's Unified 
Command activities and the status of the phases of our State strategy 
and conclude with a few observations.
    Beginning in January, AEMA, along with the Alabama Department of 
Public Health (ADPH), actively monitored the public health situation 
arising from Wuhan City, China. Throughout the Winter and Spring, 
Alabama was also managing the impacts from our record-breaking winter 
rainfall and flooding, the fifth-worst tornado outbreak in Alabama 
history on Easter Sunday, and the effects of a straight-line wind event 
the following Sunday, all while responding to the coronavirus public 
health crisis and complying with CDC guidelines and public health 
orders. The significant impacts of these weather events resulted in 
Governor Ivey requesting 3 of our 4 Presidential Major Disaster 
Declarations in 2020, of which the declarations for flooding and 
coronavirus have been approved, the 2 other weather-related requests 
are currently pending approval. Already, 2020 has been another busy 
disaster year in Alabama and COVID19 has added a level of complexity we 
have not seen in our lifetimes.
    Commensurate with President Trump declaring a National Emergency on 
13 March in response to the global pandemic, Governor Ivey declared a 
State of Emergency, Alabama received a Federal Emergency Declaration, 
AEMA activated a hybrid virtual State emergency operations center and 
deployed personnel for operations embedded with ADPH, and we started 
State-level coordination group calls with our internal State emergency 
management partners. Alabama began the groundwork for submitting a 
Presidential Major Disaster Declaration request for Public Assistance 
and the Crisis Counseling Program and worked with the Department of 
Commerce to submit a Small Business Administration (SBA) Disaster 
Declaration. Thanks to our close relationship with our Federal 
partners, we promptly received approval of our SBA Declaration on 20 
March easing the impacts on the small business community that makes up 
70 percent of the Alabama economy. Our Major Disaster Declaration was 
approved on 29 March for FEMA Public Assistance as well as the crucial 
Crisis Counselling Program administered by the Alabama Department of 
Mental Health in partnership with the Substance Abuse and Mental Health 
Services Administration (SAMHSA) of HHS to ease the suffering of our 
citizens most affected by the impacts of the coronavirus.
    On 16 March, Governor Ivey stood up a Coronavirus Task Force to 
leverage a whole-of-government approach in addressing the multitude of 
complex and cascading effects of the coronavirus pandemic. Soon after, 
Governor Ivey approved a coordinated State response under a unified 
command with ADPH and AEMA as co-leads. Under this National Incident 
Management System (NIMS)-compliant construct, ADPH provided the lead 
and expertise on public health activities while AEMA provided wrap-
around services and support in the form of additional manning and 
disaster funding mechanisms to bolster Alabama's whole-of-government 
response. On 25 March, we held our first video conference call with key 
leaders of State agencies in the unified command and then established a 
fully integrated unified operations structure on 30 March along with 
members of the Alabama Department of Public Health (ADPH), Alabama 
Forestry Commission (AFC), Alabama National Guard (ANG), U.S. Public 
Health Service (USPHS) and the Federal Emergency Management Agency 
(FEMA). Recently, on 1 July, Alabama's Unified Command transitioned to 
an ADPH-led incident command system postured for longer-term operations 
with AEMA continuing to provide wrap-around services and coordinate 
support from State partners and FEMA.
    As we stood up the Unified Command in March, Governor Ivey approved 
a grand strategy, strategy, and 4 phases of operations----
    Grand Strategy.--Alabama demonstrates the capacity and resolve to 
defeat Coronavirus, emerging more unified and capable. Alabama's 
mobilization and community resilience are a model for America and help 
lead the fight against the coronavirus.
    Strategy.--Mobilize Alabama for a whole-of-society response to slow 
the transmission of coronavirus to a level commensurate with our 
medical system's capacity to care for our citizens in order to buy time 
to find a vaccination or treatment to eliminate the health, economic, 
and social impacts of the coronavirus on our people and economy.
    Phases of our State Operations:
  <bullet> Reduce transmission of COVID19 (on-going)
  <bullet> Sustain & Expand health care capacity and capability (on-
        going)
  <bullet> Inform and reassure the public (on-going)
  <bullet> Transition to a better Alabama (on-going).
    Alabama has used a whole-of-government approach to reduce the 
transmission of COVID19 and bolster the health care system by working 
with subdivisions of government, associations, and organizations to 
slow the spread of the coronavirus. At the height of our Unified 
Command activities and leveraging crucial Federal support for National 
Guard operations under Title 32 authorization, Governor Ivey had 
activated 789 members of the Alabama National Guard to support 
logistics and medical operations planning, commodity and PPE 
transportation, warehouse management, nursing home decontamination, and 
nursing home infectious disease training. The Unified Command, 
leveraging the incredible support of the soldiers of the Alabama 
National Guard (ALNG), assistance of the logistical experts from the 
Alabama Forestry Commission (AFC), resources and staff of Alabama 
Attorney General Steve Marshall, and many other State agencies, has 
delivered 16,264,959 articles of personal protective equipment (PPE); 
86,285 coronavirus test kits; and 10,974 vials of lifesaving 
Remdesivir. The soldiers of ALNG Task Force 31 completed 185 nursing 
home decontamination missions and provided 26 training missions to 821 
civilians and nursing home staff to reduce the spread of COVID19. As 
Alabama right-sizes our coronavirus response, there are currently 246 
members of the National Guard activated. Additionally, at the request 
of the Alabama Unified Command, the CDC deployed a team to Alabama to 
help nursing homes obtain additional support with infectious disease 
control.
    Through Direct Federal Assistance (DFA) coordinated through FEMA, 
the United States Army Corps of Engineers (USACE) deployed personnel to 
Alabama who embedded in our Unified Command and completed more 
alternate care site (ACS) assessments than any other State in FEMA 
Region IV. These assessments provide Alabama's health care system with 
a multitude of options to expand health care capacity in response to 
COVID19 surges, if required. Our Alabama goal continues to be slow the 
spread of COVID19 while supporting hospital surge capacity to keep 
traditional hospital patients in traditional hospitals receiving 
traditional hospital care, rather than to resort to ACS solutions 
whenever possible.
    Throughout the evolution of the COVID19 response, Alabama's Unified 
Command has worked hard to message our activities, share the Alabama 
story with our citizens, motivate Alabamians to adopt the beneficial 
habits of non-pharmaceutical interventions, and align all our 
communities toward a common goal of slowing the spread of the 
coronavirus. Under the Unified Command construct, we created a Joint 
Information Center (JIC) led by Governor Ivey's communications director 
with support from ADPH and AEMA to support consistent and timely 
messaging that has been aligned with CDC and other Federal COVID19 
policy and guidance recommendations. Alabama has smoothly transitioned 
from a ``Stay at Home'' order issued on 20 March to a ``Safer at Home'' 
order issued on 30 April; the latest order has recently been amended 
and extended by Governor Ivey through 31 July.
    Last, as we transition to a better Alabama, the Unified Command and 
State partners continue to leverage FEMA Public Assistance and CARES 
Act funds to mitigate short- and long-term negative effects of the 
coronavirus on our communities, economy, and citizens. One example of 
the incredible partnership between our Federal, State, and local 
partners is the effort led by University of Alabama Birmingham (UAB) 
Medicine with CARES Act funding allocated by Governor Ivey to develop a 
State-wide coronavirus testing, tracing, and informatics program for 
institutions of higher education to safely bring students back onto 
campus this fall for in-residence education. The potential exists to 
scale and scope this testing effort beyond 2- and 4-year colleges and 
universities to mitigate the spread of the coronavirus throughout 
Alabama.
    Before I close my written statement, I would like to share a few 
observations and recommendations. When this pandemic began, Alabama was 
fortunate that ADPH had on-hand an existing stockpile of PPE leftover 
from the H1N1 response over a decade ago. This stockpile of PPE was 
mostly expired but was able to be distributed early in our response to 
COVID19 with the help of a waiver granted by the U.S. Food and Drug 
Administration (FDA). The initial push of ADPH's existing PPE 
stockpile--combined with a slow rise in COVID19 cases and the rapid 
release of the Federal Strategic National Stockpile (SNS)--helped 
reduce the initial shock of the global PPE supply and demand crisis. 
Today, the health care supply chain is still struggling to provide 
medical-grade respirators, some disinfectants and other specific 
personal protective equipment. This supply-and-demand mismatch 
continues to plague Alabama, just as in many other States, as we 
continue to provide PPE to the health care system while simultaneously 
working to replenish our State stockpile in preparation for a possible 
fall surge of COVID19 cases.
    As a State EMA director, I appreciated the more active role FEMA 
played as the U.S. coronavirus response evolved. Even though the dual 
reporting chains of HHS and FEMA were sometimes cumbersome, it was 
better than not receiving critical coronavirus response information and 
the relationship provided much-needed visibility into the U.S. public 
health response at a National level that we lacked, to some extent, 
during the early days of the Federal Government's response. The 
combination and co-location of FEMA and HHS leadership was mirrored in 
Alabama's own Unified Command. We found that this helped with our 
communication and information flow across and within State agencies. 
This combined construct and the close coordination it enables between 
emergency management and public health officials should be purposefully 
encouraged in future Federally-supported preparedness programs. This 
would reduce duplication and streamline coordination of preparedness 
outcomes driven by the separate HHS and DHS/FEMA emergency preparedness 
funding programs--FEMA's Emergency Management Performance Grant (EMPG) 
and HHS's Public Health Emergency Preparedness (PHEP) programs being 
two prominent examples.
    As the United States develops future strategies and policies for 
pandemics, all-hazards emergency management activities and threats to 
National security, I offer a few items for consideration to our Federal 
partners:
    (1) Assess public health vulnerabilities to National security based 
        on comprehensive supply chain analysis to include the location 
        of raw materials, availability of production resources, 
        transportation vulnerabilities, and location of manufacturing.
    (2) With regard to the CARES Act and the crucial financial support 
        it provides to State and local government, there are lingering 
        questions about eligibility that, at this time, are causing 
        some level of confusion at the State and local levels. For 
        example, it is unclear whether CARES funding may be lawfully 
        used to accommodate the extraordinary expenses of emergency 
        management agencies like AEMA that have been incurred in 
        responding to COVID19, even though the vast majority of our 
        personnel expenses have been dedicated to that end. Increased 
        clarity on the intended and allowable uses of CARES funding 
        would enable State and local officials to make better decisions 
        about the most effective and responsible uses of this essential 
        emergency funding mechanism as we work to maintain Government 
        operations during this crisis.
    (3) Requirements that are too restrictive or specific--whether in 
        authorizing legislation or in the implementing guidance passed 
        down from Federal agencies--in our emergency preparedness 
        funding programs often create very distinct functional 
        cylinders of excellence and siloed functional expertise in a 
        way that is inwardly-focused, instead of enabling cooperation 
        and sharing of resources in a fully integrated National 
        emergency management and preparedness enterprise. Our focus 
        should be on fostering an outward sharing of resources and 
        information that is incentivized by Federal grants aimed toward 
        developing capabilities with commonality, interconnectedness, 
        and partnerships instead of driving duplication, competition or 
        stovepipes. This is especially pertinent in terms of the 
        overlap between--and sometimes competing objectives of--the 
        FEMA and HHS emergency preparedness funding programs.
    (4) In accordance with FEMA's framework of Federally-supported, 
        State-managed, and locally-executed disaster activities, please 
        give consideration of the role that sub-divisions of Government 
        and private partners should play in ``stockpiling'' resources 
        for future pandemics. Emergency management and risk management 
        are everyone's responsibility. If the Federal Government 
        focuses too much only on Federal responsibilities, the United 
        States may miss an opportunity to create a whole-of-government 
        and whole-of-society approach to preparing for future pandemics 
        and complex disasters. We all play a role in emergency 
        preparedness, so the ``strategic National stockpile'' should be 
        a multi-tiered National system comprised of integrated whole-
        of-Government, whole-of-business, and whole-of-society 
        partnerships to strengthen the resiliency of the United States 
        at all levels--State, local, Tribal, territorial, and Federal.
    In conclusion, and I am proud to say that Alabama remains committed 
to fighting the coronavirus, reducing loss of life, and minimizing the 
suffering of our citizens. As our Nation continues to respond to this 
public health crisis, we ask that you remain attentive to the evolving 
needs of each State--and, in particular, Alabama--and mobilize the 
information, resources, and funding capabilities of the Federal 
Government that are needed to protect our Nation's public health and 
safety.
    Again, thank you for this opportunity to testify, and I welcome 
your questions.

    Chairman Thompson. I thank the witnesses for their 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself for questions.
    Governor, Johns Hopkins University has documented the 
disproportionate number of deaths in the United States, the 
disproportionate number of testing. How do you think we got to 
this point in the United States that our people are dying more 
disproportionately than others? After you say that, can you 
give us what you think we ought to be doing that we didn't do?
    Governor Pritzker. Well, you are talking about communities 
of color, right? I just want to make sure. Because, from my 
perspective, this is something that was so overlooked in the 
very first weeks of the pandemic in the United States. Then as 
the data was coming out, I think all of us, you know, that care 
about this jumped on it and tried to figure out, you know, what 
are the things that we can do to make up for, to try to, you 
know, diminish the negative impact of coronavirus, particularly 
on the African American community, the Latino community, the 
Asian community.
    Here, look, this is the conclusion that you have to reach, 
which is this is a result of, frankly, hundreds of years of 
failure to invest in basic health care, basic needs, you know, 
investment in communities that has been lacking for so long. 
The result is that, you know, you hear a lot about the 
comorbidities that exist in the African American community. 
Well, those don't just exist by accident. They exist because we 
haven't invested in those communities. So people suffer from 
the comorbidities more, guess what, in communities where there 
is more poverty.
    So, you know, from my perspective, to counter this, we put 
a lot of testing capability into, at least here in Illinois, 
into communities of color, particularly Black communities. We 
have seen, of course, a disproportionate number of Black people 
who get coronavirus dying from coronavirus. We also see a 
disproportionate number of Latinos getting coronavirus relative 
to their population size. So in both of those circumstances, 
you know, we had to react. There are different challenges in 
each of those communities that we had to react to.
    But when you asked me what are the causes, I mean, the 
causes are things that have existed for many, many years that 
only now, I think, not just with coronavirus highlighting the 
failures, but now on top of that, the recognition as a result 
of the, you know, outpouring of protests and peaceful protests 
in the wake of the murder of George Floyd that, you know, we 
need to do so much more. We are not prepared in this pandemic 
to deal with it. We need to make sure that we are doing 
everything we can now, but we also need to make sure we put the 
resources in so that, God forbid, if we have another pandemic, 
this isn't [inaudible]----
    Chairman Thompson. Thank you.
    Dr. Shah, you talked about a few things that we could do 
right now to try to minimize the increase in the numbers. Can 
you kind-of repeat that for the Members again?
    Dr. Shah. Sure. Thank you. Thank you, Mr. Chairman. To say 
it very bluntly is that we have to make sure that we are 
consistent in our policies and our messaging. I think that is 
the No. 1 thing.
    The second thing is that we also have to make sure that 
health and medical and science and evidence, the best we can--
we know it is not always there because this is a new and novel 
disease--that that is also driving those decisions. We are 
particularly concerned about the CDC and the fact that the 
visibility and the leadership that we have seen previously with 
CDC that has not been noted, at least at the local levels, in 
public health, and that is a significant concern.
    Then I do think that there are some preventive measures 
that are very much about the masks and really ensuring that we 
have the policies in place from a prevention standpoint that 
really can be very much a part of the solution forward.
    We have to be smart about it, but we also have to be 
thinking about how we can continue to move this process 
forward. Because this phase, the phased approach that we are 
having in our community is very different than the Governor is 
having in Illinois right now or you are having in Mississippi. 
Everybody is going through this at different times, and so we 
all have to be working together.
    Chairman Thompson. Thank you very much.
    Mayor Shelton, you were one of the first municipalities in 
Mississippi to require masks of your citizens, and your council 
supported you. How did you reach that conclusion?
    Mr. Shelton. [Inaudible]
    Chairman Thompson. Unmute yourself.
    Mr. Shelton. I apologize for that. Thank you, Chairman.
    We began our emergency protocol February 24. You know, we 
saw the pandemic coming toward us, so we made the decision then 
that this is an emergency, so we have to treat it like an 
emergency. So the 17 different executive orders we have done 
since then have all been based on the recommendations of either 
Dr. Fauci or the CDC, the Mississippi Department of Health. We 
have tried to follow the science. We have the Nation's largest 
rural hospital here in Tupelo, the North Mississippi Medical 
Center. A lot of the requirements that we have mandated have 
come from requests from the North Mississippi Medical Center.
    I do want to--I appreciate getting credit for that, though 
I want to make up for my friend, Mayor Robyn Tannehill in 
Oxford, and some of the others. Tupelo is not the first on the 
masks. We have been first on shelter-in-place and some of the 
other things, but I want to give credit to my fellow mayors 
where credit is due.
    But we based those decisions on the science, the 
recommendations, and, in our case, the requests of our medical 
professionals here. You know, this is a health care crisis. We 
have to listen to our health care professionals. We have to 
make sound decisions based on the science.
    Chairman Thompson. Thank you very much.
    At the request of the Ranking Member, we are going to 
recognize Mr. Higgins, who has a flight to catch. The gentleman 
from Louisiana is recognized for 5 minutes.
    Mr. Higgins. I thank the Chairman and the Ranking Member. I 
thank the Chairman for holding this hearing.
    As the Chairman and my colleagues are aware, I respectfully 
object to House proxy voting and remote committee attendance. 
The Senate is open and working in person, the White House is 
open and working in person, yet the House is not. Walmart, Home 
Depot, Lowe's, grocery stores, police departments, fire 
departments, maritime ports, airports, all open and working in 
person, but not the people's House. That is my position on 
that. I respect that of my colleagues, but it is important that 
we clarify our stance during this era of challenge.
    I have a question for the Governor. If you would, good sir, 
could you briefly summarize, what formula have you used to 
deliver CARES Act relief funding into your local government 
entities? This is a challenge across the country, and I am 
interested to hear how you have handled that.
    Governor Pritzker. Yes. Well, thank you very much, 
Congressman, for the question. Let me start with, we began in 
Illinois with a challenge. We didn't have a method, an entity 
through which we could distribute those funds, so we had to go 
to our legislature to have them pass a law to allow us to do 
that. They did that. The legislature hadn't met during the 
spring until mid-late May, and at that point, the legislature 
created the opportunity for us to distribute those funds.
    There is a direct amount of money that goes directly to the 
counties and cities across the State, the ones that are outside 
of the northeast metropolitan areas, which, you know, get those 
funds through their counties that got funding directly.
    Mr. Higgins. So, generally speaking, Governor, in the 
interest of time, have you----
    Governor Pritzker. Yes, sir.
    Mr. Higgins. Would it be fair to say that as the executive 
of your State, you have responded to a challenge that has never 
been faced before, and you have navigated your way through it 
within the parameters of the law, and you have done your best 
to respond to the local and municipal governments within your 
State? Is that a fair summary of your endeavor?
    Governor Pritzker. Yes, sir.
    Mr. Higgins. For the subsequent Governor--and I am sure you 
are a fine gentleman and supported obviously by the majority of 
the citizens of your State, but would it be fair to say that 
for the subsequent Governor, you have now determined a path 
forward for this particular type of challenge that was not 
known until you navigated through it?
    Governor Pritzker. Well, I wouldn't say that we have got 
everything figured out, Congressman.
    Mr. Higgins. But you are working on it?
    Governor Pritzker. But we certainly have--there is an awful 
lot of learning that has taken place from March until now. Yes, 
I believe that we have created a path for someone in the future 
to follow.
    Mr. Higgins. Thank you.
    May I respectfully state that that is exactly what our 
President has done in response to this incredible challenge 
that we have never faced before as a Nation.
    Now, I would like to ask the mayor, Mr. Mayor, what is your 
perspective, sir, for your municipality? Very briefly, have you 
had problems receiving funds, CARES Act relief funding from 
your executive, yes or no?
    Mr. Shelton. Well, Congressman, as you know, the CARES Act 
specifically prohibits loss of revenue funds----
    Mr. Higgins. I understand, and yet every State executive 
had received massive amounts of the people's treasure, intended 
to be distributed by the State executive, into local and 
municipal governments. So as a mayor, you sound like a smart 
and compassionate man. We thank you for that. Have you had 
problems receiving that funding?
    Mr. Shelton. Congressman, again, the lost-revenue funding 
is not available. My understanding is that the State is going 
to send for the PPE funds----
    Mr. Higgins. So you haven't received funding yet from your 
executive?
    Mr. Shelton. I would have to double-check that but not that 
I have been made aware.
    Mr. Higgins. All right. Thank you, sir. I don't know how 
much time we have remaining. We are absent a clock from what I 
can see, but--17 seconds?
    Mr. Hastings, I will leave you with this question: Do you 
believe that a public health crisis is best addressed at the 
local and State level or by Federal mandate? I yield.
    Mr. Hastings. I think it depends on your perspective. 
Growing up in the emergency management community, our strategy 
for handling all hazards is Federally-supported, State-managed, 
locally-executed. So we try to adhere to that as we partner 
with the Federal Government, with our State agencies, and our 
counties and municipalities, which are the pointy edge of the 
spear.
    A caveat to that might be, is that as the sixth-poorest 
State in the union, and heavily rural populated State, there 
are some counties and municipalities that need extra support. 
So we are sensitive to that in identifying gaps and then trying 
to plug in both Federal and State capabilities and resources in 
those areas as we can.
    Mr. Higgins. Given that response, I thank the Chairman and 
the Ranking Member, my colleagues across the country right now, 
and here in the District of Columbia. Mr. Chairman, I yield.
    Chairman Thompson. Thank you very much. We now yield 5 
minutes to the gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and I 
appreciate it very much to have the opportunity. Thank you to 
the witnesses. In 2016, the Obama administration developed a 
strategic playbook on pandemic preparedness, the playbook 
entitled ``Playbook for Early Response to High-Consequence 
Emerging Infectious Disease Threats and Biological 
Incidences.''
    I am reminded of the Ebola pandemic or episode, and it 
started, or it was certainly focused in Dallas, Texas. Had it 
not been for the focus of the Obama administration on 
infectious disease and cooperating relationships with the 
Federal Government, there is no way of knowing how disastrous 
Ebola would have been in the United States.
    The playbook was in the Trump administration, left behind, 
and it reportedly did not heed its guidance. The mortality rate 
was cited by the administration as the lowest in the world as 
it relates to COVID-19. Johns Hopkins indicated that it is the 
sixth worst in the world. We also heard the words that COVID-19 
would go away like magic.
    Governor Pritzker, thank you for your leadership. Would you 
focus in on the disaster that is created on top of the disaster 
when there is no National effort, there is no National 
strategic plan to be able to deal with COVID-19?
    Governor Pritzker. Well, thank you very much, 
Congresswoman. Let me just begin by saying that we had--
immediately, you know, we knew we needed supplies. So, PPE was 
something, you know, certainly a term that I don't think I had 
ever used before in my life. All of a sudden, we were out in 
the marketplace competing for the most basic things, like N95 
masks, gowns and such, to make sure that our hospitals were 
supplied, and then our first responders and so on.
    We are competing against every other State in the United 
States, States that have more resources than we do, countries 
that have more resources than we do, with no help from the 
Federal Government, no invocation of the Defense Production Act 
to help us out.
    So that was just the very first manifestation of the 
problem that, you know, people were going to work--our HEROES, 
our nurses, our doctors--going to work unable to use PPE that 
was so necessary to keep them healthy, so they could keep other 
people healthy.
    Ms. Jackson Lee. Well, Governor, we thank you for yielding.
    Governor Pritzker. So, that was just one example, but I 
will just add, the testing supplies, you know, were impossible 
to get, and the Federal Government was, you know, nowhere to be 
found for too long on that topic.
    Ms. Jackson Lee. For those of us who have interacted with 
the military, we know the saddest terminology is MIA, missing 
in action, very sad terminology. We mourn and continue to look 
for our soldiers, but when you are MIA, lives can be lost. Do 
you think lives have been lost throughout the United States 
because of that ineffective National strategy?
    Governor Pritzker. There is no doubt about it. Thousands 
and thousands of lives have been lost, tens of thousands, 
across the Nation, as a result of the inaction, the late action 
taken by the administration.
    Ms. Jackson Lee. Thank you.
    Dr. Shah, thank you for your leadership. Let me just cite 
right now into the record, Harris County has confirmed cases 
today, 39,311. There have been 395 deaths. This is as of 7 
a.m., July 8, this morning. Houston, 55,000 cases confirmed, 
581 deaths, this is in fatality. I have a document in my hand 
that I ask unanimous consent to put in the record, Texas 
Coronavirus Timeline * that was done by a number of individuals 
reported in the Houston Chronicle, that indicates May 1 was 
when our orders--our stay-at-home lift--orders were lifted 
rather, and then we proceeded to open everything up and we are 
now where we are today.
---------------------------------------------------------------------------
     * The information is provided at the conclusion of this document.
---------------------------------------------------------------------------
    Would you please respond to the idea of the ineffectiveness 
of saving lives when there is no National strategy, or when 
there is the early and too-early opening up of States in 
particular. Then, finally, when there is no cooperation, is it 
important to have cooperation between county and city 
governments? I want to thank Judge Hidalgo and thank Mayor 
Turner for their leadership. Also, if you would comment on what 
happens when 5,000 persons are coming to a community that has 
asked them not to come to, and all of the resources will have 
to be used as these people congregate for a convention?
    Dr. Shah. Thank you, Congresswoman, and thank you again for 
your support. Let me unpack that as quickly as I can in the 
interest of time. First and foremost, that in any time you have 
inconsistencies that are occurring across that chain of 
Federal, State, local, I don't really care where it is at, that 
is where you have the problems in the community, and that is 
where my biggest concern is.
    When it comes to what we have really looked at from why 
people are coming together, it does not matter, from a public 
health standpoint, whether it is a red or blue issue, whether 
it is a left or right issue. When people are coming together, 
that layers risk on top of each other, and that is the biggest 
concern, especially if it is an indoor--there is some 
difference between indoor and outdoor--but definitely an 
indoor.
    The other aspect of this that is I think is absolutely 
critical is that as we have played this out, the State and 
local dynamics are absolutely critical. But when you have the 
Federal Government not having a National strategy, what that 
does is that everybody is fending for themselves, everybody is 
doing things differently. While we believe in really State and 
local nuances, we also believe there should be a path forward 
that the Federal Government provides as we have seen in 
previous emergencies.
    Ms. Jackson Lee. You know, I have worked on testing sites. 
I would just like to have you emphasize how important it is to 
have testing sites, how important it is to continue to have the 
Federal Government maintain its testing sites, and how eager 
Harris Countyians and Houstonians are desperately in need of 
tests.
    Dr. Shah. That is absolutely right. Testing is the 
foundation of this response. Folks have focused on contact 
tracing and all these other, you know, terms in public health 
as if these are new terms. These are things that we have been 
doing for decades, but the foundation remains testing. Testing 
gives you then the cases. Cases then allow you to determine, 
after investigating who are the contacts, and that is when 
contact tracers come into mind, come into play, and then they 
turn around and reach out to individuals to get them tested, 
and you start that whole cycle over again. That is why testing 
is absolutely critical.
    Congresswoman, I have said, you cannot trace without a 
case, and, so, testing is the foundation, and we do need to 
have that testing support from the Federal Government.
    Chairman Thompson. The gentlelady's time has expired. I 
would now recognize the Ranking Member from Alabama for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Hastings, unfortunately, Alabama has had several 
natural disasters over the last 3 years that we have had to 
manage. How are you and your fellow EMA directors adjusting 
your plans to this health crisis created by COVID-19, and are 
you getting adequate support from FEMA in this planning 
process?
    Mr. Hastings. Ranking Member Rogers, thanks for that 
question. In my written testimony, it talks about, this has 
been a banner disaster year again for Alabama as the seventh-
worst major-disaster-declaration State in the Union. We have 
been complying with all the CDC and public health guidelines 
through the transition of stay-at-home and safer-at-home. Since 
we have been essential personnel, we haven't stopped a beat 
since the beginning.
    So at the beginning of March, we went into remote and 
dispersed operations. We deployed our people away from the EOC, 
and stayed connected via IT, and we did not accept--since we 
are--I declared everyone essential personnel, no one received 
unemployment and we kept working.
    So what we did is we just made sure that we wore masks when 
we were close to people. We socially distanced as we went out 
into the communities and working with our counties, because the 
locals is where the disasters happen, just like politics. So, 
we have changed the way we have done business.
    Now, there are some people who did not like that we went so 
early into remote and dispersed operations. But we were just 
executing the pandemic annex of our emergency operation plan, 
and we are fortunate to have our own IT division and a separate 
network that allows us to do those things.
    In preparation for the hurricane, which has had a lot of 
attention recently, we are working with the CDC guideline, 
public health guidelines, FEMA preparedness plans, the Red 
Cross, and local communities, both Baldwin and Mobile County, 
to reexamine the preferred method of non-congregate sheltering.
    But it is very challenging, because as well as you know, 
between the coast and middle Alabama, there is not a whole lot. 
It is the rural south. So, to find opportunities for non-
congregate sheltering to house people in a disaster is very 
challenging. So we are going to have to find a blend of 
congregate sheltering, complying with public health orders, and 
then also, soon as we can, get our survivors, our evacuees, the 
folks looking for a shelter, back into some type of non-
congregate shelter in a hotel, a larger amphitheater, or some 
of those larger coliseums that we have in Montgomery, Alabama, 
and a few places in the coastal counties.
    But it has entirely changed everything that we do, and it 
has made us question whether we can even go to the State 
Emergency Operation Center, because you only have 2 feet, 3 
feet, between 125 people, 100 feet below ground.
    So we have also looked at other opportunities, like the RSA 
Towers in Montgomery, of where maybe we, on a floor or Joint 
Forces Headquarters of the National Guard, we would stand up a 
Joint Force office and administer and partner with our Federal, 
State, and local communities, to manage and navigate a disaster 
in the upcoming season. Hope that answers your question, sir.
    Mr. Rogers. Well, both the Chairman and I care very much 
about hurricane preparedness, so I appreciate that. But back to 
COVID-19, you heard Governor Pritzker talk about the demand for 
PPE. How has Alabama managed demand for PPE outside the health 
care sector?
    Mr. Hastings. It has been challenging. As it has evolved, 
there are portions of the PPE that are now available to us. So 
we just got 2\1/2\ million cloth masks. We helped the Alabama 
Superintendent of Education procure 2\1/2\ million masks, 
partly youth masks and adult masks, for the upcoming education 
season.
    But where we are having problems, and it is hard to get 
visibility of the health of the supply chain, and also to 
actually get our hands on these medical-grade masks, are the 
N95s. So we still have a shortage. As soon as we get any of 
those in, whether it is from the Federal Government or a 
stockpile, it goes right out to the hospitals. The hospitals 
are receiving those, both from the task force of the White 
House, through normal supply chains, but it is not ``normal'' 
yet. It is not to the levels that it was pre-COVID-19.
    Then we are working through the Big Six supply chain, and 
we have a call with the Federal Government, the Supply Chain 
Task Force, on Friday, to see how Alabama, a small State, can 
maybe partner with the Federal Government, other regions, to 
get higher prioritization for these critical, medical masks, 
both for our hospitals now and to build a stockpile for the 
upcoming fall COVID surge.
    Mr. Rogers. OK.
    Mr. Chairman, my time is expired. I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Rhode Island, Mr. Langevin, for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank all 
of our witnesses for their testimony today.
    Governor Pritzker, if I could start with you, thank you for 
being here today. I just want to go back to the discussion 
about PPE, and really, the dire challenges you had in acquiring 
PPE for your State to begin with. You described it as a Hunger 
Games competition, so to speak.
    So I think you, and I would clearly agree that it would 
have been much more effective for the President to truly invoke 
and use the Defense Production Act, where it could have been 
both used for acquisition and distribution of PPE. We would 
have gotten a bulk price, the taxpayer would have got a lower 
price, and we would have been distributing more effectively.
    It was the position of the administration--and I have had 
the opportunity to speak directly with the director of FEMA--
that they would acquire the equipment and then they put it into 
the pipeline, so to speak, but not using the Defense Production 
Act. Can you tell us where we are today? Did that strategy ever 
work in terms of putting into the commercial pipeline? How are 
you and other States doing today in terms of being able to 
access PPE now?
    Governor Pritzker. Two different answers. First of all, the 
air bridge, as you are, you know, talking about, the air bridge 
was designed to bring supplies, you know, and give them to 
distributors in the United States who already had a list of 
customers, not based upon where the need was for dealing with 
COVID-19, but simply customers that were preexisting, that they 
needed to provide supplies to, because that is what you do for 
your customer list, and prioritize them based upon your 
business dealings.
    Those supplies, sure, they worked their way through the 
United States but not prioritized for COVID-19. So I think the 
air bridge was an utter and complete failure in the sense that 
most of the supplies need to go to areas where there is a great 
need, and not necessarily to where some private, for-profit 
distributor thinks they need to feed a preexisting customer. So 
that is one thing.
    Where do we stand now? We have been constantly, I mean, 
from Day 1, we have been out in the marketplace, competing to 
get PPE, and you know, the State of Illinois, as a buyer, we--I 
had many conversations directly with manufacturers, and I can 
remember one in particular who basically said to me, Look, you 
know, I will allow you to acquire this amount of these PPE 
items, or this equipment, if you will up your order by X amount 
so that you are greater than this other customer who is 
promising to acquire, you know, a certain amount. So, 
essentially, pitting me against another customer.
    In an environment in which we have a pandemic--people are 
dying, you know--I am having to make decisions, you know, based 
on some business person's desire for greater profit. So that 
was very troubling.
    Today we have acquired a lot of PPE. We have made sure that 
we have got a constant supply, and we have orders that are on-
going on a regular basis. I would say prices have come down. 
The environment is a little bit better. It is not back to 
normal. Someone else on the panel said, you know, this is not 
pre-COVID pricing, but we are paying a lot less today than we 
were at the very beginning, and we are able to acquire PPE here 
in Illinois.
    Mr. Langevin. All right, thank you, and, hopefully, that is 
the case with other Governors in other States, but clearly, not 
the most efficient system. It would have been better to have 
the PPE be directed to where it is needed most based on need.
    Let me ask this on preexisting conditions and health 
insurance. You know, on June 27, President Trump had tweeted 
the following statement, where he said, ``I will always protect 
people with preexisting conditions, always, always, always.'' 
Now, The Washington Post fact checker has stated that this 
claim is untrue. So, the President's claim that he would 
protect preexisting conditions received this rating, in part, 
because--and I quote--in the middle of a pandemic, against the 
advice of many Republicans, the President is trying to ask the 
Supreme Court to strike down the entire Affordable Care Act, 
including coverage guaranteed for people with preexisting 
conditions.
    So Governor, I want to ask, you know, how does the lack of 
health insurance, especially in vulnerable populations, 
exacerbate the current public health crisis? And Governor, as 
we approach the 30th anniversary of the Americans With 
Disabilities Act--and I am someone who lives with a 
disability--how important is the Affordable Care Act's 
guaranteed coverage of preexisting conditions particularly for 
people with disabilities?
    Governor Pritzker. Well, the guarantee of coverage for 
preexisting conditions is vital. It is probably the most 
important aspect of ObamaCare and the expansion of Medicaid. 
The idea that we would do away with this, particularly at this 
moment in history, seems just unimaginable to me.
    Look, first we have got to make sure--and I mentioned it in 
my remarks--we have got to make sure that everybody knows they 
can get a test for free, that they shouldn't be dissuaded from 
getting a test thinking this is going to cost them, you know, a 
lot of money. Hopefully, you have got private coverage, but if 
you don't, let's make sure everybody can get a test, because 
that is the most important thing, along with contact tracing, 
that we can do going forward--masking being another one--so 
that we can identify--you know, testing allows us, and contact 
tracing allows us to identify where the outbreaks are and 
minimize them. So we want people to get tested.
    Then, of course, when people get sick--I mean, this is a 
National emergency. People should be able to get health care. 
They should be able to get treated. We should be keeping 
everybody alive and not having people think about whether or 
not they should go to the hospital in the first place when they 
are contagious and when they are symptomatic.
    So I am very concerned about where we are, and all I can 
say is that we have got to make sure that we maintain our 
Medicaid coverage and make sure that, particularly people who 
are having difficulty getting testing, know that it is 
absolutely free to them.
    Mr. Langevin. Very good. Governor, thank you very much. I 
know my time is expired.
    Chairman, I yield back, but I thank all of our witnesses.
    Chairman Thompson. Thank you very much. We now recognize 
the gentleman from New York for 5 minutes, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, and thank you all for 
being here.
    Governor Pritzker, just a very quick, succinct question. 
Via the average, did the State of Illinois get stockpiles of 
PPE that were being brought in and then you decide where to 
disperse them throughout the State? Because I know that is what 
happened in New York.
    Governor Pritzker. Not through the air bridge. The air 
bridge was bringing in equipment, PPE, that was being given to 
distributors. To the extent there were Government entities that 
happened to be on the customer list of the distributors that 
received those supplies, they may have received them.
    But in terms of what we got as a State, we were asked at 
the very beginning, Congressman, what do we need, which is a 
terrific question for the Federal Government to ask. So we put 
forward a list of all the items--gowns and gloves and N95 masks 
and so on--that we needed. We have, in total, from the very 
beginning to now, we have received about 12 percent of 
everything that we asked for. So at some point, the Federal 
Government just gave up on delivering----
    Mr. Katko. I understand what you are saying, but I just 
want to question, did you receive anything from the air bridge, 
and the answer is no. Did you receive stockpiles from FEMA at 
all, then you decided where they would go?
    Governor Pritzker. We did receive--that is what I am 
talking about. The 12 percent of what we asked for, we received 
12 percent, and we were able to direct that where we thought it 
should go.
    Mr. Katko. You were aware, were you not, that the biggest 
problem with the PPE shortage at the beginning of the crisis--
and it got exacerbated as the crisis spread--was the fact that 
our National stockpile was not where it should have been, 
correct?
    Governor Pritzker. That is true, yes.
    Mr. Katko. That has been a systemic problem that spans 
several administrations, not just this one?
    Governor Pritzker. I am not sure. All I know is the Federal 
Government didn't have what it needed.
    Mr. Katko. Right. OK. That is what I thought. OK. Tell me, 
I got a quick one, switching gears basically, Governor, did you 
ever institute a policy in Illinois whereby individuals that 
came from nursing homes that had been infected with the 
coronavirus were sent back to the nursing homes after being 
diagnosed?
    Governor Pritzker. We did not institute a policy like that, 
no.
    Mr. Katko. Why not?
    Governor Pritzker. We wanted--well, No. 1, we were making 
sure that the hospitals were releasing, if they were releasing 
nursing home residents, that they were COVID-free.
    Mr. Katko. Right.
    Governor Pritzker. So when they went back to their nursing 
homes, they were COVID-free. That was something that we had. 
Also in our nursing homes, we had a policy of making sure that 
the nursing homes--or we provided for the nursing homes, a 
policy that they should separate, of course, COVID-positive 
from COVID-negative residents.
    Many of them did. I will say some of them didn't do it 
right, and, you know, we are holding them accountable.
    Mr. Katko. OK. Thank you very much.
    Mayor Shelton, I love Elvis, so I am going to ask you some 
questions. When I left as a Federal organized crime prosecutor 
in El Paso, my parting gift was a velvet Elvis picture, so--and 
I still have it in my office today. That was 20-some-odd years 
ago. I am curious, you are a city of less than 500,000, and 
homes in my area, in my district, I have the city of Syracuse, 
which is less than 500,000, and the county it is in, including 
the city, is less than 500,000. So under the CARES Act, they 
have received no direct funding, and I presume you have not 
either?
    Mr. Shelton. That is correct, Congressman.
    Mr. Katko. Have you received any funding from the State 
that was sent by the Federal Government?
    Mr. Shelton. No. My understanding is we have not. Now, we 
have been told that we have been approved for some funding for 
different things, but as far as actually receiving those funds, 
I just asked my communications director to double-check, and 
she said we have not. But my understanding is we have not 
actually received any of those funds of the $1.2 billion that 
was sent to the State of Mississippi.
    Mr. Katko. Yes. Here is the oddity with our--just to the 
right, Syracuse in the city--in the county of Onondaga received 
no money, similar to you. Just to the west of me is the city of 
Rochester in the county of Monroe, and because there were just 
over 500,000, they received over $120 million in the last 
package. So the disparity in support for the 2 cities is 
stunning.
    So tell me, as a small city, what you would do if you got 
that money, and what it would help you prevent doing?
    Mr. Shelton. Well, thank you, Congressman, and that is the 
crux of the matter. So the things that we would do are basic 
city services. So every business in the city of Tupelo has to 
make sure that literally the lights are on on the streets, you 
have first responders, that you have firefighters, that you 
have police officers, that you have the ability of public works 
to respond if there is a water--you know, a water break, you 
know, some sort of, you know, the incidents that happen in 
cities every single day, fixing potholes, cleaning up, 
beautifying the city, those basics, that is what is in 
jeopardy. The city is collectively losing $360 billion.
    So, you know, we have the big-picture issues in Washington 
and our State capitals, but the nuts and bolts of American 
society happens in our small cities and in our counties all 
across the country. Those basic city services of literally 
being able to drive down a decent street and have functioning 
red lights, have your garbage picked up at your curb, have 
litter, debris picked up, those basic services.
    Then you get beyond that when you talk about economy--the 
permitting office, building inspections, code enforcement--all 
of those local offices that are necessary to make sure that 
businesses are open and running, that a new business can get an 
occupancy permit, that a new construction project can be 
inspected. All of those type things are jeopardized by the loss 
of revenue to cities and counties across the country, where we 
don't have the money, you know, we have to do cutbacks or 
furloughs, and those basic city services don't get performed. 
That directly--that has a direct adverse impact on mom-and-pop 
businesses and individual families all across the Nation.
    Mr. Katko. All right. Appreciate that. It is very helpful. 
Last, I want to thank you, Governor Pritzker, for acknowledging 
that. You have done an awful lot of learning during this 
crisis. I think we all have, and I think that starts at the top 
of government, all the way down to the States and locals as 
well.
    We all have a lot to learn from this, and I have submitted 
a bill to Congress along, with my colleague and good friend, 
Stephanie Murphy, from the Democratic side of the aisle, to 
form a 9/11-type commission after this is all over to look back 
and see what we can do better next time.
    It is easy to criticize, but now, I think as you 
acknowledge, the lot of learning that you did on the job and I 
think everyone has from the top down.
    With that, I yield back. Thank you.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman, and I guess 
following the gentleman from New York, I will, in a minute, 
call BS when I think I hear BS. Let me start with thanking you 
for your holding this hearing and your patience.
    I mean, my colleague from Louisiana, Mr. Higgins, talked 
about how important it was for people to actually be in the 
room and be there so that we could have this hearing as he 
asked to skip the order so that he could go catch a flight and 
leave the hearing.
    So I just want to make sure that, while we are having this 
call, that we are honest. This issue is far too important to 
the American people to simply politicize it or play defense.
    Mr. Katko mentioned that learning is important in this 
role, and I agree with him 100 percent, but I also would say 
that accurate information to the American people is very 
important. With that, let me just ask one basic question to all 
of the witnesses: Do you all agree that wearing a mask is a 
basic tool to containing and beating the coronavirus? Could you 
answer with a yes or no, please?
    Governor Pritzker. Yes.
    Mr. Shelton. Yes.
    Dr. Shah. Yes.
    Mr. Hastings. Yes.
    Mr. Richmond. Hearing that we are in unanimous agreement, I 
think that it is, unfortunately--if we are going to talk about 
learning, I want to make sure that all my colleagues understand 
how important it is. My colleague who left the hearing early, 
in his area, said, what you are wearing is a bacteria trap. It 
is not helping your health or anybody else's. That is not 
learning. That is not accurate information. That is Mr. 
Higgins' quote.
    His next quote was, wearing a mask was dehumanization of 
God's children. I just want to say that the biggest rise right 
now in Louisiana, in terms of coronavirus spreading, is in Mr. 
Higgins' district. I use that not to pick on Mr. Higgins, but 
to highlight that accurate information to people in this 
country, and leading by example, is one of the ways that we are 
going to defeat COVID-19 and save lives, not Republican lives, 
not Democratic lives, not Black lives, not White lives, but 
that is how we are going to save the lives of people, and I 
think that that is very important.
    Mr. Shelton, let me ask you a question. You mentioned the 
essential workers, and I want to talk about that. Let's take 
your public transit bus drivers, or any of your essential 
workers, are any of them getting hazard pay?
    Mr. Shelton. Well, we have a--Congressman, thank you. We 
have an emergency plan here for workers that we get time-and-a-
half, everybody that was with the city. Our State enacted a 
policy to allow us to put people on administrative leave. So in 
Tupelo, we utilized those policies so that every city worker in 
the city of Tupelo received their salary, and then those that 
worked during the emergency got time-and-a-half.
    More specific toward transportation, though, that is 
actually something that is in very real danger of getting cut 
altogether from the budget cuts. We have already cut over $2.5 
million from our budget.
    We have got budget time coming up. Our municipal budgets 
have to be finished by September 15, and our municipal 
transportation system very well could not survive this year's 
round of budgets due to lack of funding.
    Mr. Richmond. What about those city services that you may 
contract out? I mean, in some places they contract out their 
labor or staffing, their bus drivers or their sanitation or 
their hoppers. How are you providing hazard pay for bus drivers 
or others that may be privatized?
    Mr. Shelton. Well, our transportation system is contracted 
out, so that is private. Our waste collection is private 
through waste management. So those, you know, other than city 
of Tupelo maintaining our payments, those companies are 
responsible for making sure the employees get paid.
    Now, some of them, my understanding, have taken advantage 
of some of the unemployment benefits through the CARES Act. 
There are a lot of great benefits that have helped a lot of 
people, and I, again, want to thank this body for passing that. 
But it has been a challenge.
    Mr. Richmond. Since I am about to be out of time, but the 
HEROES Act would allow us to send you a substantial sum so that 
you could provide hazard pay for your city employees, but also 
make sure that those who are providing city services would have 
the ability to receive some sort of hazard pay also and protect 
them?
    Mr. Shelton. That is absolutely correct, Congressman. Thank 
you. The HEROES Act would be a huge help to local governments 
all across the United States of America.
    Mr. Richmond. Thank you, and with that, Mr. Chairman, I 
yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Arizona, Mrs. Lesko, for 5 
minutes.
    Mrs. Lesko. Thank you, Mr. Chairman, and it is good to see 
the other Members, if not in person, virtually.
    Governor Pritzker, I have a question for you. You had said 
somewhere along this testimony that you wanted to thank all of 
the Congress Members that voted for the HEROES Act. In the 
HEROES Act, there is a provision that released Federal 
prisoners 50 years old and older, no matter what type of crime 
they had committed, and it also financially incentivized States 
to do the same.
    In a letter that our office received against a bill that 
was included in the HEROES Act, it says, we are incredibly 
concerned--and this came from an organization called Rights for 
Girls, which is an organization that protects girls and women 
from sexual trafficking--sex trafficking and violence, and it 
says, ``We have been contacted by survivors from several States 
that are extremely distressed about the wide-spread release of 
people from prisons, including those with histories of sexual 
violence, sex trafficking, and child-sex offenses.'' Do you 
support that provision of the HEROES Act as well?
    Governor Pritzker. Well, I haven't read that provision, but 
I can tell you that here in Illinois, you know, we have been 
very careful looking at our prisons to make sure that any 
releases that have been done--and there have been some--have 
been people who have committed nonviolent offenses, people that 
were near the end of their term, their sentence, and, indeed, 
making sure that we are doing the best that we can to keep 
COVID-19 away from the staff, you know, the officials that work 
at our prisons, as well as the prisoners themselves.
    You know as well as I do that the congregate settings, in 
every circumstance--and it is certainly true in prisons--are, 
you know, are just, you know, petri dishes, potentially, for 
COVID-19. So we have done as much as we could, but----
    Mrs. Lesko. Thank you, Mr. Governor. I have to ask the next 
question, just because I have a limited period of time if I 
didn't. But at least it sounds like you are making some common-
sense decisions about not releasing just anybody and everybody.
    The next question I have is in the HEROES Act, it actually 
would allow--or have the IRS pay illegal aliens $1,200 in those 
relief payments. Do you support that provision of the HEROES 
Act as well?
    Governor Pritzker. Well, look, we have undocumented 
residents in the State of Illinois, and it is important for us 
to make sure that they are supported in some fashion, that they 
are not starving, that they are people who can survive. So, you 
know, we are supporting them at the State level, and we 
certainly would appreciate support from the Federal level.
    Mrs. Lesko. All right. Thank you, Mr. Governor. Also, Mr. 
Governor, you had said in your testimony today that we need a 
National masking mandate. I don't know about Illinois--and I am 
going to ask you about Illinois--but in Arizona, there are some 
portions of the State of Arizona, some rural areas, that don't 
have any cases. So in Illinois, I assume it is the same. Do you 
think that even if a--like an area that has no cases at all, 
that you should mandate people wearing masks if there is 
nothing happening in that area?
    Governor Pritzker. I do, and here is why. This disease, 
this infection, knows no boundaries. The fact is that people in 
our rural areas, in southern Illinois, for example, we have an 
infection rate, a positivity rate, that is now roughly the same 
as the positivity rate in the city of Chicago----
    Mrs. Lesko. All right. Thank you.
    Governor Pritzker [continuing]. So this can go anywhere.
    Mrs. Lesko. Thank you, Mr. Governor. So then, since you 
want this top-down mandate on masks, would you also agree that 
we should have a top-down National mandate on the violence that 
is--gun violence, the shootings of residents against residents 
in Chicago, should the National government come in and do 
something about that as well, instead of the local and the 
State?
    Governor Pritzker. Actually, the Federal Government does 
provide some funding to help us fight violence, and we use that 
appropriately.
    Mrs. Lesko. But should it be a mandate, as with the masks, 
from the National level down?
    Governor Pritzker. Well, I do think the Federal Government 
should provide violence prevention funding and helping us to 
deal with the violence that exists in cities all across the 
Nation, yes.
    Mrs. Lesko. Thank you, Mr. Governor. I wasn't asking about 
funding. I was asking about a mandate, like the mandate that 
you want on mask-wearing.
    So with that, I will yield back. Thank you.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New York, Miss 
Rice, for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman. I would just like to 
throw out to all of the witnesses. We are--in my district, 
school districts work independently, and they are each coming 
up with a plan as to how they are going to reopen schools. The 
mayor of New York city just said that New York city school kids 
will be coming back very likely 2 or 3 days a week with a 
severely-reduced class size.
    We have already seen how difficult it is for kids to get a 
quality education when they are learning from home, for a whole 
host of reasons. I would just start with the Governor, and then 
go through everyone else. How are you looking at reopening the 
schools? Has that decision been made yet in your State, and are 
you following the CDC? You know, the President came out today 
and basically said that, don't listen to the CDC, because their 
guidelines are ridiculously restrictive, whatever that means, 
and he has said now that we should all wait for guidance to 
come directly from the White House. I don't know what he has 
based that guidance on, but if it is not on the CDC, I really 
don't know what value it is going to have.
    So, Governor, if I could start with you and then just go 
through everyone else, that would be great.
    Governor Pritzker. Sure. Well, I think if the President 
really wanted schools to be open, he wouldn't have just said 
it, he would have put forward a plan. But here in Illinois, we 
are--you know, our Board of Education, in fact, did put forward 
a plan. It is a plan that takes into account that there are 
differences between the more rural areas of our State, the 
suburban, and the urban areas, and allows the local school 
districts to adjust how they would reopen.
    There are areas where it will be difficult to bus everybody 
in a rural area to the school, because there are only so many 
school buses. We can't have the school buses packed with kids 
in the morning going into school and packed with kids going 
home. So, you know, we have got to make sure that we have got 
shifts, let's say, or that kids are perhaps coming in on 
alternate days.
    Remember, we are also trying to save the lives of and the 
health of the people who work at the schools--our teachers, our 
paraprofessionals. So, you know, this is a challenge, there is 
no doubt about it, and we are watching our metrics very 
closely, so that we can make adjustments, and we will be making 
decisions along the way here. But as for now, we have provided 
at least guidance for school districts about how they should 
open.
    Miss Rice. Anyone else have any thoughts on that?
    Mr. Shelton. Yes. Thank you, Congresswoman. You know, we 
have known since this pandemic started in March--you know, 
before March, got to the country in January--we have known that 
we have got--that we are going to have to open schools in the 
fall. The President, you know, contradicting CDC today is part 
of what I said--you know, what I was alluding to in my opening 
statement and my submitted documents, that that exacerbates the 
problems that local officials are having.
    You know, when I issue an executive order here, and then 
the President--you know, my executive order is based on CDC 
recommendations--and then the President gets on Twitter and 
says, don't believe that, well, the President's passionate 
supporters are going to listen to the President and not the 
CDC. That complicates the ability of government at every single 
level to be able to respond to COVID-19.
    As far as our school district here in Tupelo, it is, like 
you mentioned, a separate school district. They have a plan to 
reopen in August, but they are kind of going day-to-day, seeing 
how the situation [inaudible] if the cases continue to rise 
here.
    Dr. Shah. Congresswoman, here in Texas, from a public 
health perspective, Texas Education Association has, just 
yesterday, put out some guidelines related to how schools will 
reopen here in Texas. We have been working with some of our 
school districts prior to this, and I think the concerns that 
individuals have is what you have just heard from the Governor 
and the mayor, which is really about not just protecting the 
students, but also protecting the staff and any visitors that 
are coming in. It is the entire group of individuals that need 
to be protected. So, there are concerns that schools have 
related to that safety piece.
    Obviously, we have an increase in cases, and we have 
increase in concern and worry in our community as well as 
[inaudible]. So I don't believe it has been worked out, but I 
will tell you that those guidelines are being looked at very 
closely, not just at the State level, but at the local level, 
not just in the education system, but also in the public health 
system.
    The concern is to make sure that we have an approach that, 
again, is common-sense driven, that we want to make sure it is 
also based on evidence and science, but it also assures the 
safety and health of everyone involved, and that also may mean 
that a hybrid approach of in-person, in addition to obviously 
virtual, that some of those approaches need to be part of it.
    Miss Rice. Colonel Hastings.
    Mr. Hastings. Thank you, ma'am. In Alabama, I am not the 
superintendent of schools, but I know that Dr. Eric Mackie has 
been in close coordination with Dr. Scott Harris, our public 
health officer, and they put forth a road map to open schools 
that I thought was very reasonable, followed CDC guidelines and 
public health orders.
    But ultimately, like in your State, ma'am, here in Alabama, 
it will be a local decision of how the schools open. Because we 
are a diverse tapestry of 67 counties and a tribe of a 
multitude of personalities, cultures, and a way of living. You 
can't mandate from a central point down and have it work.
    So I feel like there is enough information out there for 
our local superintendents and principals to find that happy 
medium to make parents feel safe, children feel safe, faculty 
feel safe, and to make sure that children coming together in 
close quarters, you really need to be careful, because they may 
be the perfect vector of this disease, and then they bring it 
back to Alabama. In Alabama, especially in rural Alabama, we 
have multigenerational homes.
    So that is all going into this, and how we use the CARES 
Act money, the CARES Act money given to the school districts, 
and then allowing the counties to partner to operate in a way 
that is good for them.
    Miss Rice. Thank you all very much, and thank you, Mr. 
Chairman. I yield back.
    Mr. Rogers. Mr. Chairman, this is Mike, Mike Rogers. Can 
you hear me?
    Chairman Thompson. Ranking Member, go ahead.
    Mr. Rogers. Yes, sir. I just wanted to make sure that you 
were aware that we are having a problem with the public feed. 
None of Mrs. Lesko's and most of Miss Rice's testimony was not 
seen. They were looping Cedric Richmond's questioning 
repeatedly, but it is back up now, but just wanted you to be 
aware there is a problem.
    Chairman Thompson. Thank you. We were about to recess to 
create the ability to go on-line again. Our YouTube channel is 
down. So thank you, Mr. Ranking Member, and we will recess 
shortly and reconvene subject to the call of the Chair.
    Mrs. Lesko. Mr. Chair, this is Congresswoman Lesko. I have 
a question. Mr. Chair? I just want to know if--because I have 
another appointment I need to go to, if I have to reask my 
questions, or are the questions recorded and the answers that 
the Governor gave, so you can rebroadcast them later?
    Chairman Thompson. Well, I can't give you that question 
yet. I will talk to the technical people. If we can, we will do 
that. Other than that, if you can submit it in writing, I am 
sure we can get it. But the technicians are working on the 
problem right now. We will recess subject to the call of the 
Chair.
    [Recess.]
    Chairman Thompson. Well, we would like to reconvene our 
hearing, and, Mr. Bishop, we will go to you for questioning 
since Mr. Crenshaw is not available. If he comes, according to 
the rules, we will just go back. So the gentleman will be 
recognized for 5 minutes for questioning.
    Mr. Bishop. Thank you, Mr. Chairman. Can you hear me?
    Chairman Thompson. Yes.
    Mr. Bishop. Thank you, sir.
    Governor Pritzker, I was struck by the certitude of your 
criticism of the administration's efforts. I was just looking 
on the Worldometers website, and it appears to me that in terms 
of the experience measured by deaths per million during the 
pandemic, a number of nations have had worse experience than 
the United States. Of the larger ones, the United Kingdom, 
Spain, Italy, Sweden, and France have all suffered worse 
results. Do you believe that those nations also have had a 
failed response--national response?
    Governor Pritzker. Look, what I can tell you is that we 
were--a lot of promises were made to the States, including to 
us, that were not delivered upon. That is what I was really 
referring to. I am not comparing us to other nations 
specifically. I am just saying the Federal Government, the 
White House in particular, had made promises about the delivery 
of PPE, about testing supplies, had the capability to allow the 
CDC to give us more guidance, and really, you know, very little 
of that was delivered.
    Mr. Bishop. One of the things that has gained a lot of 
currency, and the President refers to it a lot, is that his 
early decision to cut off entries from China other than U.S. 
nationals, do you concur--a lot of Democrats criticized that--
do you concur that the President made the right decision in 
that regard?
    Governor Pritzker. Well, I think we all are seeing now 
that, you know, travel by people who may be infected is 
something that everybody's paying attention to, and that, you 
know, limiting that by people who, again, come from areas that 
are--have significant infection rates is important. So I--
again, I have not been somebody who has talked about that.
    What I have talked about, though, is the way in which that 
was done. You know, we had a problem on the days in which the 
President just decided and announced it, really nothing was 
done to help airports deal with the problems of all the 
incoming, international passengers from those places. Many 
people were desperate to get back to the United States who may 
have been U.S. citizens living in places like China or in 
Europe----
    Mr. Bishop. Thank you, Governor.
    Governor Pritzker. Yes. So--let me just say, we had an 
overrun of people--it was a real problem--packed into a----
    Mr. Bishop. Let me change subjects just a bit. You were 
particularly critical on the PPE thing, and you made reference 
to that again. I guess Illinois maintains a stockpile of PPE. 
Is that correct?
    Governor Pritzker. That's right. We had a stockpile to 
begin with.
    Mr. Bishop. Why didn't you have bigger stockpile?
    Governor Pritzker. Well, look, I can't answer that 
question, because those stockpiles were put in place before I 
became Governor, but what I can say is--and I think I heard one 
of the other panelists talk about--that there were leftovers 
stockpiles from H1N1 that had expired, that had to be, you 
know, reupped and allowed--yes.
    Mr. Bishop. Suffice to say that if you had larger 
stockpiles or any State had larger stockpiles of its own public 
health supplies, they might be less inclined to cast blame or 
find blame with the Federal Government for the amount of its 
stockpile. Fair to say?
    Governor Pritzker. Well, I would say this is certainly an 
unprecedented pandemic, but I would also say that the Defense 
Production Act, it wasn't really a criticism that we didn't 
have the stockpile at the Federal level. It was that we could 
immediately have invoked the Defense Production Act in order to 
help us rebuild those stockpiles.
    Mr. Bishop. Let me ask you about that. So, I mean, what 
that would assume is that by taking command, control, of the 
economy for producing PPE, we would produce more and faster and 
get them distributed to the right place and leave the existing 
economic actors in place. Is that what you believe? Do you have 
any evidence to support that that would have been better?
    Governor Pritzker. Well, the existing economic actors were 
not prioritizing PPE to the places that were needed in this 
pandemic. It was the States and local governments and emergency 
management personnel and health officials that----
    Mr. Bishop. And hospitals, right?
    Governor Pritzker. And hospitals too. My point is that we 
weren't getting that PPE from the Federal Government, and what 
we needed was to--yes, we needed the Federal Government to 
organize the market, to direct those resources so that we could 
use them to save lives.
    Mr. Bishop. What is to say that in the context of a 2-month 
period of time, or 3-month period of time, the Federal 
Government taking over that market with a command-and-control 
structure would have produced more, and in the right place, 
than allowing the market to function with augmentation of 
efforts from the Federal Government, such as FEMA directing 
resources, as it did? [Inaudible] confidence to that effect.
    Governor Pritzker. Right. Well, look at what happened with 
the air bridge. You know, the distributors who received the 
items through the air bridge distributed them, again, not based 
upon where the need was, but based upon where their customers 
were, you know, who they had as historic customers, not where 
the need was right at that moment. That is precisely what 
Defense Production Act invocation would have allowed the 
Federal Government to do, to direct the resources where they 
were needed.
    Remember, New York, California, other States that had an 
immediate rise in cases, PPE could have gone directly to those 
places immediately, to Chicago and to Illinois, where we needed 
it. Of course, we knew where the hotspots were. So, again, 
having some direction from the Federal Government would really 
have helped.
    Mr. Bishop. Thank you, Mr. Chairman. My time is expired, 
and I yield.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from New Jersey, Mr. Payne, for 5 
minutes.
    Mr. Payne. Thank you, Mr. Chairman, and I would like to 
thank the witnesses for being here.
    Governor Pritzker, Illinois, like my home State of New 
Jersey, has made serious progress in combating the spread of 
coronavirus. Although, you know, we still both have a long way 
to go. At a time when much of the actual attention is focused 
on new hotspots, such as Florida, Texas, and Arizona, are you 
getting everything you need from FEMA to continue the fight 
against the COVID-19, and ensure that the recent gains are not 
short-lived?
    Governor Pritzker. Well, thank you, Congressman Payne, and 
let me first congratulate you on your victory yesterday. I 
happen to have spoken with your Governor last night to get his 
advice on a matter or two. Let me just say that, look, we need 
more help. There is no doubt about it. You know, we are trying 
to expand--desperately trying to expand our testing in the 
State of Illinois. We think that is a hugely important thing.
    We have done--we have made a lot of progress on it, but the 
Federal Government, once again, can be more help to us in that 
process. They were, by the way, along the way. Not at the 
beginning, but by May, the Federal Government was, in fact, 
sending us swabs, which was something that we needed 
desperately, I think were needed around the country.
    There is so much more that is needed, though. Let me just, 
you know, go back to something I said in my remarks, which is, 
remember that our State and local governments, because there is 
a failure of revenues as a result of COVID-19, are going to be 
faced with massive layoffs for first responders, for the basic 
services that people need across our State and across our 
Nation.
    Without those resources, I mean, what we have seen as a 
health care crisis, where we have had to put a lot of dollars 
into public health, is, of course, now also become a financial 
and economic crisis. We don't want it to be exacerbated by 
having State and local governments make massive cuts to the 
very services that, at this critical moment, people really 
need.
    So I would just say that if I had to name, you know, among 
the things that I have talked about, one of the most important 
things is making sure that our State and local governments can 
do what they need to do during this terrible crisis, because it 
is not over, and it is not ending in the next couple of months. 
We need to see a very effective treatment or a vaccine before 
we can get beyond this.
    Mr. Payne. Absolutely. You know, to the point about the 
Federal Government, you know, in the HEROES Act, we tried to 
address that with the aid to State and local governments, but 
it is sitting over there in the Senate with the other 600 bills 
that we have passed over this Congress.
    So, you know, maybe one day they will decide to pick them 
up and take a look at them while the American people languish 
with this dreaded disease.
    I tend to agree with you, this administration has been less 
than desirable in their attitude in reference to this. FEMA has 
done the best they can, but they are at the behest of the 
President and the Vice President. You know, it is unfortunate 
that they aren't allowed to do what they need--they know what 
to do. It is being allowed to do it, and going in and helping 
different locales fight this disease.
    Now, we see what is happening in Florida and Texas and 
Arizona, but there was no problem, it was going away. You know, 
if we are not careful, we will see the same situation back in 
our States. So, you know, and the President of the Senate's 
attitude is, you know, well, pull yourself up by your 
bootstraps, you know, except in Kentucky where he is making 
sure they have everything. So it is just unfortunate that the 
administration has taken that attitude.
    Dr. Shah, you know, I am pleased to see you here today. I 
appreciate you gave excellent testimony back in October last 
year at my subcommittee hearing on bioterrorism preparedness. I 
see the massive resurgence of COVID-19 this summer as a 
disturbing trend.
    Dr. Shah, what do you think will happen in the winter when 
the flu season will return? What do we need to be doing to 
prepare?
    Dr. Shah. Thank you, Congressman, and good to see you 
again, and thank you for reminding of the pre-COVID hearing 
last year, which seems, you know, ages ago.
    Mr. Payne. Yes.
    Dr. Shah. On your previous question, I did want to make a 
comment that public health has seen over 56,000 jobs that have 
been lost over the decade, and that is really concerning to me. 
From a public health standpoint, across the Nation, we have 
taxed the public health system so much that very well we are 
going to see markedly more diversions and folks leaving the 
public health work force, which is a real concern of ours.
    In the fall, to your question, the real concern that we 
have is that we are still not through, as Dr. Fauci said, this 
first wave, and now in just a couple of months, we are going to 
very much be in the midst of flu season. While we are in the 
midst of a summer, if you will, a usual respite from flu, now 
flu is going to come back in the midst of fall season. We also 
have concerns about people not taking flu vaccine because of 
concerns, misguided though they are, around anti-vaccination, 
that there is really a concern that people are not going to be 
vaccinated and, No. 2, that you are going to have a vengeance 
when you have both flu and COVID that are intermixed together 
in the fall, and that is a concern of all of ours in public 
health.
    Mr. Payne. Thank you.
    I don't know if my time is----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Payne. Thank you, Mr. Chair.
    Chairman Thompson. I know you are celebrating yesterday, 
but we have some other Members.
    Mr. Payne. I yield back. I am sorry.
    Chairman Thompson. That is all right.
    We now recognize the gentleman from Texas for 5 minutes, 
Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you Dr. Shah. It is good to see you as always. You 
mentioned Harris County's history of responding to crisis and 
disasters. You have a lot of history being on the front lines 
doing so, and we appreciate that. How does this Federal 
response to COVID relate to the past disasters that you have 
seen?
    Dr. Shah. First of all, Congressman, great to see you, and 
thank you for your continued support, really appreciate it.
    You know, I think there are a couple things I would say. 
One is about the disaster itself. This is not a hurricane in 
one spot. This is throughout the country, throughout the globe. 
All communities across the world are going through this 
differentially. So there is this massive nature of this. But 
the piece that is of concern to me is that, in the past when we 
have had these disasters, these emergencies, we have actually 
seen CDC oftentimes be that leading voice and actually 
convening behind the scenes, a lot of discussions with State 
and local health officials that allows us to learn from each 
other. That has not happened as much as I have seen in the 
past.
    I have got a lot more to say, but I think let me pause 
there because I know you have more questions.
    Mr. Crenshaw. Yes, and I do. That is a reasonable concern 
to have, and I appreciate your candid and honest response. 
Because what I have heard from [inaudible] hearing, the tone of 
this hearing, you know, you would think we live in a totally 
different world than what actually happened. I won't dwell on 
the dishonesty that I have heard from others, but I appreciate 
your honesty on this. I think we are on the same page.
    When we met in my office in early March, we focused on the 
fact that we had public health issues other than COVID and that 
COVID could negatively affect those on-going issues too. There 
are other public policy goals, as it turns out: Education, 
jobs, other health issues. What was the result of the lockdown 
on these other public health issues?
    Dr. Shah. Well, thank you again for that. As you know that 
it is not just health and medical impacts from COVID. It is 
this real socioeconomic, sociodemographic impact across the 
communities. So it has--obviously, it is too early for us to 
have specific numbers to say what was the impact on education 
or the economy all throughout.
    I will say this: That we know that there have been 
secondary impacts, and while they have not been quantifiable, 
we also know that education, jobs, et cetera, also have 
secondary impact on health, and vice versa. They all work 
together. So, you know, I do want to make sure that we 
recognize that we have to really make sure this is not an 
either/or, that we are only looking at health. We should be 
looking at all of those aspects together. It is an ``and'' as 
we continue to fight this pandemic.
    Mr. Crenshaw. As you state, I mean, dealing with this, it 
is a science and an art. Some people say, well, let's listen to 
the science. Well, science disagrees on a lot of things, and 
there are judgments that have to occur, weighing costs and 
benefits and weighing other issues, like we just mentioned.
    There has also been a lot of debate over reopening the 
economy. Now, Texas reopened in early May. Places like 
California, which is seeing spikes just as bad as Texas, even 
though nobody likes to mention that--I wonder why--they opened 
up a lot slower and they were locked down much more severely, 
but both saw spikes.
    So can you expand on what you talked about with the 
layering effects that you mentioned that may have caused the 
spike that we are seeing across the country?
    Dr. Shah. Yes. You know, this virus is an equal opportunity 
virus. It does not respect seasons. It does not respect who you 
are, how you are, what you are trying to do in life. At the end 
of the day, if you are exposed, there is this real concern that 
the exposure can lead to infectivity, and I think that is the 
critical piece.
    The layering effect, in my mind, is very important. It is 
not just reopening. I can't quantify exactly how much, because 
no one can. It is not just reopening restaurants at 25 percent, 
then 50, then 75, or bars or gyms, and back and forth. But what 
it is is that you have layering effect in addition to these 
milestone events like, as I mentioned, Mother's Day and 
holidays and protests, and now we have had Father's Day, and 
now you have graduations in between. Now we have had 4th of 
July. All of that layers upon each other.
    When you dial something up or you have an event, it 
generally takes a few weeks for you to see the impact. Just 
conversely, when you dial down, it takes a few weeks for you to 
see the impact. It is not immediate.
    But the concern we have in our community, as you know, is 
that what is happening in our health care system is that we 
cannot wait for this runway, because there is limited runway in 
that health care system, and that is why we are concerned about 
making public policy decisions that can really interrupt this 
transmission now.
    Mr. Crenshaw. Thank you.
    I am out of time. I have a lot more to say, but thank you, 
Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Underwood, for 5 minutes.
    Ms. Underwood. Well, thank you, Mr. Chairman.
    What a treat it is to have our Governor with us on the line 
today. He certainly has made us quite proud throughout this 
response, and I have a series of questions for him.
    I would like to begin, Governor, your background is in 
education, and I am sure you would agree that returning to 
school is integral to the well-being and development of our 
children, as well as to working parents, and to the long-term 
health of our economy. But it is essential to make sure that 
reopening schools does not place students, teachers, and their 
families in danger. States and schools should be able to count 
on the Federal Government for guidance during a crisis of this 
scale.
    So as you prepare to safely reopen Illinois schools, what 
information, expertise, and resources do you need from the 
Federal Government?
    Governor Pritzker. Well, thank you, Congresswoman. I want 
to just begin by saying thank you for your very strong advocacy 
for the State of Illinois in Washington, and especially for 
your advocacy in helping us get through this pandemic with 
everything that we may need. I know you are fighting for us 
there, and I really appreciate that.
    In answer to your question, you know, this is a very 
complex challenge, getting our kids back to school and doing it 
safely. You know, we didn't do this starting out with the idea 
that we have to get everybody back to school. We started with 
the idea, you know, does the science and the data allow us to 
send kids back to school? If so, in what manner and how would 
that work? Especially when we know that we need to watch our 
distance, we need to make sure people are wearing masks or face 
coverings, and all the challenges of people with preconditions 
that the adults and the children who are going to be in that 
school, not to mention--and people don't really mention this 
much--the parents who interact with the school.
    So, you know, that has been the challenge. What we did to 
begin with was we got our health professionals--and this is how 
we have done all of the facets of reopening and restoration 
that we have done. We got the public health officials together 
with the people who know our schools best, all across the 
State. Again, we have very different school districts in rural 
Illinois than we do in suburban and, you know, in the city of 
Chicago, for example.
    But we got them together and made sure that the ideas that 
were being put forward were, No. 1, going to keep our kids and 
everybody at the school healthy and safe and, No. 2, were 
feasible and, No. 3, what investments do we need to make----
    Ms. Underwood. Yes.
    Governor Pritzker [continuing]. To make sure that we can 
get those accomplished. So long story short is the Federal 
Government's guidance is so vitally important, from the CDC. I 
hate to say that I have often found the CDC as being muzzled 
along the way here. I think the CDC is what we should be 
relying upon. There are a lot of terrific epidemiologists and 
expertise that exists at the CDC, but often, what we have found 
is either they put out guidance and then the White House tells 
them, no, we are pulling it back----
    Ms. Underwood. That is right.
    Governor Pritzker [continuing]. Or they are beginning to 
put out guidance and someone says, you are not allowed to talk. 
So we are very concerned about that fact.
    So I feel very fortunate that I come from a State where we 
have got some terrific, world-renowned scientists, 
epidemiologists, researchers, and so on. So we have been able 
to rely a lot on our local capability that really is world-
class. But I wish that we could have a Federal Government that 
was our partner in this endeavor. That is why I was so 
frustrated to see the President just sort-of pronounce that, 
well, everybody should open their schools. Well, great. Please, 
please provide us the kind of guidance that will help us do 
that.
    Ms. Underwood. Yes. I am certainly concerned about their 
announcements today from the Department of Education, for 
example.
    We have a minute left, sir, so I know that the State 
budgets across the country have been devastated by the 
pandemic, and nearly 2 months ago, the House passed a bill, the 
HEROES Act, that would provide nearly--not nearly--$500 billion 
in relief funds to State government, including almost $18 
billion for the State of Illinois. Unfortunately, the Senate 
hasn't acted on the bill.
    So for the benefit of our colleagues in the Senate, what 
impact would this funding have on our State of Illinois?
    Governor Pritzker. Well, before I say that, I just want to 
say that I talk to Republican and Democratic Governors all the 
time, all across the Nation. So when I answer your question, I 
am partly answering what I think Republican and Democratic 
Governors across the country are saying, which is, without that 
funding, imagine how difficult it will be to reopen schools----
    Ms. Underwood. Right.
    Governor Pritzker [continuing]. To provide, you know, the 
resources that we need for schools, not to mention our public 
health infrastructure, which is funded by State government. Our 
city, county governments provide our firefighters and our 
police officers and public safety. They are already making 
layoffs, significant layoffs. We can't afford to have that 
happen across the country in the middle of a pandemic.
    If you can spend, you know, trillions of dollars helping 
large corporations survive, $500 million to support State and 
local governments, which provide such vital resources for our 
residents, you know, I would say is a small price to pay for 
what is absolutely necessary here.
    Ms. Underwood. Well, Governor Pritzker, thank you for your 
leadership. Thank you for being with us today.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Pennsylvania for 5 
minutes, Mr. Joyce.
    Mr. Joyce. [Inaudible] Let's start again. Thank you.
    Chairman, thank you for yielding and thank you for 
convening this hearing, although I am disappointed that we are 
not all here together to conduct this important committee 
business in person.
    I would like to thank my colleague, Ranking Member Rogers, 
for his leadership in gathering us here today. I would also 
like to thank our panel of witnesses for appearing today.
    The COVID-19 pandemic started a crisis unlike anything we 
have seen in our lifetimes and certainly unlike anything I have 
seen in practicing medicine for over 25 years. As we have seen 
this virus progress, it has disproportionately impacted elderly 
patients, especially those living in nursing homes or other 
long-term care facilities.
    In my home State of Pennsylvania, this problem was 
tragically increased by a misguided order from our Governor to 
readmit COVID-19-positive residents back into nursing homes. 
This order flew in the face of common sense and guidance from 
the Center for Medicare and Medicaid Services issued just days 
before.
    I would strongly urge this committee and the entire House 
of Representatives as a body to look into this order and 
similar orders given in New York, Michigan, California, to take 
full account of these deadly mistakes.
    As we continue to face this virus, we cannot forget where 
it originated. Chinese obstruction and outright lies to the 
media and to international investigators are at the root cause 
of this virus and allowed it to spread onto a global scale. It 
remains critical that we are vigilant to the threat from China 
and act together as a committee to respond to any increased 
cyber attacks or other threats to our homeland while we 
continue to fight this coronavirus.
    Director Hastings, thank you for appearing today. In your 
testimony, you mentioned how quickly you were able to receive 
major disaster declarations from the Trump administration. I am 
pleased to report we had similar success in my home State of 
Pennsylvania, and our delegation was able to support the 
request from our Governor in a bipartisan manner. It is also my 
understanding that the Trump administration was able to approve 
similar declarations very quickly for States all across the 
country.
    Director Hastings, could you please elaborate on any 
additional resources that Congress might need to make available 
to help States like Alabama be successful in their continued 
fight against COVID-19?
    Mr. Hastings. Thank you, Congressman. I think in my written 
testimony, I talked a little bit about the CARES Act. One of 
the things that we are concerned about--and I was going to get 
ready to poll the Region 4 State directors--is the 
interpretation of whether the CARES Act funding can be used for 
both the activities that any emergency management agency does, 
because we are not considered public safety agents. So that is 
one.
    No. 2, we also got really quick approval through the 
Alabama Department of Commerce through the Small Business 
Administration to get an SBA disaster declaration. The blessing 
and the curse of being in Region 4 is that we are disaster-
prone, so I enjoy a great relationship with our sister States 
and also with FEMA Region 4.
    But I think the biggest thing is that the National 
emergency right now ends on 31 December, and I am not a public 
health officer, epidemiologist, or a pathologist, but I just 
don't see COVID-19 going away at the new year. So I think we 
need to batten down the hatches for a long fight and really 
start to look at the habits we have today, the things we need 
to do, kind-of reinvent the way we do things, to deliver 
services to our people in inventive, agile, and innovative 
manners, because I don't believe we are going to go back to 
normal. I think we need to go forward to better, and I don't 
know what forward to better is yet.
    I agree with the Governor of Illinois that we are 
exploring, deciding, making mistakes, learning from them along 
the way. If we can continue to share those things with the 
Federal Government, our States, in a more collaborative, 
cooperative manner, I think we will be better as a Nation, as 
regions, and things like that. But I just don't think the need 
and the assistance from the Federal Government will end on the 
3lst of December. So that is one thing I am a little bit 
concerned about.
    Mr. Joyce. Thank you for your hard work. Thank you for your 
dedication to Alabama and to our country. Thank you for your 
insight.
    Mr. Chairman, I yield the remainder of my time.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green of Texas. Thank you, Mr. Chairman. I thank the 
witnesses for appearing. I am also very grateful to the Ranking 
Member for his role that he has played in the process.
    If I may, I would like to refer to some empirical evidence 
and then ask a question.
    This is intelligence that relates to new cases as of 7/7/
2020, new cases of coronavirus, I might add. In Texas, on 7/7/
2020, a State with 29 million people, we had 10,028 cases. I 
would like to juxtapose Texas to Canada. Canada, population of 
37 million, decidedly more than Texas, had 172 cases. Texas, 
10,000; Canada, 172. This makes it intuitively obvious that we 
can do better, and I can't believe that the Canadians know more 
about the virus than we do. I can't believe that they have 
better medical facilities than we have. So there must be other 
things that are giving them the opportunity to have 172 cases 
on yesterday and Texas 10,028.
    Dr. Shah, my dear friend, I would like for you to comment 
on this, if you would, the rationale for Canada being so 
successful as opposed to my State that I love dearly, and I 
assume you love dearly as well as a resident.
    Dr. Shah. Well, thank you Congressman. Always good to see 
you and your support, leadership. Yes, I came to Texas because 
I do, too, love this State.
    I will tell you that this is the concern that we have. When 
you say that there are 10,000 new cases that are being, you 
know, deemed positive on a single day and then you compare it 
to our neighbors to the north and it is markedly less than 
that, then that means that we as a Nation have to do markedly 
better. It is not about the politics; it is about the policies. 
It is not about the red or the blue; it is about all of us 
working together.
    We just had 4th of July, and that means that we should be 
coming together as a Nation, because we are well beyond and 
behind the 8-ball when it comes to fighting this pandemic, and 
that concerns us across the country. That concerns us in Texas. 
That certainly should concern us here locally. So I agree with 
you, and that is a concern that we have.
    I do think it is about that inconsistent messaging, and it 
is also about having the strategy that really allows us to 
continue to assure that everyone understands their role and 
everybody is working together. That is what we are not seeing.
    Mr. Green of Texas. Thank you.
    Colonel, if I may, I have had the opportunity to look at 
your record. You have served your country well, and I 
compliment you.
    I have to ask you a question. I am a member of several 
fraternities. If my fraternity wanted to come to your State, 
say 6,000 strong, and we wanted to have a convention within a 
facility, not without, would you recommend that we have this 
in-person convention indoors, 6,000 strong?
    Mr. Hastings. Congressman, my recommendation would be based 
upon our current safer-at-home guideline and campaign that the 
Governor has and the public health orders that are currently 
applicable in Alabama. So it does recommend that large 
gatherings, where you can't have social distancing, are not 
recommended. So if someone was asking for my recommendation, I 
would not recommend that, as part of the Unified Command, as 
the director of Alabama Emergency Management, and as a 
supporting partner with Alabama Department of Public Health on 
behalf of the strategy that Governor Ivey has in place right 
now.
    Mr. Green of Texas. Dr. Shah, if you would, would you 
kindly respond to the example that I have accorded?
    Dr. Shah. I would agree that, just as you just heard from 
Mr. Hastings, we are very concerned about anytime you bring 
people together for any reason, regardless of why people may be 
passionate about it, that concern, from a public health 
standpoint, increases risk. You certainly don't want to do it 
in any community where you have increasing numbers of cases or 
tests that are coming back positive or hospitalizations; for 
example, in ours.
    Mr. Green of Texas. Would it make a difference if all of us 
were of a given political persuasion, we are all a part of one 
political group, if you will, a party perhaps, would that make 
a difference?
    Dr. Shah. From a public health standpoint, no.
    Mr. Green of Texas. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    Governor, I got your message that you are going to have to 
depart. Let me thank you very much for the time you have given 
us. I know you will stay as long as you can, but thank you very 
much, on behalf of the Ranking Member and myself, for being a 
witness for our committee.
    Governor Pritzker. Thank you very much, Mr. Chairman and 
Congressman Rogers.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from California, Mr. 
Correa, for 5 minutes.
    Mr. Correa. Thank you, Mr. Chairman, for holding this most 
important hearing, and our Ranking Member as well, thank you 
very much. I want to thank our guests today for being here. I 
wish the Governor would have stayed on for 3 more minutes, I 
did have a question for all of you, and I still do.
    I represent Central Orange County here in California. 
Ninety percent of our industry here, of our jobs are dependent 
on tourism. Our biggest employer here is Disneyland. Ninety-
five percent of my constituents that work in the entertainment, 
hotels, restaurant business have been out of jobs for months 
now. As we have these economic stimulus packages that we in 
Washington have rolled out, as those come to an end, you are 
going to see people begin to hurt in a very serious manner.
    Every weekend I am out giving food baskets, food to my 
constituents, folks driving in with nice cars that have not had 
a paycheck in weeks.
    As I am listening to your testimony, and all of you--some 
of you mentioned it this morning or last night, the President 
came out and contradicted the CDC. I am also trying to figure 
out, as Americans, where do we turn to? What do we do to get a 
unified message to unify us and say, we have got to move 
student body left or student body right, pick a play and 
execute, as opposed to being contradictory as to what we are 
supposed to do?
    So I am going to ask Mayor Shelton, Dr. Shah, and Colonel 
Hastings, what is the message out there for my constituents? We 
are a Democratic district, but you know what, we have a lot of 
my constituents that also follow the President's message very 
carefully.
    What do we say to our constituents? In the context of 
getting our country back in order, making sure that folks are 
able to go back to work, but we have got to get this COVID-19 
under control, what do we tell our constituents?
    Dr. Shah.
    Dr. Shah. Well, this is--thank you, Congressman. This is 
exactly what I said about the inconsistent messaging. It 
creates confusion and even complacency and, unfortunately, it 
actually means that people take risks. They don't know exactly 
who is right or wrong, and they may make a decision to take a 
risk. From a health standpoint, that is a terrible way to make 
decisions, terrible. Because what it does is, at the end of the 
day, we now increase transmission and exposure, and that cooks 
upon each other, and the next thing you know you have increases 
in cases. So----
    Mr. Correa. Colonel Hastings, I have got 2 minutes. Go 
ahead and answer the question.
    Mr. Hastings. Sure. Well, you know, we have an Alabama 
strategy and a grand strategy in phases of our State 
operations, and we want to make sure that everyone is behind 
that. But I think to what the doctor was saying is that it is 
not--in a digital world, this is not a binary answer; it is 
very analog. You can open the economy, but you have to comply 
with public health orders and CDC guidelines. You can open the 
economy, but when you close down your schools, you have got to 
figure out how do you deliver school to the children if the 
children can't come to you, like we did. Or if we close down 
businesses or services, instead of people coming and 
congregating, how do those people deliver those services to the 
people?
    So where, yes, people are going to be suffering, and on 
July 3l, I am concerned about maybe a looming humanitarian 
crisis. You know, this time that we have right now, we need to 
take a step back, take a deep breath and go, how do we reinvent 
the way we do business, how do we reinvent how we connect with 
people, and we can do----
    Mr. Correa. How do we get that unified message? How do we 
get that unified message?
    Mr. Hastings. Well, in Alabama, our strategy is mobilize 
Alabama for a whole-of-society response to slow the 
transmission of coronavirus to a level commensurate with our 
medical system's capacity to care for our citizens in order to 
buy time to find a vaccination----
    Mr. Correa. Thank you, Colonel Hastings.
    In my last 30 seconds, Mayor Shelton, tell me.
    Mr. Shelton. The President of the United States needs to 
get on TV and have a call to unity, that he needs to dispel the 
conspiracy theories and the rumors that are hampering the 
efforts of government at all levels to respond. We need both 
parties in the House and Senate to continue to work on 
legislation that is going to get help where help is needed.
    Mr. Correa. Thank you very much, gentlemen.
    Mr. Chairman, I yield.
    Chairman Thompson. [Inaudible]
    Mr. Correa. You are muted, sir.
    Chairman Thompson. The Chair recognizes the gentleman from 
Kansas City, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    One of my big concerns is we politicize everything and, you 
know, we have things like, you know, your seatbelts, which is 
required to be in your automobiles and, I guess, motorcycle 
helmets to a lesser degree, they may be regulated [inaudible]. 
But it has become a--you know, if you support the President, 
you don't do this. I am so concerned about it because I think 
we are probably going to lose some lives over that, and may 
have already done so.
    But, Dr. Shah, one of the things that I am talking about is 
in my birth State of Texas, you know, we have this contagion 
running rampant in Texas. Can we say to people in Texas--I have 
about a hundred, maybe probably more that I just don't know 
about, but at least a hundred of my family members live in 
Texas now. If I were to talk to them, can I tell them, with any 
degree of accuracy, that everybody in Texas who wants to take 
the test can take the test?
    Dr. Shah. You know, that is--thank you, Congressman, and 
great to hear from somebody who is a Texan at heart.
    What I would say is two things. I have been saying this is 
a tale of two cities. We've gotten better with testing, but we 
are not where we need to be as a Nation and certainly here in 
Texas. The key message that I have been saying--and people have 
asked me this question--if somebody wanted to get tested, could 
they get tested? The answer is, yes, likely, should be. But if 
the answer is--we have 5 million residents in Harris County 
alone, if today they said, I want to get tested today, the 
answer is absolutely no.
    So the answer is really very much about we are better than 
where we were, but testing is a key foundation, and we need to 
really spend a lot of our efforts as a Nation on making sure 
testing capacity is even better than where it has been.
    Mr. Cleaver. Well, I am also concerned--thank you. Thank 
you, Doctor.
    I am also concerned, though, however, that the 
politicalization has gone so wildly that I was at a meeting 
with some Members of Congress, and I was told that even if a 
vaccine is created, this particular Member--this is a Member of 
Congress who said, I am not going to take it, my family is not 
going to take it, and the people I know will not take it. Why 
would I take a vaccine--this is a Member of Congress--why would 
I take a vaccine that could very likely kill me?
    So my question is--you deal with this stuff on an everyday 
basis--is that even if--I mean, you know, even if everybody can 
get tested, and even if we get a vaccine, we have intelligent 
human beings out saying openly that they are not going to take 
a test and that they are going to prevent their family from 
taking it and all the people they know.
    So if a couple of Members say that, we are talking millions 
of people. I mean, each Member of Congress represents 800,000--
roughly 800,000 people. If somebody even higher says, roll with 
me--I know you can't solve that problem, but with the vaccine, 
I mean, how many people do you think, Doctor, die each day from 
taking the polio vaccine or the flu vaccine?
    Dr. Shah. Well, Congressman, I think that is the concern. 
That is the mixed messaging. That is the issue. That is why 
there are other countries that are doing better, because they 
have come across, come around to the fact that we are all in 
this together, and we have become divided. That is the issue.
    The other piece that you said earlier about the testing, I 
will say that it is not just the quantity of tests; it is also 
the quality of the test, the turnaround time, the lag of the 
testing. It is all that together, which means that this is a 
very critical time for us as a Nation. Unless we can get all of 
our efforts centered on fighting this pandemic, we are going to 
be in this longer and we are going to have more unfortunate or 
adverse outcomes.
    Mr. Cleaver. Thank you.
    I took the [inaudible] yesterday. That is why I have a 
Band-Aid here. Every time I get a chance to take a test, I am 
going to take one, and I am trying to say that to everybody 
else.
    So thanks, Doctor. This is somewhat frustrating, but thank 
you very much for what you do every day.
    Dr. Shah. Thank you. Thank you, Congressman.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. I want to 
thank all of our witnesses for their expert testimony today.
    As a New Yorker, we went through the eye of the storm, 
being the epicenter of this pandemic. We are going through a 
painstaking phase in an introduction to our economy once again. 
But nothing is more troubling to me as a Member of this 
committee than to see the type of spiking that we are seeing in 
the southern, midwestern parts of our country, particularly in 
the southwestern part of the country, particularly because it 
would seem to me that we would have learned observing what New 
York State went through.
    My question is, you know, are States actually coordinating 
and having conversations with one another about the experiences 
that each State has gone through? Because it seems to me that 
we are stuck in Groundhog Day here, and this is costing lives 
across this Nation.
    It would seem to me, Mr. Chairman, that there would be a 
coordinated effort to get a National platform, a National 
standard for making sure that there are PPEs for each and every 
State across this Nation, that the stockpiles that everyone is 
talking about is facilitated by the Federal Government and that 
that demand would be something that we could also rally behind 
as Members of Congress.
    So my question, then, is to the general from Alabama. What 
conversations are you having with similar colleagues in other 
States that have experience, say, New Jersey, Connecticut, New 
York, that have gone through sort of the eye of the storm, if 
any?
    Mr. Hastings. Personally, I like to catch up on the 
National news every evening at the end of the day, and ours is 
kind of regionally specific, I have to admit. We have calls 
with HHS/ASPR and FEMA Region 4. So among the Region 4 States 
we share, and we are sensitive to what is going on in other 
States, because as you guys are going through the eye of the 
storm, we were having trouble getting PPE and some resources 
because the Nation had prioritized some of those resources 
toward those hotspots that initially happened.
    So because Alabama was kind-of a slow burn with the COVID-
19 rise, we were having trouble getting some of those 
resources, and rightfully so. They were going to places like 
Chicago, Detroit, Pennsylvania in the Philadelphia area, New 
York City, and Georgia, and the hotspots in Region 4. But we 
have not had conversations with those northern tier States, 
other than through the National Emergency Management Agency 
giving out some documents that I go through once a week showing 
what all the different States are doing, and then it is up to 
me as an emergency manager to kind-of take a look at how the 
Nation is doing, how the region is doing, and especially how 
Alabama is doing, ma'am.
    Ms. Clarke. Well, let me follow-up this question very 
quickly with, do you think that there are lessons to be learned 
as you now face this that perhaps have already been learned by 
other jurisdictions in other parts of the country? If this is a 
National pandemic, you know, is there something that prohibits 
the type of conversation that would put you in a better footing 
to deal with the outbreak that you are experiencing in Alabama?
    Mr. Hastings. No, I think there is. I think behind the 
scenes--and I can't speak specifically to it, but being in the 
conversations with Dr. Harris, our public health officer, and 
University of Alabama Birmingham Medicine, you can hear that 
both hospitals and the health care coalitions are sharing with 
their partners, and they are sharing lessons learned daily with 
whether it is PPE uses, how you flow patients in and out of 
health care hospitals and facilities. So that is going on 
behind the scenes.
    Ms. Clarke. All right. Very well.
    My time is running down, but I would like to get your take 
on it, Dr. Shah.
    Dr. Shah. Congresswoman, thank you for that question. You 
know, I know that your State, unfortunately, has gone through a 
tremendous amount.
    I think this is exactly what I was saying earlier where I 
see a role for the CDC to play across the system. I am 
absolutely convinced that we have to learn from each other. 
That is how you learn best. Unfortunately, in this emergency, 
we have not seen that sharing across the system, except on an 
ad hoc basis. Not that it doesn't happen, Congresswoman; it is 
happening in a public health world, but it is not happening as 
systematically as it should happen. Unfortunately, that is also 
a significant driver and sometimes repeating some of those 
issues that we could have learned from other communities.
    Now, I will say that our county elected official, Judge 
Hidalgo, has been in touch with elected officials across the 
country, and I have also been in touch with health officials 
across the country. But I will tell you it is not systematic on 
the health side as it should be and as we have seen previously.
    Thank you for that question.
    Ms. Clarke. I yield back, Mr. Chairman, and thank you for 
this very important hearing.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you very much, Mr. Chairman. It is good to 
see you.
    As I have sat here most of the morning, I am from----
    Chairman Thompson. Good to see you.
    Ms. Titus. Thank you.
    As I have sat here, I have heard a number of my Republican 
colleagues, some of whom are from some of the hottest spots in 
the country, grill the panel, especially the Governor, in a 
not-so-subtle attempt to defend the President's actions. The 
witnesses have responded with answers that are informed. They 
are straightforward. They are based in fact, not in partisan 
politics. I really want to commend them for that and thank 
them.
    I would note, though, that in the Republicans' defense of 
the President, I haven't heard any of them mention, defend, or 
ask about the President's rallies in Tulsa, at Mt. Rushmore, 
and his future planned ones and how they put an extra burden on 
first responders, hospitals, and FEMA folks. I wonder if they 
believe the President when he says 99 percent of the cases are 
totally harmless and have that misinformation placed into the 
mixed message that the public is getting that stymies our 
attempts to get over this.
    I am also just kind-of curious how many of these Members 
are going to attend their political convention next month, 
given all that is still going on and what is really happening 
in Florida. But I guess we will wait and see about that.
    The question I really want to ask, though, first, is to Dr. 
Shah. My district is a lot like Harris County. We have a very 
large Hispanic population, and the numbers show that the virus 
is disproportionately affecting the members of that community. 
It is kind-of easy to understand why. You know, they work a lot 
of front-line jobs. They can't take off. They are essential 
workers. Many of them are uninsured. Many members of the 
community are afraid to come forward to be tested or get 
information or be treated because of immigration concerns. 
Also, they live in densely-populated neighborhoods. And even in 
one family, you may have extended family members or, you know, 
neighbors or something all living in one house. So it is fairly 
easily to figure out why.
    But I am wondering what we can do to better serve that 
community, how we can better count those numbers, use that 
data, how local government can supplement what the Federal 
Government is having such a problem collecting. Can you tell us 
what you all are doing or maybe give us some suggestions?
    Dr. Shah. Sure. Congresswoman, thank you for that question. 
Thank you for your earlier comment about our answers as a 
collective.
    Some of the things that we are doing, as you know, we have 
a large Hispanic population here in Harris County, and we have 
to match the diversity of our community with our own work 
force. So I think it starts there, and we have done that, not 
just in advance of COVID-19, but also during COVID-19 with the 
hiring of our contact tracers. We hired 300 contact tracers by 
May 22, and the diversity in that room, I will tell you, was 
incredible, including different languages.
    The other piece is that we have to really be making sure 
that as our outreach engagement efforts are in the community, 
that they are also Spanish-speaking or bilingual, not just 
Spanish, but obviously in the case of Vietnamese or Mandarin 
Chinese, whatever that looks like, we have to be very much 
synced in with that.
    Then we are also looking at and working with partners in 
media with that specific ethnicity in mind, so Spanish-speaking 
media or leaders that are in the Hispanic community, in 
particular, but also the African American community and beyond, 
to really make sure we have partnerships because, ultimately, 
they don't always think about the health department as being, 
you know, that partner. But when there is someone in between as 
being a trusted source, that also helps, especially in the 
faith community.
    There are many other strategies that I could put out there, 
including putting our mobile testing in those areas and also 
making sure that, you know, we are doing our case investigation 
appropriately and, obviously, ensuring that we have resources 
in those communities.
    But I think that is an excellent question, and that is 
something that every day we are very mindful of and responding 
to.
    Ms. Titus. Thank you. Thank you very much.
    I will yield back, Mr. Chairman.
    Chairman Thompson. [Inaudible]
    Mr. Hastings. You are muted, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from California, Ms. 
Barragan, for 5 minutes.
    Seeing as she is not with us, let me, in the interest of 
time, thank the witnesses for their valuable testimony and the 
Members for their questions.
    Before adjourning, I ask unanimous consent to submit a 
statement for the record from the Robert Wood Johnson 
Foundation.
    [The information follows:]
            Statement of the Robert Wood Johnson Foundation
health equity principles for state and local leaders in responding to, 
                reopening, and recovering from covid-19
                                overview
    COVID-19 has unleashed a dual threat to health equity in the United 
States: A pandemic that has sickened millions and killed tens of 
thousands and counting, and an economic downturn that has resulted in 
tens of millions of people losing jobs--the highest numbers since the 
Great Depression. The COVID pandemic underscores that:
  <bullet> Our health is inextricably linked to that of our neighbors, 
        family members, child- and adult-care providers, co-workers, 
        school teachers, delivery service people, grocery store clerks, 
        factory workers, and first responders, among others;
  <bullet> Our current health care, public health, and economic systems 
        do not adequately or equitably protect our well-being as a 
        Nation; and
  <bullet> Every community is experiencing harm, though certain groups 
        are suffering disproportionately, including people of color, 
        workers with low incomes, and people living in places that were 
        already struggling financially before the economic downturn.
    For communities and their residents to recover fully and fairly, 
State and local leaders should consider the following health equity 
principles in designing and implementing their responses. These 
principles are not a detailed public health guide for responding to the 
pandemic or reopening the economy, but rather a compass that 
continually points leaders toward an equitable and lasting recovery.
            ``Health equity means that everyone has a fair and just 
                    opportunity to be as healthy as possible. This 
                    requires removing obstacles to health such as 
                    poverty, discrimination, and their consequences, 
                    including powerlessness and lack of access to good 
                    jobs with fair pay, quality education and housing, 
                    safe environments, and health care.''
            What Is Health Equity? And What Difference Does a 
                    Definition Make?
            Robert Wood Johnson Foundation, 2017
1.--Collect, analyze, and report data disaggregated by age, race, 
        ethnicity, gender, disability, neighborhood, and other 
        sociodemographic characteristics.
    Pandemics and economic recessions exacerbate disparities that 
ultimately hurt us all. Therefore, State and local leaders cannot 
design equitable response and recovery strategies without monitoring 
COVID's impacts among socially and economically marginalized groups.\1\ 
Data disaggregation should follow best practices and extend not only to 
public health data on COVID cases, hospitalizations, and fatalities, 
but also to: Measures of access to testing, treatment, personal 
protective equipment (PPE), and safe places to isolate when sick; 
receipt of social and economic supports; and the downstream 
consequences of COVID on well-being, ranging from housing instability 
to food insecurity. Geographic identifiers would allow leaders and the 
public to understand the interplay between place and social factors, as 
counties with large black populations account for more than half of all 
COVID deaths, and rural communities and post-industrial cities 
generally fare worse in economic downturns. Legal mandates for data 
disaggregation are proliferating, but 11 States are still not reporting 
COVID deaths by race; 16 are not reporting by gender; and 26 are not 
reporting based on congregate living status (e.g., nursing homes, 
jails). Only 3 are reporting testing data by race and ethnicity. While 
States and cities can do more, the Federal Government should also 
support data disaggregation through funding and National standards.
---------------------------------------------------------------------------
    \1\ People of color (African-Americans, Latinos, Asian Americans, 
American Indians, Alaska Natives, and Native Hawaiians and other 
Pacific Islanders), women, people living in congregate settings such as 
nursing homes and jails, people with physical and intellectual 
disabilities, LGBTQ people, immigrants, and people with limited English 
proficiency.
---------------------------------------------------------------------------
            Health Equity Principles
    1. Collect, analyze and report disaggregated data.
    2. Include those who are most affected in decisions, and benchmark 
        progress based on their outcomes.
    3. Establish and empower teams dedicated to racial equity.
    4. Proactively fill policy gaps while advocating for more Federal 
        support.
    5. Invest in public health, health care, and social infrastructure.
2.--Include in decision making the people most affected by health and 
        economic challenges, and benchmark progress based on their 
        outcomes.
    Our communities are stronger, more stable, and more prosperous when 
every person, including the most disadvantaged residents, is healthy 
and financially secure. Throughout the response and recovery, State and 
local leaders should ask: Are we making sure that people facing the 
greatest risks have access to PPE, testing and treatment, stable 
housing, and a way to support their families? And, are we creating ways 
for residents--particularly those hardest hit--to meaningfully 
participate in and shape the Government's recovery strategy?
    Accordingly, policy makers should create space for leaders from 
these communities to be at decision-making tables and should regularly 
consult with community-based organizations that can identify barriers 
to accessing health and social services, lift up grassroots solutions, 
and disseminate public health guidance in culturally and linguistically 
appropriate ways. For example, they could recommend trusted, accessible 
locations for new testing sites and advise on how to diversify the pool 
of contact tracers, who will be crucial to tamping down the spread of 
infection in reopened communities. They could also collaborate with 
Government leaders to ensure that all people who are infected with 
coronavirus (or exposed to someone infected) have a safe, secure, and 
acceptable place to isolate or quarantine for 14 days. Key partners 
could include community health centers, small business associations, 
community organizing groups, and workers' rights organizations, among 
others. Ultimately, State and local leaders should measure the success 
of their response based not only on total death counts and aggregate 
economic impacts but also on the health and social outcomes of the most 
marginalized.
            Are we making sure that people facing the greatest risks 
                    have access to PPE, testing and treatment, stable 
                    housing, and a way to support their families?
3.--Establish and empower teams dedicated to promoting racial equity in 
        response and recovery efforts.
    Race or ethnicity should not determine anyone's opportunity for 
good health or social well-being, but, as COVID has shown, we are far 
from this goal. People of color are more likely to be front-line 
workers, to live in dense or overcrowded housing, to lack health 
insurance, and to experience chronic diseases linked to unhealthy 
environments and structural racism. Therefore, State and local leaders 
should empower dedicated teams to address COVID-related racial 
disparities, as several leaders, Republican and Democrat, have already 
done. To be effective, these entities should: Include leaders of color 
from community, corporate, academic, and philanthropic sectors; be 
integrated as key members of the broader public health and economic 
recovery efforts; and be accountable to the public. These teams should 
foster collaboration between State, local, and Tribal governments to 
assist Native communities; anticipate and mitigate negative 
consequences of current response strategies, such as bias in 
enforcement of public health guidelines; address racial discrimination 
within the health care system; and ensure access to tailored mental 
health services for people of color and immigrants who are experiencing 
added trauma, stigma, and fear. Ultimately, resources matter. State and 
local leaders must ensure that critical health and social supports are 
distributed fairly, proportionate to need, and free of undue 
restrictions to meet the needs of all groups, including black, Latino, 
Asian, and Indigenous communities.
            State and local leaders must ensure that critical health 
                    and social supports are distributed fairly, 
                    proportionate to need, and free of undue 
                    restrictions to meet the needs of all groups, 
                    including black, Latino, Asian, and Indigenous 
                    communities.
4.--Proactively identify and address existing policy gaps while 
        advocating for further Federal support.
    The Congressional response to COVID has been historic in its scope 
and speed, but significant gaps remain. Additional Federal resources 
are needed for a broad range of health and social services, along with 
fiscal relief for States and communities facing historically large 
budget deficits due to COVID. Despite these challenges, State and local 
leaders must still find ways to take targeted policy actions. The 
following questions can help guide their response.
            Who is left out?
    Inclusion of all populations will strengthen the public health 
response and lessen the pandemic's economic fallout for all of society, 
but Federal actions to date have not included all who have been 
severely harmed by the pandemic. As a result, many States and 
communities have sought to fill gaps in eviction protections and paid 
sick and caregiving leave. Others are extending support to undocumented 
immigrants and mixed-status families through public-private 
partnerships, faith-based charities, and community-led mutual aid 
systems. Vital health care providers, including safety net hospitals 
and Indian Health Service facilities, have also been disadvantaged and 
need targeted support.
            Will protections last long enough?
    Many programs, such as expanded Medicaid funding, are tied to the 
Federal declaration of a public health emergency, which will likely end 
before the economic crisis does. Other policies, like enhanced 
unemployment insurance and mortgage relief, are set to expire on 
arbitrary dates. And still others, such as stimulus checks, were one-
time payments. Instead, policy extensions should be tied to the extent 
of COVID infection in a State or community (or its anticipated spread) 
and/or to broader economic measures such as unemployment. This is 
particularly important as communities will likely experience reopenings 
and closings over the next 6 to 12 months as COVID reemerges.
            Have programs that meet urgent needs been fully and fairly 
                    implemented?
    All existing Federal resources should be used in a time of great 
need. For example, additional States should adopt provisions that would 
allow families with school-age children to receive added Supplemental 
Nutrition Assistance Program (SNAP) benefits, and more communities need 
innovative solutions to provide meals to young children who relied on 
schools or child care providers for breakfast and lunch. States should 
also revise eligibility, enrollment, and recertification processes that 
deter Medicaid use by children, pregnant women, and lawfully-residing 
immigrants.
5.--Invest in strengthening public health, health care, and social 
        infrastructure to foster resilience.
    Health, public health, and social infrastructure are critical for 
recovery and for our survival of the next pandemic, severe weather 
event, or economic downturn. A comprehensive public health system is 
the first line of defense for rural, Tribal, and urban communities. 
While a sizable Federal reinvestment in public health is needed, States 
and communities must also reverse steady cuts to the public health 
workforce and laboratory and data systems. Everyone in this country 
should have paid sick and family leave to care for themselves and loved 
ones; comprehensive health insurance to ensure access to care when sick 
and to protect against medical debt; and jobs and social supports that 
enable families to meet their basic needs and invest in the future. As 
millions are projected to lose employer-sponsored health insurance, 
Medicaid expansion becomes increasingly vital for its proven ability to 
boost health, reduce disparities, and provide a strong return on 
investment. In the longer term, policies such as earned income tax 
credits and wage increases for low-wage workers can help secure 
economic opportunity and health for all. Finally, States and 
communities should invest in affordable, accessible high-speed 
internet, which is crucial to ensuring that everyone--not just the most 
privileged among us--is informed, connected to schools and jobs, and 
engaged civically.
            Everyone in this country should have paid sick and family 
                    leave . . . comprehensive health insurance . . . 
                    and jobs and social supports that enable families 
                    to meet their basic needs and invest in the future.
                               conclusion
    These principles can guide our Nation toward an equitable response 
and recovery and help sow the seeds of long-term, transformative 
change. States and cities have begun imagining and, in some cases, 
advancing toward this vision, putting a down payment on a fair and just 
future in which health equity is a reality. Returning to the ways 
things were is not an option.

    Chairman Thompson. I understand Ms. Jackson Lee has a 
unanimous consent.
    Ms. Jackson Lee. Yes, Mr. Chairman. Can you hear me? Can 
you hear me?
    Chairman Thompson. Yes, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you so very much.
    I ask unanimous consent to place into the record current 
COVID-19 statistics in Houston, Texas, as of 7 a.m. at 7/8/20. 
Texas Coronavirus Timeline, Houston Chronicle, July 7, 2020, 
which captures the demise of our success story and also where 
we are today. Houston Chronicle, Evidence growing that 
Houston's main coronavirus strain is more contagious than the 
original, dated July 4, 2020. A pandemic plan was in place--by 
Stat News--Trump abandoned it, and science, in the face of 
COVID-19, dated May 17, 2020.
    Ask unanimous consent to place these items into the record.
    Chairman Thompson. Without objection.
    [The information follows:]
             Data Submitted by Honorable Sheila Jackson Lee
    Current COVID-19 Statistics as of 7 am 7/8/20:
US
    CONFIRMED CASES: 3.05M
    DEATHS: 133k
TEXAS
    CONFIRMED CASES: 216,167
    DEATHS: 2,758
HARRIS COUN1Y
    CONFIRMED CASES: 39,311
    DEATHS: 395
HOUSTON
    CONFIRMED CASES: 55,122
    DEATHS: 581
                                 ______
                                 
                       Texas Coronavirus Timeline
By Stephanie Lamm, Zach Despart, Jeremy Blackman, Jasper Scherer and 
        Taylor Goldenstein, July 7, 2020 10 o'clock a.m. https://
        www.houstonchronicle.com/projects/2020/texas-coronavirus-
        timeline/
            A State once lauded as a model for COVID-19 containment 
                    came to ``the verge of a nightmarish catastrophe'' 
                    on the Fourth of July. Here's how it happened.
March 4, 2020
    Dr. Jacquelyn Minter, director of Fort Bend County Health and Human 
Services, announces that a Fort Bend man in his 70's is the Houston 
area's first ``presumptive positive'' case of COVID-19.
March 11, 2020
    The Houston Livestock Show and Rodeo is canceled after a Montgomery 
County man in his 40's becomes the first person in Texas to contract 
COVID-19 from community spread.
March 16, 2020
    Harris County orders all bars closed and restaurants limited to 
takeout and delivery for 15 days. HISD schools close through at least 
April 10.
March 19, 2020
    Gov. Greg Abbott issues an executive order that limits social 
gatherings to no more than 10 people, closes all schools, shuts down 
bars and restricts restaurants. Texas declares a public health disaster 
for the first time in more than 100 years.
March 24, 2020
    Harris County Judge Lina Hidalgo and Houston Mayor Sylvester Turner 
announce a stay-home order for the county and city through April 3.
March 31, 2020
    Gov. Abbott issues an order that reopens churches with limitations. 
Many congregations say they will continue to hold services on-line and 
abide by recommendations to prevent the spread of COVID-19.
April 17, 2020
    Gov. Abbott announces he will reopen State parks, allow retailers 
to offer to-go sales and let physicians and nurses perform diagnostic 
tests and surgeries that had been put on hold to ensure hospital 
capacity for COVID-19 patients. ``We have demonstrated that we can 
corral the coronavirus,'' Abbott says.
April 21, 2020
    Harris County Judge Lina Hidalgo orders residents to cover their 
faces in public starting April 27. ``If we get cocky, we get sloppy, we 
get right back to where we started, and all of the sacrifices people 
have been making have been in vain,'' Hidalgo says while wearing a 
homemade mask. ``Let's not get complacent. Let's remember that we still 
have work to do.''
April 26, 2020
    White House coronavirus task force coordinator Dr. Deborah Birx 
holds out Houston as one of the places that give her ``great hope'' 
that the American economy can get rolling again.
April 27, 2020
    The State is testing 14,000 people a day, less than half of Gov. 
Abbott's goal of 30,000 as he announces he will lift his stay-home 
order on May 1. Some health experts warn that testing and contact 
tracing in Texas are insufficient for this move. ``Without robust 
testing, we remain in the dark,'' says U.S. Rep. Veronica Escobar, D-El 
Paso.
May 1, 2020
    Gov. Abbott lifts his stay-at-home order as the State reports a 
record 50 deaths in a day from the virus.
May 4, 2020
    Harris County officials extend their stay-home order through May 
20, encouraging residents to report violations. ``We need to remain 
vigilant for a phased reopening to work,'' County Judge Hidalgo writes 
on Twitter.
May 7, 2020
    Gov. Abbott amends his coronavirus executive order, removing jail 
time as a possible punishment for those who break it. Abbott makes the 
revision as he heads to Washington, DC, to meet with President Donald 
Trump, who praises him.
May 8, 2020
    Gov. Abbott slams Houston on National television over coronavirus 
restrictions and overstates the city's enforcement efforts. ``In 
Houston, they were issuing fines and potential jail time for anybody 
who refused to wear a mask,'' he says. No arrests or fines had been 
issued.
May 18, 2020
    Gov. Abbott presses ahead with the State's reopening, allowing 
nearly all businesses and activities to resume at a limited capacity. 
The State reports a record 58 deaths in a single day, though Abbott 
notes that the rate of people testing positive for the disease is 
falling.
May 25, 2020
    More than 250 social distancing complaints are lodged with the city 
of Houston over Memorial Day weekend, including concerns regarding a 
packed pool party at a Midtown club. ``I started getting pictures from 
City Council members and others saying, `This is crazy,' '' Mayor 
Sylvester Turner says.
May 21, 2020
    Gov. Abbott says the Panhandle is turning a corner after having 
been hit especially hard by infections at meatpacking plants. Abbott 
says the infusion of State and Federal resources into the region are a 
model for how to contain hotspots in Texas going foiward.
June 3, 2020
    All businesses operating at 25 percent capacity are permitted to 
expand occupancy to 50 percent--including bars--with certain 
exceptions. Amusement parks and carnivals in counties with less than 
1,000 confirmed positive cases may open at 50 percent capacity. (Staff 
photo by Melissa Phillip)
June 5, 2020
    Houston officials point to a 2-week rise in cases and 
hospitalizations, saying they suspect Memorial Day and the latest 
reopenings may be the cause. ``If the numbers keep up in this 
direction, we could be headed to a place where we run out of hospital 
space,'' Harris County Judge Lina Hidalgo says.
June 12, 2020
    Restaurants begin operating at 75 percent as the State records its 
highest number of COVID hospitalizations in a single day, 2,166. Bexar 
County Judge Nelson Wolff writes to Abbott asking that he be allowed to 
mandate masks. Gov. Abbott declines, saying: ``Judge Wolff and I have a 
philosophical difference. He believes in government mandates. I believe 
in personal responsibility.''
June 16, 2020
    Texas reports 2,518 hospitalizations, nearly a 66-percent increase 
since Memorial Day. ``It does raise concerns but as shown today there 
is no reason to be alarmed,'' Gov. Abbott says as he rejects requests 
from municipal leaders in Houston, San Antonio, Austin, Dallas, and 
Fort Worth for the ability to mandate masks.
June 17, 2020
    Bexar County Judge Nelson Wolff in Bexar County tries again with a 
new mandate that businesses require masks at all times. Abbott says go 
ahead. ``Government cannot require individuals to wear masks,'' Gov. 
Abbott tells WKTX in Waco. ``However . . . local governments can 
require stores and businesses to require masks.'' Leaders in Harris and 
other counties prepare similar rules.
June 19, 2020
    Amusement parks and carnivals in counties with more than 1,000 
confirmed positive cases of COVID-19 are allowed to open at 50 percent 
capacity.
June 22, 2020
    The positive test rate hits 9.76 percent, just shy of the number 
Gov. Abbott indicated would cause him to pause the State's reopening. 
Abbott pleads with Texans to practice social distancing and wear masks 
as he acknowledges that the virus is now ``spreading at an unacceptable 
rate.'' Health experts warn Houston could be the next epicenter of the 
National pandemic.
June 24, 2020
    Officials in Bexar and Harris counties say they are in crisis and 
Gov. Abbott signals that the reopening is in jeopardy as COVID 
infections and hospitalizations surge in the State. ``The numbers have 
completely spiked,'' Abbott says. The positive rate hits 11.76 percent.
June 25, 2020
    Gov. Abbott delays further reopenings and orders hospitals in the 4 
hardest-hit counties to postpone elective surgeries to make way for 
COVID patients. That night, Lt. Gov. Dan Patrick appears on National 
television to assure viewers that the State is not reversing course or 
running out of intensive care hospital beds. ``We have seen a spike in 
cases. We expected that,'' Patrick says, pointing falsely to increased 
testing.
June 26, 2020
    Gov. Abbott orders bars to close again and rolls back restaurant 
capacity to respond to increasing COVID hospitalizations. Infectious 
disease expert Peter Hotez tells CNN that deaths are a lagging 
indicator and will inevitably rise in the coming weeks: ``This is a 
tragedy.''
July 2, 2020
    Gov. Abbott orders nearly all Texans to begin wearing face masks in 
public as the State enters the Fourth of July weekend amid a dire 
stretch of new infections, surging hospitalizations and with deaths 
beginning to mount.
    ``We have the ability to keep businesses open and move our economy 
forward--but it requires each of us to do our part to protect one 
another,'' he says.
July 4, 2020
    ``We're on the verge of a nightmarish catastrophe,'' says Vivian 
Ho, a health economist at Rice University and the Baylor College of 
Medicine, as the State logs 7,890 hospital beds occupied by COVID-19 
patients, a 43 percent increase from the week before. ``On May 1, I 
thought we actually had a chance to get this virus under control and 
get the economy opened up safely. I'm not sure we can get it under 
control anymore.''
                                 ______
                                 
           Article Submitted by Honorable Sheila Jackson Lee
    evidence growing that houston's main coronavirus strain is more 
                        contagious than original
Todd Ackerman, July 4, 2020, Houston Chronicle, Updated: July 8, 2020 
        1:48 p.m.
https://www.houstonchronicle.com/news/houston-texas/houston/article/
        coronavirus-evidence-growing-houston-strain-mutant-15386157.php
    Evidence is growing that a mutated coronavirus strain, the main one 
circulating in the Houston area, is more contagious than the original 
virus in China.
    Two new research papers show that the newer strain is more 
transmissible, a possibility first suggested by a team of scientists in 
May. At the time, that suggestion was considered highly speculative by 
many scientists, including some in Houston.
    ``A summary of the data thus far suggests that this strain has 
gained a fitness advantage over the original and is more transmissible 
as a result,'' said Joseph Petrosino, Baylor College of Medicine chair 
of molecular virology and microbiology. ``It is safe to say this 
version is more infectious.''
    Evidence is growing that a mutated coronavirus strain, the main one 
circulating in the Houston area, is more contagious than the original 
virus in China.
    Two new research papers show that the newer strain is more 
transmissible, a possibility first suggested by a team of scientists in 
May. At the time, that suggestion was considered highly speculative by 
many scientists, including some in Houston.
    ``A summary of the data thus far suggests that this strain has 
gained a fitness advantage over the original and is more transmissible 
as a result,'' said Joseph Petrosino, Baylor College of Medicine chair 
of molecular virology and microbiology. ``It is safe to say this 
version is more infectious.''
    Petrosino said that although Baylor hasn't yet conducted a 
surveillance study, the area rate of positive tests and increase in 
hospitalizations point to a significantly higher prevalence of the 
virus strain now. He said Baylor is finding the mutated strain in as 
many as 80 percent of viruses it analyzes.
    Houston Methodist researchers reported the strain was prevalent in 
the Houston area in a paper in mid-May. The paper said 70 percent of 
the specimens examined, taken from COVID-19 patients treated at 
Methodist from early March to March 30, showed a mutation to the spike 
proteins the coronavirus uses to attach to and enter human respiratory 
cells.
    The week before, researchers at Los Alamos National Laboratory 
reported on the mutation. They said it doesn't make people sicker, but 
appears to facilitate the spread of the virus.
    The Los Alamos team expanded on the findings in a peer-reviewed 
paper published in the journal Cell Thursday.
    The Methodist researchers were among scientists skeptical of that 
conclusion. Dr. James Musser, the hospital's chairman of pathology and 
genomic medicine and a study author, said Friday he would like the 
science to play out a bit more as studies reviewed by scientists are 
published. He gave no update on the percentage of mutated strains 
analyzed at Methodist.
    The mutation is thought to have occurred in Europe, then was 
introduced by travelers to the east coast of the U.S., particularly New 
York. It has since become the world's most dominant strain, accounting 
for about 65 percent of cases submitted to a major data base from 
around the world, according to one team of scientists.
    Except for the new Cell publication, all of the papers are examples 
of what is known as ``pre-prints,'' preliminary reports made public 
ahead of their peer-reviewed publication because of the discoveries' 
time-sensitive nature.
    One of the papers, by a Scripps Research Institute team, showed 
that significantly increasing the number of functional spikes on the 
viral surface in laboratory experiments allowed the virus to bind to 
and infect cells. It said that the mutation provides greater 
flexibility to the spike's ``backbone,'' which makes viral particles 
better able to navigate the process fully intact.
    ``Over time, it has figured out how to hold on better and not fall 
apart until it needs to,'' Michael Farzan, a paper author and co-
chairman of the Scripps department of immunology and microbiology, said 
in a news release.
    Another paper, by the New York Genome Center, found a huge increase 
in viral transmission when researchers switched from the original virus 
sequence to the mutated one, a change they interpret as an indication 
the new strain is more efficient at invading the human cell and taking 
over its reproductive machinery.
    At least three other lab experiments suggest that the mutation 
makes the virus more infectious, the Washington Post reported Thursday. 
Those findings also appeared in pre-prints.
    The mutation, known as D614G, involves one of roughly 1,300 amino 
acids that act as building blocks for the spike protein. Not much 
different from the original virus, it switched genetic instructions for 
the amino acid 614 from an aspartic acid (D) to a glycine (G).
    In the Cell paper, the Los Alamos researchers wrote that patients 
with the D614G mutation have more virus in their bodies. Their 
laboratory experiments found the mutation is three to six times more 
capable of infecting human cells.
    Strains of the virus circulating in the Houston also include the 
original one from China and one from South America, according to 
Methodist's study. The area's multiple-continent seeding contrasts with 
relatively single-continent seeding in New York and Seattle. Seattle's 
came mostly from Asia.
    Many scientists, noting one paper found no evidence of increased 
transmissibility, say the evidence for D614G's greater contagiousness 
is still far from definitive. ``This is an extraordinarily challenging 
problem, the evolution and demography are complex, so there's much more 
work to be done,'' Marc Suchard, a biostatistician at the UCLA School 
of Medicine, told the New York Times.
    Though Baylor's Petrosino suggests the mutated strain is more 
prevalent, he adds that the recent spike is mostly a result of people's 
wanting to gather and being willing to take risks to do so.
    ``The bulk of it is from people not social distancing properly, not 
masking appropriately and a reluctance to participate in contact 
tracing,'' said Petrosino. ``I think people have been getting tired of 
the safety measures and have started becoming more lax in their 
practices.''
                                 ______
                                 
           Article Submitted by Honorable Sheila Jackson Lee
 a pandemic plan was in place. trump abandoned it--and science--in the 
                            face of covid-19
By Jason Karlawish, May 17, 2020, STATNEWS, First Opinion
https://www.statnews.com/2020/05/17/the-art-of-the-pandemic-how-donald-
        trump-walked-the-u-s-into-the-covid-19-era/
    President Obama was bothered. It was the summer of 2009 and he was 
in a meeting at the White House to talk about preparations for an 
expected autumn outbreak of swine flu. Elbows on the table, he thumbed 
through the pages of a report on preparations for it.
    ``So,'' he asked no one in particular, ``if you guys are so smart, 
how come you're still making this in eggs?'' he asked, referring to the 
nearly century-old process for making vaccines in chicken eggs.
    Those around the table erupted into laughter. The president's quip 
was a moment of levity at an otherwise serious meeting.
    The ``smart guys'' the president was jesting with were the members 
of the President's Council of Advisors on Science and Technology, or 
PCAST. Founded in 1990 by President George H.W. Bush, the council, 
administered by the White House Office of Science and Technology Policy 
(OSTP), is an advisory group of scientists and engineers appointed by 
the president to augment the science advice he receives from other 
White House advisors, departments, and agencies.
    In June 2009, the recently inaugurated Obama had given his PCAST 
advisors their first assignment: What does the president need to do to 
prepare for an influenza pandemic? Five weeks later, on Aug. 7, they 
gave him their answers at a meeting in the White House's State Dining 
Room.
    The story of this meeting and the ensuing 8 years of science-
informed policymaking, which I have drawn from interviews with members 
of PCAST and internet archives of documents, show a president 
comfortable with having back-and-forth discussions with an assembly of 
the some of the nation's top scientific minds. The president was 
committed to integrating science into his day-to-day decisions. One of 
those decisions was how to plan for and respond to the outbreak of a 
pandemic illness.
    Over the course of the Obama presidency, a pandemic infrastructure 
was put in place. It included recommendations for a top-level White 
House official devoted to planning and responding to emerging 
infectious threats and, to guide that person's work, the ``Playbook for 
early response to high-consequence emerging infectious disease threats 
and biological incidents.''
    And then on Jan. 21, 2017, Donald Trump became president.
    Beginning the morning after his inauguration, a spectacular 
science-related tragedy has unfolded. The Trump administration has 
systematically dismantled the executive branch's science infrastructure 
and rejected the role of science to inform policy, essentially 
reversing both Republican and Democrat Presidential administrations 
since World War II, when Vannevar Bush, an engineer, advised Presidents 
Franklin D. Roosevelt and Harry S. Truman.
    President Trump's pursuit of anti-science policy has been so 
effective that as the first cases of COVID-19 were breaking out in 
Wuhan, China, no meaningful science policy infrastructure was in place 
to advise him. As a consequence, America is suffering from a pandemic 
without a plan. Our responses are ineffectual and inconsistent. We are 
increasingly divided by misinformation and invidious messaging. And 
it's not even over.
    To understand how Trump walked America into this mess, and that his 
recent claim he ``inherited practically nothing'' in pandemic 
preparedness from the previous administration is plainly wrong, it 
helps to have a picture of the infrastructure he neglected and ignored.
    On April 27, 2009, on the eve of his 100th day in office, Obama 
made a five-block trip from the White House to 2101 Constitution Ave. 
There, in the Great Hall of the National Academy of Sciences, he spoke 
about his administration's commitment to science.
    ``Science is more essential for our prosperity, our security, our 
health, our environment, and our quality of life than it has ever been 
before,'' he announced. He introduced the members of PCAST and 
explained how his administration would engage the scientific community 
directly in the work of public policy.
    ``I want to be sure that facts are driving scientific decisions--
and not the other way around,'' the president said. The audience broke 
into laughter.
    Obama explained that his science advisers were already briefing him 
daily on the emerging threat of swine flu, which some were projecting 
could kill thousands of Americans.
    The day before this speech, which came just 12 days after the first 
case of swine flu had been reported in the U.S., Obama had declared a 
public health emergency. Three days after the speech he asked Congress 
for $1.5 billion to address this emergency.
    In the weeks that followed, the White House science policy 
infrastructure he had introduced at the National Academy of Sciences 
set to work.
    Although every president since Franklin Roosevelt has had some 
engagement with science policymaking, the degree of the contact between 
the president and his science advisers has varied.
    George H.W. Bush met frequently with his head of OSTP, Allan 
Bromley, a physicist and former Yale classmate of the president. George 
W. Bush, in contrast, met just seven times with the head of his Office 
of Science Technology and Policy, John H. Marburger III, and eliminated 
two associate directors from the office. Obama's engagement with his 
science policy apparatus was singular. He met with his OSTP director, 
John Holdren, as often as seven times a week.
    Holdren, a plasma physicist whose scientific career included 23 
years co-directing the Energy and Resources Group at the University of 
California, Berkeley, had this regular and close contact with Obama 
because, in addition to leading the OSTP and acting as co-director of 
the President's Council of Advisors on Science and Technology, he was 
the assistant to the president for science and technology.
    The title of assistant to the president grants its holder great 
privilege and power. Assistants to the president have direct access to 
the president. An assistant can schedule a meeting with the president 
or send a memo directly to the president. Even cabinet secretaries 
aren't afforded such direct and easy access. To send a memo or meet 
with the president, they must work through the assistant to the 
president for cabinet affairs.
    There are, of course, many Federal agencies and departments engaged 
in science policy, such as the Centers for Disease Control and 
Prevention, the Food and Drug Administration, the National Aeronautics 
and Space Administration, the Departments of Agriculture and Energy, 
and more. Each has its own mission and focus. The PCAST provides the 
president with immediate daily access to science information and advice 
that are independent of the agendas of these various agencies and 
departments.
    Easy and continuous access to science was of notable value to the 
administration's early, rapid, and sustained efforts to plan for a 
viral pandemic.
    PCAST's ``Preparations for 2009-H1N1 Influenza'' identified 
multiple on-going efforts across the government to plan for a viral 
pandemic. It also made recommendations. One stands out.
    During a pandemic, important decisions must be made rapidly and 
based on limited data. PCAST recommended designating one individual, 
preferably the homeland security adviser, to coordinate all policy 
development and report directly to the president.
    Obama took that advice and asked John Brennan, a career CIA 
employee and assistant to the president for homeland security, to take 
on the task. Like Holdren, Brennan reported directly to the president. 
The two assistants worked closely together.
    The initial flare of swine flu tapered off in the summer of 2009, 
but came back again in the fall as expected. The resurgence was managed 
well. Surveillance was in place, a vaccine was developed, and messaging 
had been implemented to quell unfounded fears of its risks.
    What was clear, however, was that the next viral infection might 
not be so easily managed. Vaccines were not readily available for 
viruses such as Ebola and coronaviruses. The question wasn't whether a 
pandemic would occur, but when.
    More work and reports followed.
    A 2010 PCAST report answered the president's egg question. It 
recommended reengineering the influenza vaccine production enterprise.
    Recombinant DNA technology and other methods are now used to make 
vaccines in addition to the egg-based method.
    By 2016, the final year of the Obama Administration, much had been 
learned from swine flu about managing a pandemic, and more knowledge 
had been added from the responses to the 2014 Ebola outbreak in West 
Africa. From October 2014 through February 2015, Ron Klain, a former 
chief of staff to Vice President Joe Biden, was the White House Ebola 
response coordinator.
    From this experience, Klain concluded that a director with singular 
focus was needed for a pandemic. ``The next president should put a 
coordinating unit together before an outbreak begins,'' he argued in 
his essay ``Confronting the Pandemic Threat'' in the spring 2016 
Democracy Journal.
    Klain called for a pandemic prevention directorate to make sure 
preparation and response are a priority from day one in a new 
administration and to oversee the government's response to a pandemic.
    PCAST endorsed Klain's recommendation. In a November 2016 report, 
the council recommended that an assistant to the president for pandemic 
prevention and response should be part of the National Security Council 
staff. The council gave the incoming Trump administration what it 
called an important overarching observation: ``There is significant 
overlap between some of the steps needed to protect the Nation from 
intentional biological attack and those needed to protect against 
natural outbreaks of new and emerging infectious diseases.''
    Another important event in 2016 was a Federal effort that engaged 
the work of PCAST, OSTP, and other agencies and departments to create 
the ``Playbook for early response to high-consequence emerging 
infectious disease threats and biological incidents.'' This 69-page 
document was written to coordinate a response to an emerging disease 
threat anywhere in the world. It detailed decisionmaking rubrics with 
key decisions and questions such as these: ``Determine whether to 
implement screening and monitoring measures, or other travel measures 
within the U.S. or press for measures globally'' and ``What are the key 
services and critical infrastructure that need to come back on line for 
society to return to normal?''
    Together, the November 2016 PCAST report and the playbook were 
messages to the incoming president to pick up where the Obama 
Administration had left off, since more work was needed to prepare for 
and respond to a future pandemic.
    None of that happened.
    On the morning of Jan. 22, 2017, the day after Trump's 
inauguration, the PCAST website was taken down and all of its reports 
vanished from the White House website (though they can be found in the 
Obama White House archives).
    For 2 years, the directorship of OSTP was vacant, the longest in 
its history. The staff was reduced by two-thirds. The current director, 
Kelvin Droegemeier, a professor of meteorology at the University of 
Oklahoma whose appointment was confirmed by the Senate on Jan. 2, 2019, 
isn't an assistant to the president and is unable to directly 
communicate with the president.
    PCAST lay dormant until November 2019, when Trump appointed members 
to it. Unlike its predecessor, which included a diversity of scientists 
from academia and industry, the current version includes members drawn 
primarily from industry. Their charge has been narrowed. The council is 
to advise the president on ``how does America win in the Industries of 
the Future and how do we prepare the workforce of the future to take 
advantage of this opportunity?'' They're not to produce any reports 
(the prior PCAST produced 39 reports).
    The minutes of the council's meeting on Feb. 3 and 4, 2020, include 
no discussion of the COVID-19 pandemic.
    The sum of the work done by Trump's Council of Advisors on Science 
and Technology? Zero.
    The follow-up on the 2016 recommendation for an assistant to the 
president dedicated to pandemic prevention and response also fell on 
deaf ears.
    As Ebola was once again breaking out in West Africa, Rear Admiral 
Timothy Ziemer, who had been charged with creating a national 
biodefense strategy, resigned from Trump's National Security Council on 
May 11, 2018. At the time of his departure, that strategy hadn't yet 
been created.
    The remaining staff members were faced with managing a portfolio 
that bundled together epidemics, biological threats, and weapons of 
mass destruction. Dividing their time among many responsibilities whose 
day-to-day urgencies can seem to be greater than preparing for a future 
pandemic is precisely what Ron Klain and PCAST had warned about in 
2016. The Pandemic Playbook was neglected, and its existence has even 
been denied.
    By the end of December 2019, as the COVID-19 epidemic began 
breaking out in China, Trump was largely without any coherent 
scientific input into his policymaking. Given that none of the 
president's assistants, the people with direct access to him via memo 
or meeting, have any scientific expertise, his nonresponse, even 
complacency, in the face of the emerging epidemic in China is sadly 
understandable.
    On March 10, after a meeting with U.S. senators about COVID-19, the 
president remarked to the press that America was prepared and doing a 
great job. ``And it will go away. Just stay calm. It will go away,'' he 
insisted.
    The next day, the World Health Organization said that the global 
outbreak was a pandemic. And in the U.S. alone, as I write this nearly 
1.5 million Americans have developed COVID-19 and nearly 90,000 have 
died from it.
    Remarks such as ``it will go away'' cannot be excused as occasional 
gaffes or verbal missteps. They're the words of someone who simply 
doesn't understand science--and doesn't want to.
    The COVID-19 pandemic is a problem that must be understood and 
addressed using sciences such as virology, epidemiology, public health, 
and biomedicine. Yet in the face of a crisis that needs science, 
America is led by an administration that not only isn't scientific but 
is actively anti-science.
    Trump's remarks, from long before he was elected president and 
throughout his presidency, on a variety of topics including vaccines 
and autism, climate change, and wind farms, show he rejects scientific 
conclusions and methods.
    From the stage of the White House briefing room, Trump has likened 
the COVID-19 virus to a bacterium that is resistant to antibiotics, 
insisted that the virus could not cause a pandemic, that warm weather, 
as well as sunlight, will kill it, and has repeatedly touted untested 
pharmaceuticals such as hydroxychloroquine and noxious household 
detergents as interventions to either prevent or treat infection.
    Too little and too late Trump let scientists such as Anthony Fauci 
and Deborah Birx share the stage. But even then he has undercut their 
messages and spread confusion.
    Trump, for example, asserted that Fauci was ``playing both sides'' 
(sides he did not name) in decisions about whether and how to reopen 
schools. Fauci, in fact, had called for an approach to reopen schools 
that was informed by evidence to respect regional differences. ``We 
have a very large country and the dynamics of the outbreak on 
different, in different regions of the country. So I would imagine that 
situations regarding school will be very different in one region versus 
another, so it's not going to be universally, or homogeneous.''
    I'm a scientist. I don't believe in science--I reserve belief for 
religion. I trust in science to help me diagnose and treat my patients, 
to understand how Alzheimer's disease robs them of their memories and 
ability to function, and to find new treatments for it and other 
diseases. And now, during this awful pandemic, I desperately want my 
president to trust it too. And yet he won't even wear a mask.

Jason Karlawish is a physician, co-director of the Penn Memory Center, 
and author of the forthcoming book, ``The Problem of Alzheimer's: How 
science, culture and politics turned a rare disease into a crisis and 
what we can do about it'' (Macmillan/St. Martin's Press, November 
2020).

    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Thompson. [Inaudible] Thank you very much, Ms. 
Jackson Lee.
    We now have Ms. Barragan from California for 5 minutes.
    Ms. Barragan. Thank you, Chairman Thompson, for convening 
this hearing today.
    The Trump administration's response to the coronavirus 
pandemic has been inadequate. We have seen the pandemic raging 
through our country. We are seeing spikes. We have heard from 
public health officials that they tried early on, Dr. Bright in 
particular, to warn this administration, to request that they 
immediately start getting PPE, and that advice was not 
followed. We are still in the first wave of the pandemic, and 
public health experts warn of a disastrous second wave if we do 
not reduce the spread of the virus.
    So it is crucial to ensure the Federal Government leads by 
both example and do direct assistance and that any and all 
reduction measures implemented or revised by the Government are 
backed by science and our public health officials.
    I want to start my first question, Dr. Shah and Mayor 
Shelton, as part of the response to homelessness during COVID-
19, FEMA has committed to reimburse 50 to 75 percent of 
expenses for shelter and temporary housing through their Public 
Assistance Program, Category B. Having a range this large makes 
it difficult for a continuum of care and other jurisdictions to 
project funding plans as this range is large. Along the same 
lines, we have been told that it could take 4 to 5 years for 
localities to receive FEMA reimbursements.
    Dr. Shah and Mayor Shelton, can you comment on what effect 
this has on the uncertainty of the ability to respond to the 
pandemic and recover from the crisis?
    Dr. Shah. Congresswoman, I will go first only because you 
said doctor first, so I will just go first and then turn it 
over.
    You know, there are two inherent questions that you are 
asking. One is about homeless individuals and those, you know, 
that we are absolutely concerned about in our communities, 
obviously the concern about the inability potentially to 
isolate and/or potentially to spread infection if they test 
positive. On the flip side, the other question is really about 
the longer-term impact of uncertainty in reimbursement. I think 
both are critical. We have to do what we have to do to protect 
our communities now, and we oftentimes are thinking, 
unfortunately, of doing what we have to do today and then 
hoping that there is not this delay in the reimbursement side, 
because that then obviously gives--that uncertainty gives pause 
because there is only a limited number of dollars that you have 
to be able to do what you need to do to protect the community.
    With that, I will yield to the mayor.
    Mr. Shelton. [Inaudible]
    Ms. Barragan. Mr. Mayor, I think you are on mute.
    Mr. Shelton. Sorry about that.
    Thank you, Doctor.
    Thank you, Congresswoman, for the question and opportunity.
    During the COVID crisis, we have continued our homelessness 
outreach here in the city of Tupelo. We contract with an 
organization, Mississippi United To End Homelessness, here in 
Tupelo. So we have continued those and just tried to do the 
best we can as far as, you know, safety precautions, masking, 
you know, that type thing. But we have continued our efforts 
there.
    I can speak first-hand to the FEMA issue, though. We had a 
tornado, F3 tornado, hit the city of Tupelo in 2014, caused 
wide-spread damage throughout the city. President Obama quickly 
declared a National disaster, and, you know, we got Federal aid 
that was desperately needed and greatly appreciated. But we are 
still, you know, 6 years later, we are still dealing with the 
red tape for reimbursements and that type thing. So, you know, 
6 years later, even though the help, we requested it, the 
President was gracious enough to send that help, but, you know, 
we are still dealing with that now, and we are in a new 
National disaster with this and other things along the way.
    Ms. Barragan. Thank you.
    Dr. Shah, you in your written testimony, talked about the 
public health department in Harris County faced strong pushback 
from congregate settings to investigate and test within 
facilities due to overlapping State and Federal jurisdictions 
of facilities.
    I happen to represent Terminal Island Federal prison where 
there was almost a 70 percent outbreak of COVID-19. What 
specifically should the Federal Government be doing to help 
local public health departments combat the spread of 
coronavirus in congregate facilities?
    Dr. Shah. Thank you, Congresswoman. First, it is that 
support with resources, tools, what has worked in other 
settings, that technical assistance. The second is really a 
markedly more nuanced look at what are the authorities that are 
available, whether it is through the Federal Government or 
working with State governments, to allow for public health 
departments to be able to assess and test in these congregate 
settings.
    In nursing homes, obviously, that is the highest level of 
concern in many ways, and I will say that our State was able to 
work with local health authorities to allow us to be able to go 
in and assess. But when we get past nursing homes into other 
tiers, it becomes more of a knocking on a door, sending 
correspondence, and not being able to have the authority to go 
in unless you have a bona-fide proven case, and that is the 
limitation that we have.
    So this is where the Federal Government can really help 
with strategies and technical assistance and, if necessary, 
changing some of those authorities that would really allow, 
especially in a crisis like this, to be able to have public 
health departments or health authorities like myself to be able 
to do more so we can protect the most vulnerable in our 
communities.
    Ms. Barragan. Thank you.
    With that, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentlelady from New Jersey, 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Thank you to each of the witnesses for 
sharing very important information with us.
    I would like to just sort-of establish a chronology that I 
think is relevant to our discussion here, because everyone is 
talking about, at least my colleagues on the other side of the 
aisle, about having never been here before and experiencing 
this virus and this pandemic and not ever having had this 
experience.
    I want to harken us back to 2005 when the Bush 
administration released its National strategy for pandemic 
influenza, recognizing the prospects of a pandemic and saying 
that there needed to be greater coordination, domestic 
production, and stockpiling of medical supplies, et cetera.
    Then in 2016, the Obama administration developed a 
strategic playbook on pandemic preparedness, a 69-page guidance 
on fighting pandemics. The incoming administration, the Trump 
administration, was indeed briefed on this playbook's existence 
but reportedly didn't heed the advice.
    Also in 2016, the Obama administration, recognizing that 
you had to elevate these issues to the highest level, created 
the National Security Council Directive for Global Health 
Security and Biodefense in the White House, something that this 
President disbanded in the office in 2018.
    In 2017, the Department of Defense finalized a report of a 
pandemic influenza saying that a catastrophic biological 
incident could threaten the Nation's human, animal, plant, and 
environment and health, et cetera.
    Months before that, the Trump administration eliminated a 
position of a medical epidemiologist which was embedded in 
China's disease control center, and leaving that post left us 
without on-the-ground knowledge when things were heating up 
immediately.
    I say all that to say--and there is even more than that. I 
say all that to say that there was forewarning, forearming, and 
guidances on how to deal with something of this nature.
    The one thing that was prominent in all of these 
discussions and these guidances were that you needed strategic, 
coordinated leadership at the very, very top. Instead of 
talking about this virus being a hoax, talking about it having 
a limited severity, talking about it being something that was 
just going away, the opposite has absolutely happened, and this 
administration has been an abysmal failure in keeping us 
Americans safe from the ravages of this pandemic.
    I also wanted to just say for the record that we have been 
criticized for not being in Washington face-to-face doing 
business because the Senate is face-to-face doing business and 
the White House is face-to-face doing business, but we know 
with the Senate's failure to pass the HEROES Act and the White 
House failing to deal with these issues of coronavirus and 
trying to shut down any kind of medical information that is 
coming out and guidance, that neither of those entities is 
doing a job even though they are face-to-face.
    But having said all that, I have got one question. Why am I 
still seeing lanes and lanes and hours and hours of cars in 
line waiting to be tested at this stage in this pandemic in any 
State? Why, oh why, oh why, is it taking more than 24 hours to 
have the results of the tests that were taken so that the 
contact tracing that would take place would be relevant and 
helpful?
    So I want to ask that question of Dr. Shah and of Colonel 
Hastings.
    Dr. Shah. Thank you, Congresswoman. First is that the lines 
obviously are because we are seeing--at least in our 
communities, we are seeing increased demands, increased demand 
with limited supply, and there you go, there you get the 
results.
    On the lab side, which I think is a really critical piece 
that I mentioned just quickly earlier, that is an on-going 
issue. Even on our FEMA Federal sites, the turnaround time in 
lab results is a problem, and sometimes it is a couple of weeks 
before we get those results back. It has gotten better, but it 
is not where it needs to be.
    So the individual may not get their lab, and you know how 
it is, if any of us don't get a laboratory result, and what it 
means for us as a person and what it means for the physician or 
the health care provider and, absolutely, the public health, it 
is a problem. Because as you said, very appropriately, it 
delays the entire system.
    Here is the final answer. We don't have a system, 
especially electronically. We should have a system so this 
should not be happening in our country today.
    Mrs. Watson Coleman. Is this not something that is 
attributed to the fact that we haven't had a rigorous, 
rational, and consistent Federal leadership and coordination 
around these issues?
    Dr. Shah. I think there is--there are a lot of things that 
play into this. I do think it starts with the Federal 
Government, but it is not limited to the Federal Government. I 
think there is something about how commercial labs are doing 
things, the recording, the requirements. We are getting 
incomplete, inaccurate. Sometimes we are just being told, 
``Umair Shah, no contact information.'' Before we can even 
trace the context, we have to go trace the case and figure out 
who that individual is, and then 4 or 5 days later, from a 
different line list from the State, we get that same individual 
as a duplicate, and now we have to go back and match. Then we 
are getting it by fax, and we are getting it by email. We are 
not getting it in the format that should be required. Again, we 
don't have a system.
    Mrs. Watson Coleman. Thank you, Dr. Shah. I submit to you 
that that still has to do with the lack of leadership, 
guidance, regulations and accountability, suggestions and 
helpfulness on the part of this failed administration, and with 
that, I yield back. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The gentlelady yields back.
    The Chair recognizes the gentlelady from Orlando, Mrs. Val 
Demings.
    Mrs. Demings. Well, thank you so much, Mr. Chairman, and 
thank you so much to our witnesses who are with us today.
    Dr. Shah, with regard to the vendors for testing kits, 
could you explain in more detail what challenges you have had 
with unreliable vendors, particularly regarding their efforts 
to sell you emerging testing technology?
    Dr. Shah. Well, Congresswoman, this is an on-going issue 
for us, and I will tell you that being the third-largest county 
in the United States, that when vendors and others see 
something in the news, whether it is contact tracing or 
laboratory or something else happening, they make contact. I 
have put my email information, I am active on social media, so 
people try to contact me directly, or our team members. I will 
tell you, this has really been a problem, because there has 
been no--there hasn't been a great way to have a clearinghouse, 
if you will, of the minimum of what you are looking for.
    This is where, you know, I know the FDA has made strides. 
It has been overwhelming, because there are so many vendors, 
but that is a role that can also be at a Federal level, to 
really help give that technical assistance across the system.
    The other piece of this, which I think is critical, is that 
everybody has become an expert in all of these, right? So 
contact tracing, now everyone says, I can do contact tracing 
for you, and the moment they see an increase in activity, some 
are doing it out of the goodness of their heart because they 
want to help, and others unfortunately are doing it because 
they want to make a buck, and it is really hard to decipher in 
between, and that has been a real challenge.
    Mrs. Demings. Doctor, you talked about how the Federal 
Government could, perhaps, help in this area, so local health 
departments and others don't have to try to figure out what is 
reliable or what is not. Could you give me some examples of how 
you feel the Federal Government could be a greater help to you?
    Dr. Shah. Sure. I have said this in both my oral testimony, 
and also my written testimony, so, please, if your staff can 
look at that more closely, there may be some additional ideas 
here. But I think, in general, what it is, is that we are left 
fending for ourselves. It feels that we are learning every day 
something new. As the Congresswoman from New York had mentioned 
just earlier, instead of being able to learn from those other 
entities across the system, and/or getting the Federal guidance 
that says, here is the minimum standard that you should be 
looking at, you should be utilizing, or, here are the kinds of 
things you should be looking at--I get that we have to be 
careful in the private sector, we can't say, not this one, not 
that one--but at least give us those minimum standards that 
allow us to make informed decisions. That really would help us, 
rather than for us to be trying to do this on our own, and that 
is a challenge for us, and it remains--and I suspect it will 
remain for the next several months as we continue in different 
phases, including in the vaccine world.
    As soon as we get to vaccines, it is also going to be this 
whole piece about how do we get supplies to you, how do we get 
other, you know, materials to you, who can do it better, who is 
going to--and again, we are going to have this avalanche of 
people reaching out, and we are not going to be able to handle 
all those requests.
    Mrs. Demings. Then finally, I know we have been talking 
about the lack of PPE equipment since the very beginning, but 
as we approach the fall and, you know, the stories of, are we 
going to see a resurgence, we aren't really sure what the 
landscape is going to look like, what particularly concerns you 
about supply chains moving into the fall?
    Dr. Shah. Well, you know, Colonel Hastings said it really 
nicely, which is that all of it concerns us, you know, and 
really, it is obviously what is happening in the health care 
system. We want to make sure we protect our health care 
providers, our first responders, the ones who are repetitively 
being, obviously, in contact with a COVID-positive patient.
    In addition to that, we really are very concerned about 
making sure that the supply chain constraints are alleviated as 
we continue to have more demand, as you get into the fall 
season again, with flu and other infectious diseases. They do 
not miraculously go away. They have not miraculously made room 
for COVID-19. They are still there, or they will be there, and 
we have to make sure that whether it is gloves, or masks or 
gowns, or lab materials, that all of these are really there and 
the constraints are not, again, left to locals or States trying 
to figure out what is the best way to procure for their 
communities.
    Mrs. Demings. Dr. Shah, thank you so much.
    Mr. Chairman, thank you, and I yield back.
    Chairman Thompson. Thank you very much, Madam 
Congresswoman. Let me thank all of the witnesses again for 
bearing with us through some technology challenges, but the 
information you provided us has been very, very helpful. We are 
trying to get it right, not only because as Americans we have a 
responsibility to do that, but it is so, so very important that 
in getting it right, we can also save lives. So your testimony 
has been very, very helpful.
    The Members of this committee, however, may have additional 
questions for you, and we ask that you respond expeditiously, 
in writing, to those questions. Without objections, the 
committee record shall be kept open for 10 days. Hearing no 
further business, the committee stands adjourned.
    [Whereupon, at 3:21 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
